<html>
<title> - CYBERSECURITY: NEXT STEPS TO PROTECT OUR CRITICAL INFRASTRUCTURE</title>
<body><pre>[Senate Hearing 111-667]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-667
 
                 CYBERSECURITY: NEXT STEPS TO PROTECT 
                      OUR CRITICAL INFRASTRUCTURE 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 23, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-888 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 23, 2010................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Snowe.......................................     3
    Prepared statement...........................................     5
Statement of Senator Ensign......................................    36
Statement of Senator Pryor.......................................    38
Statement of Senator Begich......................................    41
Statement of Senator Klobuchar...................................    43
Statement of Senator Thune.......................................    47

                               Witnesses

Vice Admiral Michael McConnell, USN (Retired), Executive Vice 
  President, National Security Business, Booz Allen Hamilton.....     7
    Prepared statement...........................................    10
James A. Lewis, Director and Senior Fellow, Technology and Public 
  Policy Program, Center for Strategic and International Studies.    12
    Prepared statement...........................................    14
Scott Borg, Director and Chief Economist, U.S. Cyber Consequences 
  Unit...........................................................    17
    Prepared statement...........................................    19
Mary Ann Davidson, Chief Security Officer, Oracle Corporation....    21
    Prepared statement...........................................    23
James Arden ``Jamie'' Barnett, Jr., Rear Admiral, USN (Retired), 
  Chief, Public Safety and Homeland Security Bureau, FCC.........    27
    Prepared statement...........................................    29

                                Appendix

Hon. Tom Udall, U.S. Senator from New Mexico, prepared statement.    55
Written questions submitted by Vice Admiral Michael McConnell to:
    Hon. John D. Rockefeller IV..................................    55
    Hon. Tom Udall...............................................    55
Response to written questions submitted by Dr. James A. Lewis to:
    Hon. John D. Rockefeller IV..................................    56
    Hon. Tom Udall...............................................    57
    Hon. John Ensign.............................................    57
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to Scott Borg...................................    58
Response to written questions submitted by Mary Ann Davidson to:
    Hon. John D. Rockefeller IV..................................    60
    Hon. Tom Udall...............................................    62
    Hon. John Ensign.............................................    72
Response to written questions submitted by Rear Admiral James 
  Barnett, Jr. to:
    Hon. John D. Rockefeller IV..................................    75
    Hon. John Ensign.............................................    77


    CYBERSECURITY: NEXT STEPS TO PROTECT OUR CRITICAL INFRASTRUCTURE

                              ----------                              


                       TUESDAY, FEBRUARY 23, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:40 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Welcome, all. And this hearing will come to 
order. And members will be coming in.
    Before I give my opening statement, I just want to make 
sure that everybody knows who is testifying. And Vice Admiral 
Michael McConnell, U.S. Navy, Retired, Executive Vice President 
of National Security Business, Booz Allen Hamilton. He and I 
have done a lot of work together, including on FISA, other 
matters. Dr. James Lewis, Director and Senior Fellow, 
Technology and Public Policy Program Center for Strategic and 
International Studies. And Dr. Lewis is there, working on his 
computer, I think. Mr. Scott Borg, Director and Chief 
Economist, U.S. Cyber Consequences Unit. And Rear Admiral James 
Arden Barnett, Jr., Chief, Public Safety and Homeland Security 
Bureau, Federal Communications Commission. I'm really glad 
about that. And Ms. Mary Ann Davidson, Chief Security Officer, 
Oracle Corporation. So, you're going to have some attention 
focused on you today.
    This Nation--is it OK if I proceed? OK. This Nation and its 
citizens depend enormously on communication technologies in so 
incredibly many ways every single day. Vast network expansions 
have transformed virtually every aspect of our lives: 
education, healthcare, how businesses grow, don't grow, 
function, and the development of an interconnected, more 
democratic conversation. Our government, our economy, our very 
lives rely on technology that connects millions of people 
around the world in real time and all the time. And yet, these 
powerful networks also carry great risks which people, for the 
most part, don't understand--understandably don't understand--
but are going to have to come to understand.
    In recent years, hackers have attacked numerous Federal 
agencies, key media outlets, large companies across the private 
sector, targeting intellectual property, stealing valuable 
information vital to our national and economic security.
    What was it? An article I read in the paper, somebody from 
DOD says, ``We're getting attacked every day, all day, 7 days a 
week.'' And that's what they do. And these attacks are coming 
with increasing regularity and increasing sophistication. A 
major cyber attack could shut down our Nation's most critical 
infrastructure: our power grid, telecommunications, financial 
services; you just think of it, and they can do it--the basic 
foundations on which our communities and families have been 
built, in terms of all of their lives and who are trying to 
have a future.
    So, this hearing is a next step in examining the important 
action we should be taking right now, as a government and as a 
national economy, to harden our defenses and safeguard critical 
infrastructure against a major cyber attack. Having said that 
they're happening all the time, that would seem to be out of 
order, but, you know, it needs--both need to be said.
    Now, I understand it's no secret that cybersecurity is one 
of my top securities; it isn't a secret, at least, to Olympia 
Snowe and myself. As the former Chair of the Intelligence 
Committee, and now Commerce, I know that it's both national 
security and our economic security at stake. But, obviously, 
I'm not alone. Many experts, business leaders, public 
officials, including two of our former directors of national 
intelligence, have pointed, time and time again, to 
cybersecurity as this country's chief security problem.
    President Obama called cyberspace a strategic national 
asset. However, this very important point, critical to the 
challenge we're discussing here today, unlike the other 
strategic national assets, cyberspace is 85-percent owned and 
controlled by private companies and individuals. That means 
that no one--neither the Government nor the private sector--can 
keep cyberspace secure on their own. Both must work together. 
All must work together. And that is why the wonderful Senator 
Snowe, from Maine, and I have introduced comprehensive 
legislation--the Cybersecurity Act 2009--to modernize the 
relationship between the Government and the private sector on 
cybersecurity.
    And I have to say that on--there's--it's such a sensitive 
subject, particularly with the private sector, that I--we were 
on our fourth draft, because we kept calling in the 
stakeholders. They kept saying, ``Well, this is wrong, this is 
wrong, this is wrong.'' And so, we would adjust, and do another 
one. I mean, we did it the way legislation should be developed.
    Our legislation calls for developing a cybersecurity 
strategy and identifying the key roles and responsibilities of 
all the players, private and public, who will respond in a time 
of crisis.
    I'm sure you've all heard about last week's Cyber ShockWave 
exercise. I watched. The process made it enormously clear; if 
we are serious about responding effectively to real cyber 
emergencies, we need a very strong top-level coordination. Too 
much is at stake for us to pretend that today's outdated 
cybersecurity policies are up to the task of protecting our 
Nation and/or our economic infrastructure.
    We have heard the reassurances and seen the best efforts of 
the many in the private sector working to secure their 
networks. But, it's clear that even the largest, most 
sophisticated companies are not immune from attack. So, we have 
to do better. And that means it will take a level of 
coordination and sophistication to outmatch our adversaries and 
minimize, as much as possible, the threats. So, it's that 
simple. We can't wait; we've got to get going on this. We've 
got to get people educated on it. And it's a massive, massive 
undertaking.
    I want to introduce, to speak first--one, because he has to 
leave at 4 o'clock and, second, because he's kind of senior 
around here--Admiral Mike McConnell, who, you know, was NSA, 
DNI, private sector, and we worked together very closely on 
FISA and other legislation.
    So, I now call upon Admiral--I'm very aware that you have 
to go----
    Admiral McConnell. Yes, sir.
    The Chairman.--and we will work that, and make it work. 
But, Senator Snowe ranks here today.
    No, but I want you to make an opening statement, if you 
want to.
    Well, John, that's a quandary. I mean, you know, Olympia 
ought to make a little bit of an opening statement. You could 
take a 3-minute opening statement.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. OK. Thank you, Mr. Chairman, you're so 
gracious and generous.
    I also want to take this opportunity to commend you for 
your extraordinary leadership on this paramount issue for the 
security of our Nation. And I also want to extend my sincere 
appreciation to our esteemed witnesses here today who represent 
a combined depth and breadth of knowledge and experience to 
provide invaluable insight into the multiple facets of this 
threat posed by cyberintrusion and attack and how we should 
mobilize as a nation to leverage both the public and the 
private sector to confront this exceptional challenge.
    As Senator Rockefeller indicated, we filed a comprehensive 
cybersecurity bill, just a year ago, to accomplish that. We 
have since had multiple drafts. We are trying to bring new, 
high-level governmental attention to developing a fully 
integrated, thoroughly coordinated public private partnership, 
as we see this as the only means to address our Nation's 21st-
century vulnerability to cybercrime, global cyberespionage and 
cyber attacks.
    As crossover members of both the Intelligence Committee and 
the Commerce Committee, Senator Rockefeller and I, are keenly 
aware of the gravity of these circumstances and the astonishing 
dimensions of this threat. Moreover, our legislation reflects 
the recommendations of the Center for Strategic and 
International Studies' Blue Ribbon Report that was issued to 
the President. And the bill has undergone a number of 
revisions, following literally hundreds of meetings with 
industry and government thought leaders on this vital subject.
    We sought to carve a course for our country to embrace a 
national security policy that will protect and preserve 
American cyberspace, which the President has rightly deemed a 
strategic national asset, because it is simply undeniable that 
the interconnection and integration of global systems, the very 
backbone of our functioning modern society, creates myriad 
opportunities for cyber attackers to disrupt communications, 
electrical power, and other indisputably essential services. 
And over the past several years, let there be no mistake, 
cyberexploitation activity has grown more sophisticated, more 
serious, and more targeted.
    According to the Director of National Intelligence, Dennis 
Blair, a burgeoning array of state and non-state adversaries 
are increasingly targeting the Internet, telecommunications 
networks, and computers. And we're being assaulted on an 
unprecedented scale by well-resourced and persistent 
adversaries seeking to gain a glimpse into America's mission-
critical vulnerabilities.
    In an unclassified setting just 2 weeks ago, the Director 
testified that the national security of the United States, our 
economic prosperity, and the daily functioning of our 
government are dependent on a dynamic public and private 
information infrastructure that is now severely threatened. As 
the Director also noted, the recent intrusions reported by 
Google that appear to have originated in China should serve as 
a wake-up call to those who have not taken this problem 
seriously. That's why Senator Rockefeller and I have said that 
our failure to implement effective policies and procedures to 
prevent unauthorized intrusions have proven extremely 
consequential. And if we fail to take swift action, we risk a 
cybercalamity of epic proportions, with devastating 
implications for our Nation.
    We've already experienced breaches to our supply chains. 
According to the SANS Institute, there have been several 
incidents involving infected memory sticks sold in U.S. retail 
stores. Furthermore, the FBI has alerted the Administration 
that malevolent actors have actually begun selling counterfeit 
networking equipment infected with viruses to consumers. 
Indeed, government agencies, as well as the private sector, are 
identifying an increasing number of security incidents. 
According to Verizon, more electronic records were breached 
last year than the previous 4 years combined, resulting in loss 
of privacy, identity theft, and financial crimes. Today, 
hijacked personal computers, known as ``botnets'' are used to 
send spam or viruses. And all of this is done without the 
owner's knowledge.
    And just this week, according to a recently released report 
from NetWitness, hackers gained access to data at close to 
2,500 companies and government agencies, from credit card 
transactions to intellectual property over the last 18 months, 
in a coordinated global attack. In fact, it was described as 
one of the largest and most sophisticated attacks, in the 
Washington Post this month.
    Then, according to a report drafted by the chief 
information security officer of In-Q-Tel, the CIA's venture 
capital arm, hackers currently charge about a penny for every 
thousand e-mails of spam, and only $1 for a credit card that 
includes every piece of information necessary to compromise 
one's credit.
    I commend the President for deeming cybersecurity a top 
priority and recently naming Howard Schmidt, whom Senator 
Rockefeller and I met with just a few weeks ago, as the 
Administration's national cybersecurity coordinator. However, 
we remain concerned that this position does not possess the 
institutional heft that it requires. We would prefer and 
recommend, in our legislation, a Cabinet-level, Senate-
confirmed national cyberadviser that reports directly to the 
President and is directly accountable to the American people.
    It is imperative that the public and private-sectors 
marshal our collective forces in a collaborative and 
complementary manner to confront this urgent threat and reduce 
the risk posed by cyberintrusion or catastrophic cyber attack. 
As part of this effort, we must identify incentives for the 
private sector. Limiting liability for the companies that 
improve their cybersecurity posture, improving threat 
information-sharing, providing a safe harbor for exchanging 
vulnerability data, as well as tax credits contingent on a 
company complying with certain security practices, should all 
be considered.
    It is equally urgent that government take proactive steps, 
always mindful of privacy concerns. The Government should work 
with the private sector to recognize and promote cybersecurity 
performance measures and best practices and develop a robust 
workforce of cybersecurity professionals, promote innovation 
and excellence in products and services, and institute a 
campaign, as Senator Rockefeller has indicated, to educate the 
public about cybersecurity risk, using the Government's 
purchasing power, as well, to raise standards through 
procurement.
    Ultimately, we must recognize that time is not on our side, 
and it's clear that our adversaries will continue to change 
their tactics as technology evolves. Congress must take action.
    I look forward to hearing from our distinguished witnesses 
and working closely with the Chairman and all members of this 
committee and others, and throughout the Congress, in order to 
accomplish this goal this year.
    Thank you.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine
    Thank you, Mr. Chairman, and I would like to take this opportunity 
to commend you for your extraordinary and visionary leadership on this 
paramount issue for the security of our Nation.
    I also want to extend my sincere appreciation to our esteemed 
witnesses for joining with us today. All of you bring to bear a 
combined depth and breadth of knowledge and experience to provide 
invaluable insight on the multiple facets of the threat posed by cyber 
intrusion and attack, and how we should mobilize as a nation to 
leverage both the private and public sector to confront this 
exceptional challenge.
    Indeed, Senator Rockefeller and I filed a comprehensive 
cybersecurity bill almost a year ago to accomplish just that. We sought 
to bring new high-level governmental attention to developing a fully 
integrated, thoroughly coordinated public-private partnership as that 
is the only way we can address our Nation's 21st century vulnerability 
to cyber crime, global cyber espionage, and cyber attacks.
    As crossover members of both the Intelligence and Commerce 
committees, Senator Rockefeller and I are keenly aware of the gravity 
as well as the astonishing dimensions of the threat. Moreover, our 
legislation reflects the recommendations of the CSIS report to 
President Obama, and the bill has undergone a number of revisions 
following literally hundreds of meetings with industry and government 
thought-leaders on this vital subject.
    Senator Rockefeller and I sought to carve a course for our country 
to embrace a national security policy that will protect and preserve 
American cyberspace, which the President has rightly deemed a 
``strategic national asset.'' Because it is simply undeniable that the 
interconnection and integration of global systems--the very backbone of 
our functioning modern society--creates myriad opportunities for cyber 
attackers to disrupt communications, electrical power, and other 
indisputably essential services. And over the past several years, let 
there be no mistake--cyber exploitation activity has grown more 
sophisticated . . . more targeted . . . and more serious.
    According to Director of National Intelligence Dennis Blair, a 
burgeoning array of state and non-state adversaries are increasingly 
targeting the Internet . . . telecommunications networks . . . and 
computers . . . and we are being assaulted on an unprecedented scale by 
well-resourced and persistent adversaries seeking to gain a glimpse 
into America's mission-critical vulnerabilities.
    In an unclassified setting just 2 weeks ago, the Director testified 
that ``the national security of the United States, our economic 
prosperity, and the daily functioning of our government are dependent 
on a dynamic public and private information infrastructure'' that is 
now ``severely threatened.'' As the Director also noted, the recent 
intrusions reported by Google that appear to have originated in China 
should ``serve as a wake-up call to those who have not taken this 
problem seriously.''
    That is why Senator Rockefeller and I have said that our failure to 
implement effective policies and procedures to prevent unauthorized 
intrusion has proven extremely consequential, and if we fail to take 
swift action, we risk a cyber-calamity of epic proportions with 
devastating implications for our Nation.
    We have already experienced breaches to our supply chain. According 
to the SANS (Systems Admin, Audit, Network, and Security) Institute 
there have been several incidents involving infected memory sticks sold 
in U.S. retail stores. Furthermore, the FBI has reportedly alerted the 
administration that malevolent actors have actually begun selling 
counterfeit networking equipment infected with viruses to consumers.
    Indeed, government agencies as well as the private sector are 
identifying an increasing number of security incidents. According to 
Verizon, more electronic records were breached last year than the 
previous 4 years combined, resulting in loss of privacy, identity 
theft, and financial crimes. Today, hijacked personal computers known 
as botnets are used to send spam or viruses. And all of this is done 
without the owner's knowledge.
    Just this week, according to a recently released report from 
Netwitness, hackers gained access to a data at close to 2,500 companies 
and government agencies, from credit-card transactions to intellectual 
property, over the last 18 months in a coordinated global attack. Then, 
according to a report drafted by the Chief Information Security Officer 
of In-Q-Tel, the CIA's venture capital arm, hackers currently charge 
about a penny for every 1000 e-mails of spam and only about $1.00 for a 
credit card that includes every piece of information necessary to 
compromise one's credit!
    As you all know, 85 percent of our vital infrastructure is owned 
and operated by the private sector, and, according to a 2009 Verizon 
report which examined data breaches at 45 major U.S. firms in 15 
different industries, ``the average cost for a data breach reached an 
eye-opening $6.75 million''--that's the cost to the average large 
company every single day. Cyber attacks represent both a potential 
national security and economic catastrophe.
    I commend President Obama for deeming cybersecurity ``a top 
priority'' and recently naming Howard Schmidt--whom Senator Rockefeller 
and I met with a few weeks ago--as the administration's national 
cybersecurity coordinator. However, we remain concerned that this 
position still does not possess the institutional heft that it 
requires, as the coordinator is not accountable to Congress and the 
American people nor does he does report directly to the President--
significantly more can and must be done. It is imperative that public 
and private sectors marshal our collective forces in a collaborative 
and complementary manner to confront this urgent threat and reduce the 
risk posed by cyber intrusion or a catastrophic cyber attack.
    As part of this effort, we must identify incentives for the private 
sector. Limiting liability for the companies that improve its 
cybersecurity posture, improving threat information sharing, providing 
a ``safe harbor'' for exchanging vulnerability data, as well as tax 
credits contingent on a company complying with certain security 
practices, should all be considered.
    It is equally urgent that government takes proactive steps always 
mindful though of privacy concerns. The government should work with the 
private sector to recognize and promote cybersecurity performance 
measures and best practices, develop a robust workforce of 
cybersecurity professionals, promote innovation and excellence in 
products and services, institute a campaign to educate the public about 
cybersecurity risks, use the Government's purchasing power to raise 
standards through procurement, and promote government and private 
sector teamwork in emergency preparedness and response in the event of 
a catastrophic cyber attack.
    Ultimately, we must recognize that time is not on our side and it 
is clear that our adversaries will continue to change their tactics as 
technology evolves. Congress must take action--I look forward to 
hearing from our distinguished witnesses and working closely with my 
colleagues to implement a comprehensive cybersecurity strategy for our 
Nation.

    The Chairman. Thank you, Senator Snowe.
    Admiral if you would present your testimony, please, and 
then we'll go right on through.
    I just want to point out that I--was it four years ago? 
Five years ago?
    Admiral McConnell. Three years ago, sir.
    The Chairman. Three years ago----
    Admiral McConnell. Yes, sir.
    The Chairman.--that you took the entire Intelligence 
Committee to an offsite place and spent a whole day on 
cybersecurity.
    Admiral McConnell. Right.
    The Chairman. And you were so intense that day that I don't 
think any of us were quite the same afterwards. And it was one 
of those things that, you know, was a wake-up call that we 
needed. You gave us amounts of information, and now we have 
people on the Intelligence Committee who are following this 
subject very closely.
    We welcome you, sir.

          STATEMENT OF VICE ADMIRAL MICHAEL McCONNELL,

            USN (RETIRED), EXECUTIVE VICE PRESIDENT,

        NATIONAL SECURITY BUSINESS, BOOZ ALLEN HAMILTON

    Admiral McConnell. Thank you, Mr. Chairman, Senator Snowe, 
members of the Committee. It's a pleasure to be here.
    Let me first say I not only agree, I fully endorse and 
verify everything that the two of you said in your opening 
statements. Based on what I know, at a classified level, my 
experience since being the Director of NSA in 1992, I've been 
worrying about this issue and following it, and you're exactly 
right. And thank you for your leadership as a forcing function.
    Now, what I will attempt to do in some very brief comments 
is put a sharper edge on it and then make some associations, on 
a historical basis, about what we may need to do.
    You asked me to talk to threat, actions to mitigate, and 
public-private partnership. You mentioned that we're at 
significant risk; let me make it sharper. If the Nation went to 
war today in a cyberwar, we would lose. We would lose. We're 
the most vulnerable. We're the most connected. We have the most 
to lose. So, if we went to war today in a cyberwar, we would 
lose.
    As an intelligence officer, I'm often asked to make 
predictions. I want to make three predictions for you:
    The first is, we will not mitigate this risk. We'll talk 
about it, we'll wave our arms, we'll have a bill, but we will 
not mitigate this risk. And as a consequence of not mitigating 
the risk, we're going to have a catastrophic event. In our 
wonderful democracy, it usually takes a forcing function to 
move us to action. And it is my belief, having followed this 
from the early 1990s, it's going to take that catastrophic 
event.
    Now, my second prediction is, the Government's role is 
going to dramatically change. It is going to be a very active 
role in the future of telecommunications in this country and, 
in fact, in global telecommunications.
    My third prediction is, we're going to morph the Internet 
from something that's referred to, generally, as ``dot-com'' to 
something I would call ``dot-secure.'' It will be a new way of 
communicating. Because when transactions move billions of 
dollars, or when transactions route trains up and down the East 
Coast or control electric power or touch our lives in the way 
they do at such a significant level, the basic attributes of 
security must be endorsed. And the first attribute of security 
is not a scrambled text to protect a secret. The first 
attribute is authentication; who's doing this transaction. If 
it's a $10-billion transaction, don't you need to know for sure 
who's conducting the transaction? The second attribute is data 
integrity. You didn't move that decimal. The third is 
nonrepudiation.
    Now, the reason I pick it up that way is because, as the 
Director of NSA, everybody knows the mission is to break code; 
break the codes of potential adversaries, so we know their 
secrets. The other mission of NSA is to make the code to 
protect our secrets. And the attributes of security mostly are 
in focus when you talk about nuclear weapons. So, if you're--if 
you ever contemplated using nuclear weapons--heaven forbid, we 
never do--authentication--order from the President--becomes the 
single most important feature. Data integrity is the second 
most important. Nonrepudiation is the third. So, thinking about 
it that way changes one's perspective.
    So, we're not going to do what we need to do. We're going 
to have a catastrophic event. The Government's role is going to 
change dramatically, and then we're going to go to a new 
infrastructure.
    Now, let me speak to the Government's role. I wanted to get 
historical perspective, so I asked some of my associates to do 
some research. And the astounding thing that we discovered is, 
there is a technology cycle that runs about every 50 years. 
Could be closer to 60, or maybe 40, but it's about every 50 
years. Every time there's new technology, there's a rush to 
invest, there's a frenzy, there's a period when there's a bust, 
then there's strong intervention by the Government, and then it 
settles out, going forward.
    And the first example that I'll use is railroads. United 
States has been the largest economy in the world since 1880. 
Most people don't know that. We captured the Industrial 
Revolution from the British. We laid rail coast-to-coast, and 
our economy was off and running. What happened? The railroads 
became so powerful they started to dictate to the Government. 
So, what was the result? Antitrust legislation; break it up. 
The Government's role changed very dramatically.
    You can extend that argument to automobiles. Same argument. 
When I was a child, 60,000 people a year died on the highway; 
the population of the Nation was 150 million. Today, it's 
30,000; our population is 300 million. What changed? The 
Government's role significantly changed. Interstate highways, 
for safety, guardrails, seatbelts, flashers, all the things 
that industry was forced to do because it affected so many 
people. So, in my view, the Internet--global communications, 
moving money at the speed of light from Tokyo to New York, or 
from New York to Singapore--billions of dollars--the 
transportation systems of the world, the electric power grid of 
the world--that is so significant that the Government's role is 
going to change very dramatically. And I would predict we will 
have a different Internet at some point in time.
    Now, what are the things we have to do? International 
agreements with partners and with competitors. Because it's in 
the interest of China, as an example, to have a Net that's 
secure, for which there's authentication, for which there's 
data integrity, for which there's nonrepudiation features built 
in. You can achieve that with mathematical certainty. It's a 
simple function of applying the right kind of tools and 
techniques and encryption. I would argue it's not in China's 
self-interest to destabilize the U.S. money--money supply.
    Now, what I really worry about today is, not a nation-
state. If we had a war with a nation-state, we would engage in 
ground combat, maritime combat, air combat, space combat, and 
cyberspace combat. That's not likely in our future. But, what 
is likely in our future is a group that's not deterred, who 
wishes to destroy the system, who has the technical 
capability--because the cost of entry is pretty low--has the 
technical capability to attack something. And I'll use the 
money supply as an example.
    I majored in Economics 101, way back as an undergraduate, 
and I was astounded to learn there's no gold backing up all 
those dollars. We left that standard in the 1930s. And then I 
was astounded to learn that they're not even dollar bills 
printed; there's--only about 6 percent of the value of the 
country is actually in dollar bills. So, where's the value? 
It's an accounting entry. And I believe the right kind of 
talent could attack the global money supply.
    As an example, our gross domestic product, on a yearly 
basis, is 14 trillion--just over 14 trillion. Two banks in New 
York move 7 trillion a day. So, if an extremist group with the 
right kind of tools could scramble that data, they could 
destroy confidence in global banking. New York is the banking 
center of the world.
    So, that's the risk. Will we be required to experience that 
catastrophic event before we move to action?
    I'll finish with just an example. Nuclear weapons are easy 
to imagine, because there's the mushroom cloud and the 
shockwave. When nuclear weapons happened, this Nation took 
action to put the government in charge. There was a joint 
committee of Congress to oversee it and fund it, and the law 
said only the government could own things that were nuclear. 
Now, that's mitigated over time. That committee was determined 
to be unconstitutional, and we created the Department of 
Energy, and it has gone on. We've got commercial nuclear energy 
and so on. So, we learned over time to adjust to that.
    If you take telecommunications and the Internet, it's 
almost entirely in the private sector, and it's going in the 
other direction. But, it has become so important and so 
potentially significant, in my view, it rivals nuclear weapons, 
in terms of potential damage to the country.
    So, the government was hands-off to start. And if you look 
at the evolution of the 50-year cycles, whether it was building 
canals or textile machinery or railroads or automobiles, that 
cycle repeated, where the government had a greater role when it 
affected more people. And we're reaching that point now. So, 
either we have a forcing function through a catastrophic event 
or, hopefully, your bill will be law and we can have the 
forcing function to deal with this in the way we must deal with 
it. We must develop a deterrence policy, and we're probably 
going to have to figure out how we engage in preemption, where 
those that wish us harm cannot be deterred.
    Mr. Chairman, that's my warm-up. I look forward to your 
questions. Thank you very much.
    [The prepared statement of Admiral McConnell follows:]

 Prepared Statement of Vice Admiral Michael Mcconnell, USN (Retired), 
   Executive Vice President, National Security Business, Booz Allen 
                                Hamilton
Introduction
    Mr. Chairman, members of the Committee, thank you for the 
opportunity to speak to the Committee on Commerce, Science, and 
Transportation today.
    First, I want to open with a simple statement:

        If we were in a cyberwar today, the United States would lose.

    This is not because we do not have talented people or cutting edge 
technology; it is because we are simply the most dependent and the most 
vulnerable. It is also because we have not made the national commitment 
to understanding and securing cyberspace. While we are making progress:

  <bullet> the President's cyberspace policy review completed last May,

  <bullet> the appointment of the Cybersecurity Coordinator in 
        December, and

  <bullet> recent investments in the Comprehensive National 
        Cybersecurity Initiative (CNCI) are moves in the right 
        direction but

  <bullet> these moves are not enough.

    The Federal Government will spend more each year on missile defense 
than it does on Cybersecurity, despite the fact that we are attacked 
thousands of times each day in cyberspace and we are vulnerable to 
attacks of strategic significance, i.e., attacks that could destroy the 
global financial system and compromise the future and prosperity of our 
Nation. Securing cyberspace will require a more robust commitment in 
terms of leadership, policies, legislation, and resources than has been 
evident in the past.
Seizing Opportunity . . .
    The cyber revolution has transformed our economy, enriched our 
society, and enhanced our national security. The Information and 
Communications Technology (ICT) sector contributes over $1 trillion to 
our economy each year; ``smart'' electric grids promise to transform 
our energy system; intelligent transportation systems are altering the 
way we move and the way we manage commerce; electronic medical records 
and telemedicine promise to reduce costs while improving quality. The 
global financial sector relies on information technology to process and 
clear transactions on the order trillions of dollars each day. To put 
that in perspective, while the U.S. total GDP was just over $14T last 
year, two banks in New York move over $7T per day in transactions.
    Meanwhile, major investments in broadband--by both the government 
and private sector--empowers small businesses and our citizens; digital 
classrooms are changing the way our children are educated; and ``open 
government'' initiatives make government data more accessible and 
useable for business and individuals alike. Our military and security 
services have benefited as well. The Department of Defense has 
aggressively adopted network-centric operations, linking sensors, 
commanders and operators in near-real time and providing the U.S. a 
decisive advantage in the battlespace. The intelligence community and 
homeland security have benefited from cyber technologies by improving 
collaboration and information sharing across formerly impenetrable 
organizational divides. In short, the microprocessor and Internet have 
been as transformative as the steam engine and railroads in the 19th 
century and as impactful as the internal combustion engine and 
interstate highway system in the 20th century.
. . . Managing Risk
    The reach and impact of cyberspace will accelerate over the next 10 
years, as another billion users in China, India, Brazil, Russia, 
Indonesia and Middle East gain access to the Internet. As a 
consequence, cyberspace will be much more diverse, distributed, and 
complex. As cyberspace becomes more critical to the day-to-day 
functioning of business, society and government, the potential damage 
from cyber attacks, system failures and data breaches will be more 
severe.
    In the early stages of cyberspace, the threat largely originated 
from ``hackers'' who wanted to their test skills and demonstrate their 
technical prowess. Criminal elements followed, resulting in attacks 
against financial institutions, credit card accounts, ATMs for personal 
gain. More sophisticated actors emerged as state-based intelligence and 
security organizations developed robust exploitation and attack 
capabilities as part of a larger national security strategy.
    Recently, ``hactivists''--non-state actors mobilized in support of 
a particular issue or motivated by patriotic reasons--have entered the 
fray. Generally speaking, we know and understand these threats--their 
capabilities and intentions.
    However, of particular concern is the rise of non-state actors who 
are motivated not by greed or a cause, but by those with a different 
world view who wish to destroy the information infrastructure which 
powers much of the modern world--the electric grid, the global 
financial system, the electronic health care records, the 
transportation networks.
    Of increasing concern is that the sophistication of cyber attack 
tools continues to increase at cyber speed, while the barriers to entry 
continues to fall as attack tools proliferate in chat rooms, homepages, 
and websites. The challenges we face are significant and will only 
grow; our response must equally bold and decisive.
Recommendations for Cybersecurity
    Despite the complex and seemingly unprecedented nature of the 
challenge, there are some immediate actions we can take to secure 
cyberspace and the future of our Nation.
    Cyber Policy--The U.S. needs a long-term cyberspace strategy that 
spells our specific goals and objectives and clarifies roles and 
responsibilities across the Federal Government. This should be preceded 
by a cyber equivalent to President's Eisenhower's ``Project Solarium'' 
in the early 1950s in developing the Nation's nuclear deterrence 
policy. Today, we need a full and open discourse with a diverse group--
business, civil society, and government--on the challenges we face in 
cyberspace. This dialogue should result in a strategic framework that 
will guide our investments and shape our policies, both domestically 
and internationally.
    We need a national strategy for cyber that matches our national 
strategy that guided us during the cold war, when the Soviet Union and 
nuclear weapons posed an existential threat to the United States and 
its allies. Cyber has become so important to the lives of our citizens 
and the functioning of our economy that gone are the days when Silicon 
Valley could say ``hands off' to a Government role. To offer historical 
perspective on how the Government's role has increased in every case as 
emerging technologies effect the Nation and greater numbers of our 
citizens, I am attaching to this statement a review conducted by my 
colleagues and I entitled ``The Road to Cyberpower.''
    Cyber Operations--The Cybersecurity challenge to the Nation today 
mirrors our response to counter terrorism after 9/11--a host of Federal 
and state and local agencies, each with their own authorities, 
missions, operations centers and information systems. The risk is that 
we fail to learn the lessons around counterterrorism information 
sharing and operations and create more silos by individual agencies, 
potentially creating an atmosphere of bureaucratic rivalry and 
duplicative investments. To that end, the U.S. should establish a 
National Cybersecurity Center, modeled on the interagency National 
Counter Terrorism Center (NCTC), that integrates elements of DoD's 
proposed Cyber Command, DHS's National Cybersecurity and Communications 
Integration Center (NCCIC), FBI's cyber operations, state and local 
government, and the private sector. This center should operate at the 
highest levels of classification for all members and serve as the hub 
of information sharing and integration, situational awareness and 
analysis, coordination and collaboration. Only sharing information 
across all sectors will we be able to provide incident response across 
all domains of cyberspace--.gov, .mil, and .com.
    Such a center would utilize the legal authorities of each agency 
while protecting privacy and civil liberties with appropriate oversight 
by the Attorney General and the Congress. The center also could serve 
as the information sharing and collaboration hub with our allies and 
other Cybersecurity organizations, providing a single conduit for 
outside entities.
    Cyber Technology--The U.S. risks being left behind in Cybersecurity 
technology. Currently, multiple organizations within the government and 
private sector are focused on developing new technologies to protect 
our networks, computer systems, data and applications. However, most of 
the efforts are fragmented and sub-scale. The U.S. should approach this 
challenge as we successfully addressed to the challenge to our 
semiconductor industry in the 1980s through a public-private 
partnership focused on Cybersecurity technologies.
    The U.S. should establish a Cybersecurity Collaborative Consortia, 
modeled after SEMATECH, a public-private partnership that supports 
basic research and development and develops foundational technologies 
and techniques of common concern--identity and access management, 
secure networks, intrusion detection, dynamic defense, etc. Such an 
organization should work closely with the National Institute of 
Standards and Technology (NISI) and with the National Security Agency 
(NSA) to define standards for Cybersecurity that could be used for 
government, business, and individuals in both the public and private 
sectors because there are no effective boundaries in cyberspace.
    Cyber Human Capital--The U.S. needs a Cyber Education and Training 
Initiative (akin to the National Defense Education Act of 1958 after 
the launch of Sputnik) to build our national human capital base in 
math, science and technology, electrical engineering, computer science, 
and cybersecurity. Recent initiatives by Congress in programs like the 
Federal Cybersecurity Scholarship for Service and the Information 
Assurance Scholarship Program are a start, but need to be more 
aggressively funded to build the expertise we need in cyberspace. As a 
country, our vulnerabilities will only grow without a highly trained 
workforce than can respond to the daunting cyber challenges and 
opportunities of the 21st century.
    Cyber Management--Current spending and oversight on Cyber is spread 
among multiple accounts and dispersed over multiple committees in 
Congress. It is difficult to understand the current level of investment 
in cyber and evaluate the effectiveness of our investments given this 
complexity and lack of transparency. OMB, working with Congress, should 
identify Cybersecurity investments, develop performance criteria 
aligned against a national cyber strategy, address the gaps and 
eliminate duplicative or conflicting efforts, and improve 
accountability for results. We can not spend our way out of this 
challenge, prioritization, accountability, management and oversight are 
key.
Summary
    Cyber technologies offer unprecedented opportunities for the 
nation; however, they also present significant risks to our 
infrastructure, our financial systems, and our way of life. We 
prevailed in the Cold War through strong leadership, clear policies, 
strong alliances, and close integration of all elements of national 
power--economic, military, and diplomatic--supported by a bi-partisan, 
national consensus around containment and deterrence. We must do the 
same with Cybersecurity.

    The Chairman. Thank you, Admiral.
    Dr. Lewis.

       STATEMENT OF JAMES A. LEWIS, DIRECTOR AND SENIOR 
         FELLOW, TECHNOLOGY AND PUBLIC POLICY PROGRAM, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Lewis. Thank you, Mr. Chairman, and I'd like to thank 
the Committee for the opportunity to testify.
    And I want to congratulate you on the Cybersecurity Act of 
2010. This is a very important bill, and if it was passed, it 
would make an immense improvement to our national security and 
our economic well-being. The bill provides a broad rethinking 
of our approach to cybersecurity and the role of government. 
And a lot of what I'm going to say is going to sound a lot like 
Admiral McConnell, which may be good, or not.
    The people who pioneered cyberspace--the people who 
originally designed it--they wanted governments to have a 
limited role. They expected the Internet would be a self-
governing global commons. And they argued there were no borders 
in cyberspace and that technology moved too fast for government 
to intervene and that the old rules of business and national 
security didn't apply. None of this was right.
    People thought we would get a peaceful global commons. 
Instead, we've got the Wild West. The Internet was not designed 
to be secure. The rules and contracts put in place when it was 
commercialized were not written with security in mind. The 
result is a very Hobbesian environment; cyberspace is not safe.
    So, the issue for me is, How do you bring law to the Wild 
West? How to move from a do-it-yourself homebrew approach to 
cybersecurity, and how to secure the digital global 
infrastructure we now depend on. Legislation like the 
Cybersecurity Act can play a crucial role in bringing needed 
change.
    You will hear--I think you've already heard--a litany of 
criticism. You will be told the bill is not perfect. But, I 
note that the Constitution says our goal is ``more perfect,'' 
not perfection. This bill would make cybersecurity more 
perfect.
    People will say that we cannot measure or certify 
cybersecurity. This might explain why we're in such a mess. 
But, I think we're now at the point where we're beginning to 
collect data that shows what works; and if we can determine 
what works, we can teach it and we can certify people to it.
    Many will say that we should let the market fix 
cybersecurity. I'm familiar with this one because I, myself, 
wrote it in 1996, and I'm still waiting. The government needs 
to give the market a kick.
    There's a desire to say that the President should not have 
authorities, during a crisis, to respond to the kind of cyber 
attack that Admiral McConnell was talking about. I call this 
the Hurricane Katrina approach to cybersecurity. There will be 
complaints that cybersecurity will get in the way of 
innovation. But, to build on the car metaphor, requiring safer 
cars did not kill innovation in the automobile industry, or we 
would still all be driving 1956 DeSotos.
    Some claim the private sector can do a better job defending 
networks than government. This is like saying we can rely on 
the airlines to defend our airspace against enemy fighters. 
Private companies will never be a match for foreign 
intelligence service or foreign militaries.
    But, moving to the policies we need for cybersecurity will 
not be easy. In the past, when a new technology has come along 
and reshaped business and warfare in society, it has taken the 
United States decades to develop the rules it needed; the laws, 
the judicial precedents, and the regulations that would 
safeguard society.
    The difference now is that we don't have decades to do 
this. We're under attack every day, as you said. We're losing, 
every day, vital secrets. We're at tremendous risk. If we had a 
war, we would lose. So, we can't wait. You know, when it was 
steam engines or automobiles or telephones, we could take 20 or 
30 or 40 years to come up with the rules we needed. But, we 
don't have that luxury now, right? Prompt action is necessary.
    The prospects for growth and improvement in cyberspace 
remain great, but to obtain these benefits, we need to close 
the frontier, end the pioneer approach, say the Wild West is 
over, and bring the rule of law to cyberspace. We need a new 
framework for cybersecurity, and this bill helps provide it.
    The work of this committee has really helped force the 
debate in this issue, and so I really applaud you for it. 
People have had to think hard about real serious issues. And I 
hope, with that, that we see passage of the bill sometime this 
year.
    Thanks again for letting me testify, and I'll be happy to 
take your questions.
    [The prepared statement of Dr. Lewis follows:]

   Prepared Statement of James A. Lewis, Director and Senior Fellow, 
    Technology and Public Policy Program, Center for Strategic and 
                         International Studies
    I would like to thank the Committee for this opportunity to testify 
and I would like to congratulate it for its comprehensive 
``Cybersecurity Act of 2009.''
    This bill is important because it is a broad step to rethinking our 
approach to the Internet, to cyberspace, and to the role of government.
    The pioneers of cyberspace wanted governments to have a very 
limited role. They expected a self-governing global commons to emerge, 
and argued that there were no borders, that technology moved to fast, 
that old rules of business and security did not apply. They expected a 
global commons; instead they got the wild west. The Internet was not 
designed to be secure; the rules and contracts put in place when it was 
commercialized were not written with security in mind. The result is 
Hobbesian, that is to say nasty and brutish, if not short. So the issue 
for the Nation is how to bring law to the Wild West, how to move from a 
do-it-yourself homebrew approach to cybersecurity, and how to secure a 
global digital infrastructure upon which we now depend. Legislation 
like the Cybersecurity Act 0f 2010 can play a crucial role.
    Cybersecurity has become an important issue over the last decade as 
the Internet changed to become a significant global infrastructure. The 
U.S. in particular has woven computer networks into so many of its 
economic activities that we are as reliant on the Internet as we are on 
any other critical infrastructure. Networked activities can be cheaper 
and more efficient, so companies large and small have migrated to the 
Internet because it can provide competitive advantage. Our national 
defense relies heavily upon networks. Networks reinforced existing 
trends in military the realization that intangible factors--greater 
knowledge, faster decisionmaking increased certainty--would increase 
effectiveness of our military force.
    That technologies designed in the early 1970s have worked so well 
and have so cleanly scaled to support more than a billion users is an 
amazing triumph, but anyone with malicious intent can easily exploit 
these networks. The Internet was not designed to be a global 
infrastructure upon which hundreds of millions of people would depend. 
It was never designed to be secure. The early architects and thinkers 
of cyberspace in the first flush of commercialization downplayed the 
role of government. The vision was that cyberspace would be a global 
commons led and shaped by private action, where a self-organizing 
community could invent and create. This ideology of a self-organizing 
global commons has shaped Internet policy and cybersecurity, but we 
must now recognize that this pioneer approach is now inadequate.
    There are two reasons for this inadequacy. First, private efforts 
to secure networks will be always be overwhelmed by professional 
military and criminal action. The private sector does not have the 
capability to defeat an advanced opponent like the SRV or the PLA, 
organizations that invest hundreds of millions of dollars and employ 
thousands of people to defeat any defense. We do not expect airlines to 
defend our airspace against enemy fighter planes and we should not 
expect private companies to defend cyberspace against foreign 
governments.
    Second, absent government intervention, security may be 
unachievable. Two ideas borrowed from economics help explain this--
public goods and market failure. Public goods are those that benefit 
all of society but whose returns are difficult for any individual to 
capture. Basic research is one public good that the market would not 
adequately supply if government did not create incentives. 
Cybersecurity is another such public good where market forces are 
inadequate.
    We talk about cyber attack and cyber war when we really should be 
saying cyber espionage and cybercrime. Espionage and crime are not acts 
of war. They are, however, daily occurrences on the Internet, with the 
U.S. being the chief victim, and they have become a major source of 
harm to national security. The greatest damage to the U.S. comes from 
espionage, including economic espionage. We have lost more as a nation 
to espionage than at any time since the 1940s. The damage is usually 
not visible, but of course, the whole purpose of espionage is not to be 
detected.
    This is not cyberwar, Russia, China, and cybercriminals of all 
types have no interest in disrupting Wall Street, the Internet, or the 
American economy. There is too much to steal, so why would anyone close 
off this gold mine. As with any good espionage exploit or mafia racket, 
the perpetrators want stability, a low profile, and smooth operations 
going so they can continue to reap the benefits.
    There is a potential for cyber attack, but it is so far constrained 
by political and technological barriers. Terrorists likely do not yet 
have the advanced cyber capabilities needed to launch crippling 
strikes. The alternative, that they have these capabilities but have 
chosen for some reason not to use them, is ridiculous. There are 
nations that could launch a crippling strike, but they are likely to do 
son only as part of a larger armed conflict with the United States. 
These nations do not love jihadis any more than we do, so they are 
unlikely in the near future to transfer advanced cyber capabilities to 
terrorists. Presumably, in the case of Russia and China their cyber 
criminal proxies are also instructed not to take jihadi clients 
(although there is one incident where it is alleged that Russian 
hackers served as mercenaries for Hezbollah, against Israel). Should 
any of these conditions change--the technological constraints that 
limit terrorists and the political constraints that limit states and 
advanced cyber criminals - the U.S. is in no position to defend itself 
against cyber attack.
    Short of armed conflict (over Taiwan or Georgia), China or Russia 
are unlikely to use cyber strikes against the U.S. The political risk 
is too high--it would be like sending a bomber or a missile against a 
power plant, and the U.S. response would be vigorous. Our opponents, 
however, have reportedly conducted reconnaissance missions against 
critical infrastructure--the electrical grid, for example--to allow 
them to strike if necessary in the event of conflict. Cyber attack is 
cheaper and faster than a missile or plane, there is some chance that 
the attacker can deny responsibility (because of the weak 
authentication on the Internet). Right now, our opponents have the 
advantage but it is within our capabilities to change this.
    Getting this change requires a new approach. Many of the solutions 
to the problem of cybersecurity our Nation has tried are well past 
their sell-by date. Public-private partnerships, information sharing, 
government-lead-by-example, self-regulation, and market-based solutions 
are remedies we have try for more than a decade without success. These 
policies overestimate incentives for private action and misalign 
government and private sector responsibilities.
    Like other new technologies in the past--airplanes, cars, steam 
engines--the appeal and the benefits are so great that we have rushed 
to adopt the Internet despite serious safety problems. These problems 
are amplified by the global connectivity of the new infrastructure, as 
the speed of Internet connections means that geographical distance 
provides little in the way of protection. For those earlier 
technologies, safety came about through innovation driven by government 
mandates, and by agreements among nations. The same process of 
development is necessary to secure cyberspace. The Cybersecurity Act of 
2009 could play a vital role in this improvement.
    This will not be an easy task. The United States does not like to 
deal with market failure. This has been true since the earliest days of 
the republic. Steam engines, although notoriously unsafe, had to wait 
forty years until a series of savage accidents costing hundreds of live 
led Congress to impose safety regulations. Automobile safety rules took 
more than half a century and initially faced strong opposition from 
manufacturers. The initial air safety regulations appeared only twenty-
three years after the first flight. There is the recurring hope that 
``intellect and practical science,'' to quote a 19th Century 
Congressional report explaining why regulation was unnecessary for 
steamboats put it, will lead to improvement via some automatic and 
self-correcting market process and without government intervention.
    Just as cars were not built to be safe until government pressure 
changed auto manufacturers' behavior, cyberspace will not be secure 
until government forces improvement. Twelve years of reliance on 
voluntary efforts and self-regulation have put us in an untenable 
situation. Some may argue that a move away from the market or a greater 
emphasis on security or a larger role for government will damage 
innovation in cyberspace. This argument is in part a reflection of 
competition among various bureaucracies, advanced to protect turf, but 
is also reflects a misunderstanding of the nature of innovation. There 
are grounds to be concerned about the ability of the U.S. to innovate 
when compared to other nations, but the real obstacles are a weak 
education system, poorly designed tax policies, damaging immigration 
rules, and mis-investment that makes it hard to develop new 
technologies and competitors. Removing these obstacles would be 
politically difficult and face strong opposition. It is easier to 
insist instead that keeping the Internet open and anonymous or bringing 
broadband to undeserving areas will somehow generate growth. Greater 
security is more likely to increase innovation, by reducing the loss of 
intellectual property and by increasing demand for more valuable 
Internet services.
    Another reason put forward for not taking action is the supposedly 
borderless nature of cyberspace. The pioneers of cyberspace wanted 
their new creation to be a global commons, a shared space that no one 
owns. The designers of the Internet built the network to reflect their 
values, which were non-hierarchical and to a degree, anti-authoritarian 
and anti-government. One of the original cyberspace theorists was also 
a songwriter for the Grateful Dead, and it was he who issued the famous 
Declaration of Independence of cyberspace, saying there was no room or 
need for governments. Cyberspace would be a global commons where a 
self-organizing community could invent and create.
    This is an ill-conceived notion that continues to distort our 
thinking. Cyberspace is an artificial construct produced by machines. 
Those machines are all owned by individuals or organizations and all 
exist in some physical location that is subject to the sovereign 
control of some nation.
    Cyberspace is like the public space in a shopping mall, a ``pseudo 
commons'' or a condominium.
    In some instances, of course, such as the Internet Engineering Task 
Force or the Open Source Software Movement, this vision of an open, 
nonhierarchical community has worked exceptionally well. But to use a 
historical analogy, many of the pioneers of the Internet expected 
Woodstock and the ``Summer of Love,'' instead they got Altamont and the 
Hells Angels. The combination of unplanned global access, porous 
technologies, and weak governance makes this newly critical 
infrastructure exceptionally vulnerable. As our reliance as a nation 
increases, so does our vulnerability to remote exploitation and perhaps 
attack.
    Cyberspace is not a global commons. It is a shared global 
infrastructure. There is rarely a moment when a collection of bits 
moving from one computer to another is not actually on a network that 
someone owns and that is physically located in a sovereign state. The 
exceptions might be undersea cables or satellite transmissions, but the 
action still takes place on an owned facility were the owner is subject 
to some country and its laws. At best, this could is a ``pseudo 
commons.'' It looks like a commons but actually is not, as someone owns 
the resources in question and that someone is subject to the laws of 
some nation. Cyberspace is in fact a more like a condominium, where 
there are many contiguous owners.
    Governance of this condominium is both weak and fragmented. There 
are no agreed rules, other than business contracts, and no 
``condominium board,'' no process to develop rules. Action in 
cyberspace takes place in a context defined by commercial law and 
business contracts. When the United States commercialized the Internet, 
it chose this legal construct accommodate business activity, but it is 
inadequate for security, particularly as the Internet spread to 
countries around the world and to nations with very different values 
and laws.
    The proposed legislation would go a long way to correct these 
problems. To put the problem in a larger perspective, it is time to 
move from the policies created in the pioneer phase of the Internet. It 
is time to close the Wild West. This will require a broad rethinking of 
American law and policy, and will require adapting to the technologies 
we now depend on. It will need new kinds of international agreements, 
new standards and rules for industry, and new approaches to the 
professionalization of those who operate networks. This is no small 
task but, judging from experience, it is inevitable. This process has 
occurred before, often with help from the government. The Commerce 
Department of the 1920s, for example, encouraged several major 
industries, including the automotive and radio industries, to 
standardize, to professionalize, and to create associations and rules 
that serve the public interest.
    A ``one size fits all'' strategy will not work. We will need to 
manage international engagement, critical infrastructure regulation, 
and economic stability all at the same time. Progress faces significant 
obstacles. There are legitimate concerns over civil liberties. There 
are strong business interests in avoiding regulation. And there are the 
tattered remnants of a vision of cyberspace as some kind of utopian 
frontier. Governance is a central issue for each of these. Governance 
is the process for creating rules, resolving disputes, and ensuring 
compliance. Our beliefs about the nature of cyberspace have downplayed 
the role of formal governance and now we are paying the price. Changing 
this, as we did for steamboats, cars and airplanes, is part of the 
long-term process to adjust to new environment created by technological 
change.
    This bill contains many of the essential elements of the new 
approach we need. A comprehensive national strategy that considers all 
aspects of national security and puts forward along term vision for 
cyberspace is an essential starting point for making this new 
infrastructure secure. It will be essential, of course, to avoid merely 
repeating the formulas of 1998 or 2003 in a new strategy. We've heard 
repeatedly that there is a shortfall of individuals with the requisite 
skills for cybersecurity. The scholarships, competitions and workforce 
plans outlined in this bill would go a long way to repair this. The 
legal review and the intelligence assessment are long overdue. The call 
for the creations of a response and restoration developed with the 
private sector that the President could implement in a crisis is 
crucial for national defense.
    As with any major piece of legislation, there will be considerable 
criticism. Some of this criticism is ideological, some reflects self-
interest, and some is the result of a healthy skepticism as to our 
ability to carry out some of the ambitious measures contained in the 
bill. There was initially concern that emphasizing the authorities the 
President already has to intervene in network operations during a 
crisis would somehow give the ability to shut off the Internet. This 
stemmed mainly from an inaccurate reading of the bill and perhaps from 
the desire to preserve the notion of cyberspace as an untrammeled 
commons where government has little or no role. Frankly, efforts to 
deny the President adequate authority in a crisis are like expressing a 
preference for Katrina-like disaster management. I hope we can do 
better.
    No one ever disagrees with the notion of more education, but the 
more contentious aspect of the workforce development is the requirement 
for certification and training. Being able to certify that someone has 
the necessary skill and knowledge is a requisite part of 
professionalization. We do this for doctors, lawyers, pilots, barbers, 
plumbers and real estate agents. Some certification requirements are 
Federal, many are developed by states. Many in the IT industry believe 
that they are not ready for this step. Certification requires knowing 
what is useful and necessary and being able teach it and test it. It is 
on the former that there is disagreement--that we do not know what is 
necessary for security.
    This may have been true at one time but I believe it is changing. 
In the last few years, as people have been able to collect more data on 
security problems, to develop metrics, and to identify steps will 
reduce risk, it is possible to think of a training program for 
cybersecurity. This is part of a larger move from compliance drive 
security, which has largely failed, to performance driven security. The 
concept of a cybersecurity dashboard found in Section 203 reflects this 
shift to a data driven approach to cybersecurity. The Act, if passed, 
will accelerate the development and professionalization of those parts 
of cyberspace that provide critical services to the Nation.
    These are all politically difficult issues, but this situation is 
not new. Every time a new technology has reshaped business, warfare and 
society, there has been a lag in developing the rules--law, judicial 
precedents, regulations--needed to safeguard society. Cyberspace is 
different in its global scope and in the immediate nature of the damage 
America suffers. Waiting for some natural process or perfect solution 
not only puts our Nation at risk, it gives our opponents an advantage. 
We would be well served if Congress passed this bill.

    The Chairman. Thank you, sir.
    Mr. Borg.

  STATEMENT OF SCOTT BORG, DIRECTOR AND CHIEF ECONOMIST, U.S. 
                    CYBER CONSEQUENCES UNIT

    Mr. Borg. Thank you for inviting me.
    My name is Scott Borg. Oh, I should turn this on. I'm the 
Director of the U.S. Cyber Consequences Unit. This is an 
independent, nonprofit, research institute that investigates 
the economic and strategic consequences of cyber attacks. We 
supply our results only to the U.S. Government and to the 
public.
    At the USCCU, I've had the privilege of leading an 
extraordinary team of cybersecurity experts, economists, and 
other investigators, many of whom have national reputations. 
This team has included Warren Axelrod, John Bumgarner, Joel 
Gordes, Ben Mazzotta, Michael Mylrea, Ardith Spence, Paul 
Thompson, Charles Wheeler, and a number of others.
    Since 2004, we have been visiting facilities in critical 
infrastructure industries, and interviewing employees, to 
determine what cyber attacks are actually possible and what 
their consequences would be. We have been given access to the 
business records of large critical infrastructure corporations 
so that we could analyze their dependence on their suppliers 
and their customers' dependence on them. We've developed 
powerful conceptual frameworks and analytic tools for making 
sense of this information.
    There are three points I would like to make today. First, 
cyber attacks are already damaging the American economy much 
more than is generally recognized. Second, the biggest growth 
opportunities for the American economy all depend on better 
cybersecurity. Third, in order to get the improved 
cybersecurity we urgently need, we must fix a number of broken 
or missing markets.
    The greatest damage to the American economy from cyber 
attacks is due to massive thefts of business information. This 
type of loss is delayed and hard to measure, but it is much 
greater than the losses due to personal identity theft and the 
associated credit card fraud. The reason the loss from 
information theft is so great is that we really do operate in 
an information economy. The amount of value a company can 
create and capture is generally proportionate to the amount of 
information that it can utilize that its global competitors 
can't.
    Education is economically important because it allows us to 
create and apply more information. The greater portion of the 
value, even in most manufactured goods, is not in the materials 
from which things are made, but in the information they 
contain. A modern automobile or airplane, from an economic 
standpoint, is primarily an information product.
    To understand what this means, think of how a company makes 
money. It introduces a new product or a new feature, and 
collects a premium from it until its competitors start offering 
something comparable. Even after that, the company will 
probably still be able to make a profit on that item because it 
will know how to produce it for less. When a new production 
facility opens, there will typically be a 5- to 15-percent drop 
in costs each year for the first 3 to 6 years. This is because 
the company is learning how to do everything more efficiently; 
it's about information. The amount by which the company's costs 
are lower than the costs of its competitors is normally all 
profit.
    Now think what happens if the company's information is 
stolen. The period during which it can collect a premium will 
be reduced to almost nothing, because the competitors will be 
able to offer a comparable product almost right away. The 
profits due to lower costs will be gone, because the 
competitors will have all the detailed information that made 
the greater efficiencies possible. The competitors' costs will 
actually be lower than those of the victimized company, because 
the competitors won't have the expense of creating the 
information. Instead of collecting a healthy profit, the 
victimized company might now be struggling to survive.
    Most of the other factors allowing companies to prosper can 
also be wiped out by information thefts. To get an idea of the 
effect of information thefts on the larger economy, imagine 
this sort of example multiplied thousands of times.
    The biggest large-scale growth opportunities for the 
American economy also depend on better cybersecurity. This is 
because nearly all the more innovative ways of creating value 
need information technology to be developed efficiently.
    There are eight big growth opportunities that I've been 
able to identify. I think you've been given a list of them. 
These include things like the flexible re-allocation of 
capacity, which lies behind the Smart Grid and cloud computing; 
mobile information support, which boosts efficiency of tools 
like electronic medical records; and smart products, which 
allow products, such as smart phones, to increasingly contain 
services. Examining this list reveals that each of these 
opportunities requires networked computers, and is vulnerable 
to cyber attacks. Awareness of this is the main thing that is 
slowing down the implementation of many of these strategies. 
And most of them could be brought to a screeching halt by a 
greater awareness of the vulnerabilities they're introducing.
    The solutions to these problems are not something that the 
government can directly legislate into existence. The reason is 
that both the information technology and the techniques 
employed in cyber attacks are developing so rapidly. If the 
government tries to mandate standards, they will be out of 
date, and an actual impediment to better security, before they 
can be applied. This is not like fire codes for building 
constructions, where the big changes take decades. We don't 
know what the minimum code of cybersecurity should look like 4 
years from now.
    If there's any area of the American economy that needs 
creative entrepreneurial problem-solving, it is, therefore, 
cybersecurity. Yet, our markets are currently not delivering 
the improvements in cybersecurity at anything like the 
necessary rate. In some cases, they are not delivering 
improvements at all.
    When markets are not functioning properly, there are 
identifiable reasons. I think you've got a list of these 
reasons; there happen to be six of them. Sometimes it's because 
companies are not being charged for all of their costs or paid 
for all the benefits they produce. Other times, the individual 
agents are not adequately motivated to act in the long-term 
best interests of their company. Still other times, there isn't 
enough information available for good market choices.
    Each of these market problems, each of these market 
breakdowns, has possible remedies. It's these remedies to the 
market failures that should be at the center of our discussion 
of how to improve our cybersecurity.
    Thank you.
    [The prepared statement of Mr. Borg follows:]

    Prepared Statement of Scott Borg, Director and Chief Economist, 
                      U.S. Cyber Consequences Unit
    Thank you for inviting me. My name is Scott Borg. I am the Director 
of the U.S. Cyber Consequences Unit. This is an independent, non-profit 
research institute that investigates the economic and strategic 
consequences of cyber attacks. We supply our results only to the U.S. 
Government and to the public. At the US-CCU, I have had the privilege 
of leading an extraordinary team of cyber-security experts, economists, 
and other investigators, many of whom are nationally famous in their 
fields. This team has included Warren Axelrod, John Bumgarner, Joel 
Gordes, Ben Mazzotta, Michael Mylrea, Ardith Spence, Paul Thompson, 
Charles Wheeler, and a number of others. Since 2004, we have been 
visiting facilities in critical infrastructure industries and 
interviewing employees to determine what cyber attacks are actually 
possible and what their effects would be. We have been given access to 
the business records of large critical infrastructure corporations, so 
that we could analyze their dependence on their suppliers and their 
customers' dependence on them. We have developed powerful conceptual 
frameworks and analytic tools for making sense of this information.
    There are three points I would like to make today:

        First, cyber attacks are already damaging the American economy 
        much more than is generally recognized.

        Second, the biggest growth opportunities for the American 
        economy all depend on better cyber security.

        Third, in order to get the improved cyber security we urgently 
        need, we must fix a number of broken or missing markets.

    The greatest damage to the American economy from cyber attacks is 
due to massive thefts of business information. This type of loss is 
delayed and hard to measure, but it is much greater than the losses due 
to personal identity theft and the associated credit card fraud. The 
reason the loss from information theft is so great is that we really do 
operate in an information economy. The amount of value a company can 
create and capture is generally proportionate to the amount of 
information it can utilize that its global competitors can't. Education 
is economically important because it allows us to create and apply more 
information. The greater portion of the value, even in most 
manufactured goods, is not in the materials from which things are made, 
but in the information they contain. A modern automobile or airplane, 
from an economic standpoint, is primarily an information product.
    To understand what this means, think of how a company makes money. 
It introduces a new product or new feature and collects a premium for 
it until its competitors start offering something comparable. Even 
after that, the company will probably still be able to make a profit on 
that item, because it will know how to produce it for less. When a new 
production facility opens, there will typically be a five to fifteen 
percent drop in costs each year for the first three to 6 years. This is 
because the company is learning how to do everything more efficiently. 
The amount by which the company's costs are lower than the costs of its 
competitors is normally all profit.
    Now think of what happens if the company's information is stolen. 
The period during which it can collect a premium will be reduced to 
almost nothing, because the competitors will be able to offer an 
equivalent product right away. The profits due to lower costs will be 
gone, because the competitors will have all the detailed information 
that made the greater efficiencies possible. The competitors' costs 
will actually be lower than those of the victimized company, because 
the competitors won't have the expense of creating the information. 
Instead of collecting a healthy profit, the victimized company might 
now be struggling to survive.
    Most of the other factors allowing companies to prosper can also be 
wiped out by information thefts. To get an idea of the effect of 
information thefts on the larger economy, imagine this sort of example 
multiplied thousands of times.
    The biggest large-scale growth opportunities for the American 
economy also depend on better cyber security. This is because nearly 
all of the more innovative ways of creating value need information 
technology to be implemented efficiently.
    There are eight big growth opportunities that I have been able to 
identify. These include things like the Flexible Re-Allocation of 
Capacity, which is what lies behind the smart grid and cloud computing, 
Mobile Information Support, which boosts efficiency with tools like 
electronic medical records, and Smart Products, which will allow 
material products, such as smart phones, to increasingly ``contain 
services.''
    Examining this list reveals that each of these opportunities 
requires networked computers and is vulnerable to cyber attacks. An 
awareness of this is the main thing that has already been holding back 
the adoption of practices like cloud computing. More important, nearly 
all of these economic initiatives, including the smart grid and 
electronic medical records, could be brought to a screeching halt by a 
greater awareness of the vulnerabilities that they are introducing.
    The solutions to these problems are not something that the 
government can directly legislate into existence. The reason is that 
both the information technology and the techniques employed in cyber 
attacks are developing so rapidly. If the government tries to mandate 
standards, they will be out of date--and an actual impediment to better 
security--before they can be applied. This is not like fire codes in 
building construction, where the big changes take decades. We don't 
know what the minimum code for cyber security should look like 4 years 
from now.
    If there is any area of the American economy that needs creative, 
entrepreneurial problem solving, it is therefore cyber security. Yet 
our markets are not currently delivering improvements in cyber security 
at anything like the necessary rate. In some cases, they are not 
delivering improvements at all.
    When markets are not functioning properly, there are identifiable 
reasons. Sometimes companies are not being charged for all of their 
costs or paid for all of the benefits they produce. Other times, the 
individual agents are not adequately motivated to act in the long term 
best interests of their company. Still other times, there isn't enough 
information available for good market choices. There are six such 
reasons altogether, and each suggests possible remedies. It is these 
market remedies that should be at the center of our discussions on how 
to save our economy from the destructive effects of cyber attacks.
    Thank you.

    The Chairman. Thank you, sir, very much.
    And now Mary Ann Davidson, from Oracle, please.

                STATEMENT OF MARY ANN DAVIDSON, 
           CHIEF SECURITY OFFICER, ORACLE CORPORATION

    Ms. Davidson. Chairman Rockefeller and members of the 
Committee, I'm Mary Ann Davidson, the Chief Security Officer 
for Oracle.
    I appreciate the opportunity to appear before you today, 
and I want to commend the Committee for tackling the difficult 
issue of cybersecurity and for including industry in the 
drafting process of cybersecurity legislation, since 
partnership between government and the private sector is 
critical to secure our common infrastructure.
    I have two specific recommendations to address the present 
and future challenges of securing critical infrastructure. 
First, we need to change the educational system so that we have 
a cadre of people who know that critical cyberinfrastructure 
will be attacked and to design and build accordingly and 
defensively. Second, we need to stop upping the ante on 
exposing critical infrastructure to, in some cases, large 
systemic risk.
    Some have proposed that we certify cybersecurity 
professionals to improve the protection of critical 
infrastructure. However, you can't secure something that was 
not designed or built to be secure. Putting it differently, do 
we certify interior decorators or the people who built the 
house? It's architects and engineers and contractors who are 
professionally licensed, not the people who move furniture 
around and pick out color schemes, as important as that is.
    Those who build software used in critical infrastructure do 
not, in general, design and code defensively, because they're 
not educated to do it. And yet, too many universities fiddle 
while Rome burns, or at least fiddle while Rome is being 
hacked. Several years ago, Oracle sent letters to the top 
universities we recruit from, telling them that we spend 
millions of dollars fixing avoidable, preventable coding errors 
in software that creates security vulnerabilities. We have to 
train all computer science graduates in how to write secure 
code, because they were not taught this at universities. 
Universities need to change their curricula to address this 
clear and present deficiency. And the security of commercial 
software has become a national security issue. Oracle received 
precisely one response to this letter, and that was a request 
for money. Is there a more tone-deaf response than that?
    We must act now to change the educational system for all 
computer science and computer-related degree programs, 
including industrial control systems, so they include security 
throughout the degree program. We should insist that 
universities submit a plan to alter their curricula, and we 
should link government research funding to phased change. If 
parents can tell their toddlers that they don't get any dessert 
until they eat their peas, the U.S. Government can certainly 
tie monies to computer-related curricula change.
    Something else we can do today is stop making cybersecurity 
worse by using technology in ways we know very well we cannot 
secure and that creates huge systemic risk. We need look no 
further than the recent financial system meltdown in which 
massive computer programs could quantify all kinds of risk 
except the most important one: systemic risk.
    One such area is Smart Grid, the idea that powerplants can 
use near-realtime measurements on usage--devices in your home--
so we can price power better, be smarter about usage and build 
fewer plants. Nobody is opposed to doing more with less, 
unless, of course, the ``more'' includes a lot more risk.
    And here's what we do know. We know we cannot secure 
millions of IP-based clients; the millions of PCs that have 
been co-opted into botnets are proof of that. We know that the 
SCADA protocols used in control systems were not designed to be 
attack resistant; they were originally used in 
electromechanical systems, where you had to physically access 
the control, turn the knob, and so on. Now we are increasingly 
moving to IP-based control systems and connecting them to 
corporate networks that, in turn, are connected to the 
Internet.
    We know that some Smart Grid devices are hackable. For 
example, a prototype worm developed by a security research firm 
was able, in a simulated attack--thank heavens--to spread from 
meter to meter to take out power in more than 15,000 homes in 
24 hours. We know that terrorists are increasingly interested 
in targeting utility grids. We know that there are PDAs--
digital assistants--that talk SCADA, because it's just so 
expensive to send a technician to the plant. Dare I say, move 
the control rods in and out of the reactor? There's an app for 
that. Will we one day scram a reactor when someone was merely 
trying to answer the phone?
    And last, we know that the people designing and building 
these systems are not taught secure, defensive programming any 
more than computer programmers are.
    There are two things we can do now, and must do now. We 
should insist on some standards, through existing standards 
bodies, of Smart Grid components. NIST, for example, has led a 
cybersecurity working group that recently released a second 
draft of Smart Grid Cybersecurity Strategy and Requirements 
document. Good on them.
    Second, we need better transparency on how Smart Grid 
components are built and of what they are built. There are some 
mechanisms that can help establish this transparency, such as 
the Common Criteria, which is ISO-standard, and the Department 
of Homeland Security materials on improving software assurance 
and acquisition.
    Last, we do not think of the New Testament as a guide to 
critical infrastructure protection, and yet, Jesus contrasted 
the man who built his house on a rock with, quote, ``a foolish 
man who built his house on sand.'' The rain came down, the 
streams rose, and the winds blew and beat against that house, 
and it fell with a great crash. The Gospel of Matthew.
    This is an apt description of securing critical 
infrastructure. If our infrastructure builders do not 
understand the difference between building on rock and building 
on sand, our house will collapse in the first good rainstorm.
    Thank you, and I'll be happy to take your questions.
    The Chairman. Thank you.
    [The prepared statement of Ms. Davidson follows:]

   Prepared Statement of Mary Ann Davidson, Chief Security Officer, 
                           Oracle Corporation
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, I am Mary Ann Davidson, Chief Security Officer for Oracle. I 
appreciate the opportunity to appear before you today, and I also want 
to commend the committee for tackling the issue of cyber security--it's 
a very tough and multi-faceted issue. I also want to thank the 
committee for including industry in the drafting process of cyber 
security legislation, partnership between government and the private 
sector is critical for making our public infrastructure safe and 
secure.
    When many of us were young, we looked up to superheroes: Superman, 
Batman, Aquaman and Wonder Woman: the people who could do almost 
anything and were unstoppable (except--perhaps--by Kryptonite). When we 
grow up, most of us realized that there are no superheroes: many 
problems are very difficult to solve and require a lot of hard work by 
a lot of smart people to fix. So it is with the security of critical 
infrastructure: we cannot shine a signal in the sky and expect 
SuperNerd to come and save us.
    Many intelligent people have proposed a number of ways we can help 
define the problem of critical infrastructure protection as it relates 
to cybersecurity, ``bound'' the problem space and improve it. There are 
two specific recommendations that may help stem the problems of the 
present and change the dynamics of the future: both are necessary to 
help secure not only today's but tomorrow's critical 
cyberinfrastructure.
    First, we need to change our collective mindset so that elements of 
critical cyber infrastructure are designed, developed and delivered to 
be secure. We do that in part by changing the educational system so 
that we have a cadre of people who know that critical cyber 
infrastructure will be attacked--and they build accordingly and 
defensively. We do not generally think of the New Testament as a guide 
to critical infrastructure protection, yet consider the parable of the 
builders, in which Jesus contrasts the man who built his house on rock 
with ``. . . a foolish man who built his house on sand. The rain came 
down, the streams rose, and the winds blew and beat against that house, 
and it fell with a great crash'' (Matthew 7:24-27). This parable is an 
apt description of the problems in securing critical infrastructure: if 
our infrastructure ``builders'' do not understand the difference 
between building on rock and building on sand, our house will collapse 
in the first good rainstorm.
    The second recommendation is more straightforward: we need to stop 
``upping the ante'' on exposing critical infrastructure to--in some 
cases--unknowable risk--and we should walk away from the gambling 
tables until we both understand the odds and the odds are better. What 
we know now is that we continue to expose critical infrastructure to 
the Internet in the interests of saving money, which massively 
increases our attack surface, we do not, in many cases, know how 
exposed we are, and we have determined enemies. ``Doubling down'' is 
not a strategy--except a strategy for catastrophic loss.
Changing the Educational System
    One of many cybersecurity risks the Department of Defense is 
concerned with involves the supply chain of software--more 
specifically, the risk that someone, somewhere will put something both 
bad and undetectable in computer code that will allow enemies to attack 
us more easily. However, that is but one type of supply chain risk we 
should worry about and perhaps not even the most critical one. In fact, 
``the software supply chain'' at a fundamental level includes the 
people who design, code and build software. We should worry about the 
supply chain of people as much or more than the supply chain of 
software itself, because those who design, code and build software 
don't know how to build it securely and the institutions--with some 
notable exceptions--who educate them either don't know or do not care 
to know how woefully inadequate their educational programs are. (Some 
universities, of course, do care about security and have invested in 
improving their computer science curricula accordingly. Kudos to them.)
    If we were having a rash of bridge failures, and we discovered that 
universities were failing to teach structural engineering to civil 
engineers, we would not be discussing how to redesign tollbooths and 
train tollbooth operators, or teach people how to drive safely on 
bridges. Similarly, proposals to ``certify more cybersecurity 
professionals'' is only a remedy for the cyber threats to critical 
infrastructure if we understand the problem certifications attempt to 
solve and ensure that we focus on the right set of professionals to 
certify. This is especially true since ``cybersecurity professionals'' 
these days may well include Chad, the 12-year-old who installs anti-
virus on his technophobic grandparents' computer.
    Several years ago Oracle sent letters to the top 10 or 12 
universities we recruit from \1\--more specifically, to the chair of 
the computer science (CS) (or equivalent) department and the dean of 
the school in which the computer science department resided--telling 
them that:
---------------------------------------------------------------------------
    \1\ A heavily redacted form of this letter is available at http://
www.oracle.com/security/docs/mary-annletter.pdf and a larger discussion 
of the supply chain ``personnel'' issue is available at http://
blogs.oracle.com/maryanndavidson/2008/04/the_supply_chain_problem.html.

        a. We spent millions of dollars fixing avoidable, preventable 
        coding errors in software that lead to exploitable security 
---------------------------------------------------------------------------
        vulnerabilities;

        b. We have to train CS graduates in how to write secure code 
        because they were not taught these skills in computer science 
        programs;

        c. We need universities to change their curricula to address 
        this clear and present educational deficiency; and

        d. The security of commercial software has become a national 
        security issue.

    Oracle received precisely one response to these letters, and that 
was a request for money to enable that university to create a ``secure 
programming class.'' In the last 6 months, a representative that same 
university--at a Department of Homeland Security Software Assurance 
Forum no less--said publicly (and in apparent reference to the Oracle 
letter) that his institutions' graduates were ``too good'' for vendors 
like Oracle.
    It's hard to imagine a more tone-deaf response to a ``customer'' 
request for a better ``product.''
    Some have proposed that we certify ``cybersecurity professionals'' 
to improve the protection of our critical infrastructure. However, 
certifying cybersecurity professionals--presuming we could define the 
term precisely enough to avoid certifying absolutely everybody who 
touches an information technology (IT)-based system--is too late in the 
game. You can't secure something that was not designed to be secure or 
that has holes big enough to drive the QEII through. Putting it 
differently, in the physical world, do we certify interior decorators 
or the people who build the house? It's architects, engineers and 
contractors who are professionally licensed, not the people who move 
furniture around and pick out color schemes. (No disrespect to security 
administrators--or interior designers--is intended by this comparison; 
the fact remains that cybersecurity professionals cannot necessarily 
secure a system that was not designed to be secure.)
    In the physical world, engineering degree programs are accredited 
and engineering is a profession. Engineering graduates take the 
engineer-in-training (EIT) exam--proof that they learned and absorbed 
basic engineering principles in their degree program as part of their 
career progression. Most who choose to actually practice the 
engineering profession must become a licensed professional engineer 
(PE). While it is true--as many academics are quick to point out--that 
we understand the physics of, say, bridge design, and there are--as 
yet--no ``physics'' of computer systems, that does not mean that we 
should not expect people who are being educated in computer science to 
know both what we know now, and what we do not know: specifically, how 
to think about complexity and risk. At any rate, the fact that Oracle 
and other large software vendors almost universally must teach the 
basics of computer security to computer science graduates building IT-
based infrastructure should give all of us pause.
    We know that embedding sound principles in curricula and 
reinforcing those principles throughout a degree program works: this is 
why physics is a ``core'' course for engineers and why civil engineers 
cannot conveniently ignore physics in upper level classes. We also know 
that an increasing number of professions involve computers and thus the 
need for ``security''--embedded and reinforced throughout a number of 
curricula and a number of classes within those curricula--is critical. 
Control system design, for example, absolutely must include an 
awareness of sound security principles or we will merely repeat the 
mistakes we have already made. And yet, too many universities continue 
to fiddle while Rome burns, or at least, fiddle while Rome is hacked.
    A modest proposal in pursuit of curricula change would be to link 
government research funding to phased educational reform in computer 
and computer-related degree programs. That is, cutting off all money 
until the curricula is fixed is counterproductive (as it penalizes 
institutions that actually are making positive changes even if they are 
not ``there'' yet). But we can certainly demand that universities 
submit a plan to alter their curricula that includes specific delivery 
dates for curricula change and insist that they make those changes as 
delivered--or else. Currently, there is no forcing function to change 
education. Many university professors are tenured and thus have no 
incentive to ``cure.'' One of the few market forces we can exert is 
money--such as grant money. If parents can tell their toddlers that 
they don't get any dessert until they eat their peas, the U.S. 
Government can certainly tie research funds to phased curricula change.
    There are two additional reasons to--immediately and with some 
urgency--forcefully impose curricula change on the universities that 
deliver the pipeline of people building critical cyber-infrastructure. 
The first is that we are already out of time: when the Soviet Union 
launched Sputnik, it lit up the skies and lit up our eyes. The U.S. 
rapidly moved to dramatically improve the science and technology focus 
of our educational system so that we, too, could conquer space. As 
regards cybersecurity, we have already had our Sputnik moment: in fact, 
we in cybersecurity have such moments over and over, every single day. 
The most damning comment one could make about the recent Google-China 
headlines is that for those of us in industry, it was merely the 
exclamation point on a long narrative, not an opening soliloquy.
    The second reason is that everybody is looking for expertise to 
secure what we have today--not to mention, what we are building in our 
headlong rush to site critical infrastructure upon technical ``sand.'' 
For example, the Department of Homeland Security has stated that they 
want to hire 1000 cybersecurity professionals.\2\ Where will they find 
them? The military is standing up cyber commands \3\ and it seems 
increasingly obvious that wars of the future will increasingly take 
place in the cyber realm. Where are these future attackers and 
defenders to come from?
---------------------------------------------------------------------------
    \2\ http://www.cnn.com/2009/POLITICS/10/02/dhs.cybersecurity.jobs/
index.html.
    \3\ http://www.informationweek.com/news/government/security/
showArticle.jhtml?articleID
=222600639.
---------------------------------------------------------------------------
    In particular, the military views technology as a force multiplier 
and their information systems increasingly form the background of their 
ability to fight wars. What possible confidence can the military have 
that the network elements on which they base their ability to prosecute 
war can be trusted if the people who built them do not understand at a 
very basic level that all software can and will be attacked? The people 
designing and building software do not, in general, think, design and 
code defensively because they are not educated to do it. We might as 
well be turning out Marines who don't know that they have enemies, or 
what a firefight is or what ``take the hill'' means. The results would 
be and are predictable. Marines are lethal in no small part because 
they know there are enemies, and they train to annihilate them.
Slow Our Exposure to Systemic Risk
    There is an old saying that goes, ``quit while you are behind, and 
when you are in a hole, don't dig.'' Nowhere is this truth more evident 
than in our rush to increase the interconnectedness of critical 
infrastructure and its exposure to the Internet--an exposure that 
creates risks that we do not understand and thus cannot mitigate. We 
embrace the interconnectedness because the benefits--and cost savings--
seem clear, but the risks are murky. No sensible person, of course, 
should say that we cannot do anything that involves risk. Life is about 
assuming risk.
    That said, and as a cautionary tale of assuming risks we do not 
understand, we need look no further than the recent financial system 
meltdown in which massive computer programs could quantify all kinds of 
risk except the most important one: systemic risk. The financial 
superheroes ``in charge'' and the brilliant ``quants'' that were their 
super-sidekicks got it wrong. Nobody really knew the degree to which 
entity A was exposed to entity B and what would happen if the thread 
between them was snipped. It turns out; systemic financial risk was the 
Kryptonite that brought down Superman.
    Alas, a lot of technophiles pushing new ``problems'' we need 
sophisticated IT-based solutions for, or those eagerly embracing new 
uses (and abuses) of technology, do not realize that everything--
including technology--has limits. The ``limits'' are not necessarily 
those of bandwidth, or protocols we haven't invented yet. The most 
important limitation is our inability to make rational, informed 
decisions about risk because of complexities we simply cannot fathom.
    In the many discussions on what the government can do to fix 
cybersecurity, including ``spend more money on research,'' and 
``certify cybersecurity professionals,'' it is worth noting that no 
single proposal will ``save us,'' and certainly not any time soon. 
There is, however, one thing we can do today: stop making cybersecurity 
worse by rushing to use technology in ways we know very well we cannot 
secure and that create huge systemic, unknown (and thus unmitigateable) 
risk.
    One such area is smart grid. The general idea, we are told, is to 
allow power plants to: (a) get lots of near-real time measurements on 
power consumption (e.g., from your house) to better price power 
consumption accordingly and (b) do remote maintenance of grid elements 
(e.g., deployed in your house). If we can do better demand pricing we 
can build fewer plants and be ``smarter'' about power usage. Nobody is 
necessarily opposed to ``do more with less'' premises, with one big 
caveat: what if the ``more'' is ``more risk''--a lot more? More, in 
fact, than we can fathom. What we know about smart grid should--if not 
scare us--at least induce a very large gulp:

  <bullet> We already know we cannot secure millions of Internet 
        protocol (IP)-based clients: it's hard enough to secure 
        servers. The millions of PCs that have been co-opted into 
        botnets are proof enough of that.

  <bullet> We know that the SCADA (Supervisory Control and Data 
        Acquisition) protocols used in control systems were not 
        designed to be attack resistant: they were originally used in 
        electro-mechanical systems where you had to physically access 
        the control to use it (i.e., turn the knob).

  <bullet> We know people are increasingly moving to Internet protocol 
        (I P)-based control systems, and connecting them to corporate 
        networks that are, in turn, connected to the Internet. We thus 
        know that people can access controls for things they shouldn't 
        be able to from places they aren't supposed to be able to.\4\
---------------------------------------------------------------------------
    \4\ http://www.c4-security.com/
The%20Dark%20Side%20of%20the%20Smart%20Grid%20-
%20Smart%20Meters%20%28in%29Security.pdf.

  <bullet> We know that many of the smart grid devices that have 
        already been deployed are hackable.\5\ For example, a prototype 
        worm developed by a security research firm was able--in a 
        simulated attack--to spread from meter to meter to take out 
        power in more than 15,000 homes in 24 hours.\6\
---------------------------------------------------------------------------
    \5\ http://rdist.root.org/2010/02/15/reverse-engineering-a-smart-
meter/.
    \6\ http://www.wired.com/threatlevel/2009/10/smartgrid.

  <bullet> We know that terrorists are increasingly interested in 
        targeting utility grids and in developing their hacking 
        expertise to be able to do so. \7\
---------------------------------------------------------------------------
    \7\ http://www.scmagazineus.com/critical-condition-utility-
infrastructure/article/161689/.

  <bullet> We know that smart grid concepts are also starting to be 
---------------------------------------------------------------------------
        implemented in gas and water utilities.

  <bullet> We know that people have built personal digital assistants 
        (PDAs) that ``talk SCADA'' because ``it's so expensive to send 
        a technician to the plant.'' (It won't be long before we hear: 
        ``Move the control rods in and out of the reactor? There's an 
        app for that!'' Some day we may have a power plant meltdown 
        when all someone was trying to do is answer the phone.)

  <bullet> And, last, we know that the people designing and building 
        these systems were never taught ``secure/defensive 
        programming'' any more than computer programmers were.

    What we can infer from all the above is that the rush to ``save 
money'' is being done by people who fundamentally do not understand 
that they are vastly increasing the potential risk of a cyber attack 
that can be launched from any home. Against the grid itself. In a way 
that we do not know how to mitigate. In an increasingly hostile world. 
If we think saving money on critical infrastructure is more important 
than protecting it we might as well start sending the Marines into 
combat with slingshots (so much cheaper than M 16s) and expecting them 
to secure our Nation. Neither is acceptable, and both will involve 
needless and senseless loss of life.
    Before we keep trying to ``do more with less,'' let's take a deep 
breath, step back and think seriously about worst cases and how we 
avoid them in the first place. Hoping our enemies won't exploit a big 
shiny new attack vector once we've deployed is not a strategy. Actually 
minimizing the attack surface is.
    There are a couple of things we can do to slow the lemming-like 
rush over the smart grid cliff. One of them is to insist on some 
standards (through existing standard setting bodies)--if not actual 
certification--of smart grid components. N IST, for example, has led a 
Cyber Security Working Group that recently released a second draft of 
``Smart Grid Cyber Security Strategy and Requirements'' document.\8\ 
It's a start.
---------------------------------------------------------------------------
    \8\ http://collaborate.nist.gov/twiki-sggrid/bin/view/SmartGrid/
NISTIR7628Feb2010.
---------------------------------------------------------------------------
    Second, we need a better transparency around how ``smart grid'' 
components are built, and of what they are built--given a lot of the 
underlying components may be commercial software that was not 
necessarily designed for the threat environment in which it will be 
deployed. It will also help those building critical infrastructure to 
know how robust the ``building materials'' are. There are existing 
mechanisms that can help establish that transparency, such as the 
Common Criteria (International Standards Organization (ISO)-15408) and 
the Department of Homeland Security (DHS) materials on improving 
software assurance in acquisition.\9\
---------------------------------------------------------------------------
    \9\ https://buildsecurityin.us-cert.gov/swa/downloads/
SwA_in_Acquisition_102208.pdf.
---------------------------------------------------------------------------
    Without knowing how software was built, and what care was and was 
not taken in development--we are building a house from components we 
know nothing about and hoping the resultant structure is sound. It 
isn't merely that a house built on sand cannot stand, it's that a house 
built of ice won't survive in the tropics and a house built of some 
types of wood won't survive in a termite-friendly environment. Without 
knowing what components are being used in the house, how they were 
designed and built--and with what assumptions--we have no idea whether 
even a house built on rock is going to stick around for the long haul. 
There are, after all, earthquake zones.
    It may seem difficult to change the status quo, and yet we have to 
believe in the capacity for positive change--even if that embraces a 
clear and abrupt departure from the status quo. As the prophet Isaiah 
said, ``Whether you turn to the right or to the left, your ears will 
hear a voice behind you, saying, `This is the way; walk in it.' Then 
you will defile your idols overlaid with silver and your images covered 
with gold; you will throw them away . . . and say to them, `Away with 
you!' '' So be it.

    The Chairman. And, finally, Rear Admiral Barnett, Chief, 
Public Safety and Homeland Security Bureau, Federal 
Communications Commission.

STATEMENT OF JAMES ARDEN ``JAMIE'' BARNETT, JR., REAR ADMIRAL, 
   USN (RETIRED), CHIEF, PUBLIC SAFETY AND HOMELAND SECURITY 
                          BUREAU, FCC

    Admiral Barnett. Thank you, Mr. Chairman and distinguished 
members of the Committee. Thank you for the opportunity to 
testify on this important topic.
    My remarks to you today are focused on the transformation 
of communications by the Internet and broadband technologies, 
the cyberthreat that transformation has engendered, and how the 
role of the FCC to ensure communications is being invigorated 
to meet the challenge of the cyberthreat.
    Advanced broadband communication technologies have 
dramatically changed to lives of Americans by enriching the way 
that we communicate, learn, work, and live. Virtually all major 
communication networks are now connected to the Internet; and, 
for that reason, those communication networks are vulnerable to 
cyber attacks.
    Most cyber attacks target information systems attached to 
communication networks--the edge or end-users--not the 
communications infrastructure itself. Nonetheless, 
communications infrastructures are not immune to cyber attacks, 
and they have vulnerabilities. We should not have a false sense 
of safety. A successful attack on communication networks could 
have a severe or even catastrophic effect.
    The FCC has an important role to play in securing broadband 
communications infrastructures in conjunction with our Federal 
partners. We are the congressionally mandated regulatory agency 
with authority over communication providers and communication 
networks, and we must face the new reality that cyberthreats 
now imperil our communication networks.
    When I came to--came aboard as the Chief of the Public 
Safety and Homeland Security Bureau at the FCC, our Chairman, 
Chairman Julius Genachowski, asked me to convene a working 
group to examine the Commission's cybersecurity posture and 
recommend courses of action. This group delivered a report to 
the Chairman, and many of its recommendations will be addressed 
in the National Broadband Plan that will be delivered to 
Congress next month, in March. In the report, and in the 
National Broadband Plan, we developed a roadmap to fulfill our 
cybersecurity role and responsibilities. And I'd like to 
address just a few points in that--from that roadmap.
    First, the FCC can provide the Nation a much greater 
situational awareness of the status and performance of the 
Internet, including attacks, than it currently possesses. Many 
of the owners and operators of the backbone of the Internet are 
communications companies who are licensees of the FCC. One of 
the reasons why the communications in America are so reliable 
is that, under FCC rules, those licensees provide us with near-
realtime data on network outages and problems, so that we can 
analyze that data and work on solutions. We also have a 
successful voluntary program of reporting in times of disasters 
and emergencies.
    If these near-realtime outage and incident reporting 
systems were extended to the Internet, the FCC could provide 
the Nation with an enhanced situational awareness of attacks 
and incidents and provide vital information for defense against 
attacks and restoration of communications.
    Second, there are things that FCC can do to prevent or 
mitigate the effects of cyber attacks. For example, a previous 
FCC Federal Advisory Committee, the Network Reliability and 
Interoperability Council, or NRIC, developed a set of detailed 
cybersecurity best practices that are intended to be 
implemented by communication providers on a voluntary basis. 
We're exploring the creation of a voluntary certification 
program, possibly using these best practices as criteria to 
provide network operators with additional incentives to improve 
their cybersecurity posture. And we're also looking to other 
voluntary incentives.
    In December 2009, the FCC launched a new expert advisory 
panel called the Communications Security Reliability and 
Interoperability Council, or CSRIC, to examine and recommend 
other cybersecurity solutions, such as how to stem the stream 
of malware that arrives at our networks.
    We're increasing our contacts with communication regulators 
in other nations, since cyberspace and security are not local, 
but are truly global. We're at the start of a long journey, 
working with our Federal partners and with industry to secure 
our Nation's vital infrastructure against new and rapidly 
evolving threats. And, Chairman, we are determined to do so.
    Thank you for your--the opportunity to testify.
    [The prepared statement of Admiral Barnett follows:]

Prepared Statement of James Arden ``Jamie'' Barnett, Jr., Rear Admiral, 
 USN (Retired), Chief, Public Safety and Homeland Security Bureau, FCC
    Senator Rockefeller, Ranking Member Hutchinson and distinguished 
members of the Committee, thank you for the opportunity to testify on 
the important topic of cyber security, and thank you for your 
leadership in holding this hearing to address this urgent problem.
    My remarks to you today are focused on the transformation of 
communications by the Internet and broadband technologies, the cyber 
threat that transformation has engendered, and how the traditional role 
of the Federal Communications Commission to ensure communications is 
being invigorated to meet the challenge of the cyber threat.
    Advanced broadband communications technologies have dramatically 
changed the lives of Americans and others around the globe by enriching 
the way they communicate, learn, work and live. The Internet, which 
relies on broadband communications infrastructure, is now a central 
part of American interaction of all types. However, the manner in which 
the Internet developed has left it exposed to cyber attacks. 
Specifically, the Internet, which started as a small research network, 
has evolved into a global network connecting over a billion people who 
rely on it for social, economic, educational and political 
applications, among others. The Internet's core design philosophy was 
initially based on easy connectivity. The underlying Internet protocols 
and architecture were not designed to be secure. As Internet usage has 
increased and has become mainstreamed for everyday life, communications 
providers have responded by adding features to improve the security of 
their infrastructure and the services that ride on it.
    As the public and private sectors continue to move toward more 
online usage, bad actors, including criminals, have begun to lurk in 
the shadows of cyberspace where they can launch costly attacks on end-
users. In 2008, the FBI Internet Crime Complaint Center logged $265 
million in reported losses for Internet users, the highest loss ever 
reported. No one is immune from attack, whether consumers, government 
users or even our Nation's most sophisticated companies. Last year, it 
was reported that ten to twenty terabytes of data were pilfered from 
U.S. Government networks by a foreign entity, and in January Google 
reported that it was subject to a sophisticated attack originating from 
China. Reports show that at least ten other large companies, including 
finance, media and chemical companies, have been the targets of similar 
attacks. As attacks become more persistent, breaching computer systems 
and establishing a foothold, these attackers are able to compromise 
personal, confidential and classified information. We have seen the 
effects of dedicated cyber attacks on Estonia and the Republic of 
Georgia. Critical infrastructure sectors, such as energy, finance and 
transportation, can all fall victim to these attacks.
    All major communications networks are now connected to the 
Internet, and for that reason, those communications networks are 
vulnerable to cyber attacks. Most cyber attacks target information 
systems attached to communications networks, the edge or end-users, not 
the communications infrastructure itself. Cyber attackers currently 
tend to view the communications infrastructure as the necessary 
superhighway that will carry them to their victim. Accordingly, they 
are reluctant to make it impassable.
    Nonetheless, communications infrastructures are not immune to cyber 
attacks, and they have known vulnerabilities. Accordingly, we should 
not have a false sense of satisfaction with regard to the survivability 
of our broadband infrastructure. A successful attack on communications 
networks can affect all end-users that rely on broadband 
infrastructure. For example, as 9-1-1 networks migrate from today's 
technologies to Internet-based technologies concerns about the 
vulnerability of these systems to cyber attacks have mounted. A 
successful attack on such a network could severely obstruct the ability 
of our first responders even knowing of emergencies.
    We cannot allow the absence of a successful attack make us 
complacent. The FCC has an important role to play in securing broadband 
communications infrastructures. We are the Congressionally-mandated 
regulatory agency with authority over communications providers and 
communications networks. We must face the new reality that cyber threat 
now imperils our communications networks and therefore our wellbeing 
and even lives.
    With the changing shape of the telecommunications infrastructure 
and usage patterns, it is incumbent on the FCC to reassess our role in 
cyber security. When I came aboard as Chief of the Public Safety and 
Homeland Security Bureau, FCC Chairman Genachowski asked me to convene 
a ninety-day working group to examine the Commission's cyber security 
posture and recommend future courses of action. This group delivered 
its report to the Chairman on November 30, 2009, and many of its 
recommendations will be addressed in the National Broadband Plan that 
will be submitted to Congress in March. Our Working Group report 
demonstrates the critical role that the FCC has in cyber security, in 
conjunction with its Federal partners. This report, in conjunction with 
the National Broadband Plan, leads us to our plan to become further 
engaged in cyber security. To this end, we have developed a roadmap in 
which we plan to address cyber security utilizing our past experience, 
technical expertise and our regulatory relationship with the FCC's 
licensees to protect the communications infrastructure. I would like to 
mention six major points from that roadmap.
    First, we believe, based on past experience, that many cyber 
security challenges can be met through public-private partnership 
arrangements with industry. However, it would be ill-advised to assume 
that intervention is not needed. In some cases, obligations may be 
necessary. The Commission has a vital role to play in these situations, 
and we will be working to craft a regulatory approach to cyber security 
that strikes the right balance.
    Second, we believe there are things the FCC can do to prevent or 
mitigate the effects of cyber attacks. For example, recently, the 
Network Reliability and Interoperability Council, an FCC Federal 
advisory committee consisting of leading industry executives and 
practioners, developed a set of detailed cyber security best practices 
that are intended to be implemented by communications providers on a 
voluntary basis.
    We believe the opportunity exists for us to build on these best 
practices to provide network operators additional ability to improve 
their cyber security and to increase the adoption of these best 
practices. A recent survey by PricewaterhouseCoopers found that 
organizations following best practices experienced significantly lower 
impact from cyber attacks, something that commercial industry should 
find attractive. We believe that based on this survey that we should 
explore methods, such as voluntary certification of compliance with 
best practices that would create market-based incentives to increase 
cyber security.
    Third, we believe that a significant area for FCC involvement in 
cyber security is to secure and analyze additional data received from 
all broadband service providers concerning network and service 
disruptions. However, our past experience in receiving data from 
communications providers concerning disruptions in their networks has 
been proven effective at providing us early warning of potential 
problems and attacks on the Nation's existing communications 
infrastructure. This information allows us, working with our Federal 
partners and the communications industry, to expedite restoration of 
service. Our work, which is based on a sector-wide view of 
communications outages, also allows us to spot industry-wide or 
carrier-specific reliability and security matters. We use this 
information in conjunction with DHS and communications providers to 
produce long-term improvements. For example, we recently observed a 
statistically significant upward trend in the number of events 
affecting wireline carriers. We worked with industry to establish a 
team of experts who examined the data in closer detail and developed a 
set of recommendations. In the intervening months we have measured a 28 
percent decline in this category of outages. Obtaining similar 
information from broadband and Internet service providers would enable 
the FCC and its Federal partners to work with industry on sustained 
improvements to Internet-based infrastructure. We are currently 
examining the best path forward to obtain this information.
    A fourth way in which we are exploring more active involvement in 
cybersecurity is increase our ability to prepare reports which contains 
situational awareness on broadband communications infrastructure during 
disasters for use by our Federal partners, such as the Department of 
Homeland Security (DHS). We currently gather such data for traditional 
communications, and it has proven invaluable in emergency management 
and communications restoration. Accordingly, we plan to coordinate with 
DHS and communications providers in the near future to plan and 
implement a cyber attack situational awareness system.
    Fifth, another avenue we are pursuing is how to best address the 
constant stream of malware arriving at the network, frequently from 
end-users who are not aware that their systems are compromised. The 
Commission has recently established an advisory committee, the 
Communications Security, Reliability and Interoperability Council, 
known as CSRIC. An important function of the Council is to examine this 
problem and to recommend methods that communications providers can 
implement to protect their networks from malicious traffic. We expect 
to see reports from this Council in the near-term.
    Sixth, and finally, cybersecurity is by nature international. The 
networks are global, the threats are worldwide, and the human component 
is universal. Through the State Department, the Commission participates 
in various international activities and fora such as the United Nations 
International Telecommunication Union (ITU) in which cyber security is 
an issue. Cyber security is increasingly raised as an issue in 
discussions with foreign regulators and at international meetings and 
conferences, and the international aspects of cyber security is also a 
more prevalent topic in the domestic arena. Going forward, there will 
be increased need and opportunities for, greater FCC participation in 
activities involving international aspects of cybersecurity--both in 
the United States and abroad.
    My intention has been to describe to you our vision of the FCC's 
role in cyberspace and what we are doing to secure our critical 
communications infrastructure in a broadband world. We are at the start 
of a long journey, working with our Federal partners and industry, to 
secure our Nation's vital infrastructure against a new and rapidly 
evolving threat, and we are determined to do so.
    Thank you for the opportunity to speak to you today.

    The Chairman. Thank you very much, Admiral Barnett.
    Let me ask the first question. The--this is directed to 
Admiral McConnell and Mr. Borg and to Ms. Davidson.
    You all talked, in various ways, about the need to have 
people understand this at a very early age. You know, this--
they say, you know, kids are too fat these days, we ought to do 
more exercise. Those things are--exercise is being cut out, 
sports are being cut out, and sort of crowding the curriculum 
is a really tough thing to do. On the other hand, if people 
don't understand the threat of cybersecurity, it's all lose 
from now on.
    I made the point, Ms. Davidson, that 85 percent of the 
critical infrastructure in this country are owned and 
controlled by the private sector. And we found, as we were--at 
least I found, as we were drafting this legislation, that 
companies--I'm not saying Oracle; I'm not necessarily saying 
big telecommunications companies--but, companies tended to 
resist the idea of the government sort of getting in the way of 
what they were already doing, which they felt to be adequate. 
Now, my experience in general security with large companies, 
and particularly like powerplants and chemical plants backed up 
against rivers, and the rivers are patrolled by the Coast 
Guard, except, of course, that there aren't enough boats or 
people, so they're really not controlled by the Coast Guard, so 
they're all vulnerable, but they say they're doing the job, and 
thus, they--they're--you know, we had a lot of engagement with 
industry. And so--and I look at your testimony here, Ms. 
Davidson, and it's interesting, because I'm not sure what 
you're saying. Your second recommendation, we need to stop 
upping the ante, as you said, on exposing critical 
infrastructure--in some cases, unknowable risk--and we should 
walk away from the gambling tables until we both understand the 
odds, and the odds are better. Doubling down is not a strategy, 
except a strategy for catastrophic loss.
    Now, what I'm--what I'd like the three of you to comment on 
is, in that I think we all agree there has to be this 
coordination between government and the private sector, are 
you, in a sense, walking away, saying, ``We have to let time 
pass so that people understand this problem better and kids--
it's part of their curriculum''? And--or are you not? And, 
Admiral and Mr. Borg, if you could comment on this problem of 
how--don't we have to take action really soon? But, then, 
you've already said, whatever action--I think, Mr. Borg, you 
did--whatever action we take is going to be outdated in 3 years 
anyway. So, talk to me a little bit about this business of 
cooperation, what we do. Is legislation any good? What do you 
propose?
    Admiral.
    Admiral McConnell. Sir, let me use an example that touched 
me personally. I'm old enough to remember Sputnik. And that 
happened in 1957. And shortly after, the--an Act was passed. I 
don't recall the exact name, something to the effect of the 
National Defense Education Act. I went to college on that Act, 
and it's likely I would not have gone to college except for 
that Act. So, when I talk about an education bill--you heard in 
my opening comments, I think the Nation reacts to two things: 
crisis and money. Crisis will move us to act, money will move 
us to act. So, if there is a bill that invests in the 
youngsters of this Nation to make them smart about cyber and 
cyber issues, and safe code, and secure code, and so on, I 
think we will start to mitigate this problem.
    I'll use an example. One of my colleagues is Gene--Dr. Gene 
Spafford, at Purdue. Early mover, wonderful program, struggling 
to keep it alive, because there's no interest or funding in it. 
So, I think, since we react to crisis or money, that it's going 
to take an investment, probably something on the order of the 
National Security Education Act of 1958, for us to address this 
problem. And if we do that, I think we'll make progress.
    The Chairman. Will we make progress simply because people 
grow up and go into business and go into government and, 
therefore, work things out? Or----
    Admiral McConnell. It's----
    The Chairman.--it's a necessary starting point, no matter 
what happens.
    Admiral McConnell.--it is a necessary starting point. And, 
for me, the example is, we put a man on the moon in 10 years. 
So, Sputnik happened, the bill was passed, lots of engineers 
and scientists and physicists, and so on, that were educated. 
And when President Kennedy set it as a goal, then, 10 years, we 
actually did it. So, for me, it's a necessary step to get us 
started so we have the skill sets.
    Now, one of the things I'm worry about is, we are 
significantly outnumbered, in terms of population in China, in 
India, and other places. So, we don't have a birthright to 
intelligence. I mean, there are smart people all over the 
world. It's an even distribution. And others are investing in 
this in a major, major way. So, if we're going to compete and 
be competitive and influence the world for a global standard in 
cooperation in this arena, in my view, we have to produce the 
electrical engineers, computer scientists, and other technical 
talents that will allow us to do this.
    The Chairman. OK. So, we--that is stipulated. I think there 
would be no argument on that at all.
    In this matter of cooperation between government and 
business, and the point I raised, Ms. Davidson, about ``How do 
I interpret what you said?''--I know that it was basically the 
business community that came in and say, ``Look, we're fine. We 
know what we're doing on this.'' I'm simplifying a little bit, 
obviously. But, ``We don't need the government involved in 
this.'' The Admiral and others are saying that the government 
has to be involved in this, or else nothing really is going to 
happen. And so, I don't--when you say ``walking away,'' I want 
to know what you mean.
    Ms. Davidson. What I meant by that was, there's an 
expression, ``Quit while you're behind, and when you're in a 
hole, don't dig.'' And the reason I use Smart Grid--and I was 
very careful there; I didn't say, ``Oh, let's not do anything 
that's insecure.'' You know, everything in life is about 
assuming some risk. My concern is our failure to understand 
systemic risk and going forward. And based on what we know 
now--and all of those comments had footnotes to external 
reports--what we see here is--this looks like we're assuming an 
asymmetric risk we don't understand. I didn't say, ``Let's not 
do more with less.''
    The Chairman. But, you did say----
    Ms. Davidson. ``Let's not make use of technology.''
    The Chairman.--doubling down is not a strategy, except a 
strategy for catastrophic loss.
    Ms. Davidson. I did say that. And my comment was that we 
continue to look at more ways we can use an IP-based backbone, 
when we know, today, we cannot secure clients. And that's, on a 
technical level, saying, ``OK, if I have to physically go in a 
plant to turn a knob to do something bad, that's something I 
can limit.'' If I'm now putting a device in everyone's home 
that may or may not--that's the question mark--be appropriately 
designed for a threat environment, you know, then I'm basically 
saying, ``OK, now I've got a million ways to get into 
something.'' Now----
    The Chairman. Well, my----
    Ms. Davidson. So, what I'm saying is----
    The Chairman.--my time is----
    Ms. Davidson.--is, let's understand--try to understand the 
systemic risk. Let's look at how we actually impose enough 
order that we understand what kind of risk we're assuming. 
Right now, some of these devices have been hacked. We don't 
know how they're built. We don't know whether--there is no 
certification program for the devices. I have concerns about 
that----
    The Chairman. All right. Look----
    Ms. Davidson.--based on just what I know.
    The Chairman.--my time is out, OK? My time is out, and you 
have to respect the rules of this committee.
    I want to come back to you, because I don't think you've 
answered the--my basic question. I think you've reaffirmed my 
concern, ``Until people understand everything, or until 
everything is prepared, don't act.'' Now, you do say you're 
going to act in two ways, but I want to get back to that.
    In the meantime, Senator Snowe.
    Senator Snowe. Thank you, Mr. Chairman.
    I guess it gets back to the question about, What will be 
effective incentives for the private sector? I mean, if the 
private sector owns and operates 85 percent of the 
infrastructure, then obviously we have to concentrate on 
providing the essential incentives for them to adapt.
    What do you think would be effective private-market 
incentives, and is that the appropriate focus? Should we compel 
them? Should we create incentives, in terms of adopting best 
practices versus mandating standards? What approach do you 
believe we should take that would be the most effective in that 
regard?
    Admiral McConnell?
    Admiral McConnell. What I attempted to do in my opening 
remarks--to make the analogy that in those historical cycles, 
we go through this each time. So, if we were having this 
discussion about railroads and robber-barons, you know, way 
back in the 1880s, those that were in the railroad business 
would argue very strongly, ``We don't want the government 
involved.'' So, what we did was have legislation to break it up 
and regulate it, and so on.
    So, the way I would think about it is, the current system 
is not secure; and so, without prescribing exactly what the 
answers are, it is a requirement to make it more secure. Now, 
there is talent that exists to have that dialogue, and in a 
constructive way. It will introduce tension in the system. 
There will be those that argue that we shouldn't do this. There 
will be those that say the Government's going to spy on its own 
citizens, and so on. But, it is setting an objective to make it 
secure, to achieve the basic elements of security--the basic 
elements of making something secure, which I tried to 
highlight, with authentication and so on. Those things are 
essential when the transactions are of such significance they 
affect a broad portion of the population.
    So, I think, properly framed, we could create such a 
framework that would cause us to move forward in that 
direction. But, it would be required; it would be mandated. 
Because industry is not going to embrace this unless they're 
forced to do it.
    Senator Snowe. Yes. Dr. Lewis? Dr. Borg?
    Dr. Lewis. Let me--I was a regulator for 3 years, right? 
And what I found is that most companies will try and do the 
right thing, and some companies will always do the right thing, 
and some companies will never do the right thing; and so, if 
you don't compel them, you're not going to get the right thing. 
And since this is a network, and they're all connected, if 10 
percent don't do the right thing, then 100 percent could be 
vulnerable.
    So, incentives are great, but what I'd also say is, How do 
you ensure compliance? And that leads me to a mandatory 
approach.
    Senator Snowe. Yes. Dr. Borg?
    Mr. Borg. Yes, I urgently would like to talk about this, 
but I hardly know where to start.
    I think the government urgently needs to do something. I 
think most of the things in your bill, broadly speaking, need 
to be done. However, we have a lot of things here that aren't 
working in the markets. Government intervention is needed to 
help those things to work.
    The sheet that I waved--that I held up--lists 21 things 
that you could consider doing to help markets function better. 
Some of those things you're already proposing to do; some of 
them are already in your bill. But, there are many other ways 
in which these markets are not working.
    There's a tendency, left over from the Cold War, to think 
that we have two choices where markets are concerned. One is to 
be the commissar and dictate from the government what everybody 
should do, and the other is to go, ``Whoopee, let's hope the 
markets will do it on their own.''
    In fact, markets are engineered into existence, and the way 
they work is greatly shaped by government policy. Things that 
the government decides about what kind of information should be 
made available can hugely shape the way a market functions.
    In this area, we have a number of markets where there's 
insufficient information for any of the participants with the 
best intention in the world to do the right thing; there is 
just no way they can make the right choices, where 
cybersecurity is concerned.
    We have other situations where there are financial 
impediments to them doing the right thing. I completely agree 
with James Lewis, that we have a lot of people out there who 
would do the right thing, but we shouldn't be penalizing them 
for doing so.
    We have other situations where people are ready to jump in 
and supply the kind of security that is needed--supply products 
that will provide the right security, but there are economic 
impediments for them doing that.
    So, there's a whole area here that needs to be--opened up 
for discussion, a whole area of possible government action 
that's really not being addressed.
    Senator Snowe. Ms. Davidson, would you care to comment, or 
Admiral Barnett?
    Ms. Davidson. So, there are lots of ways to correct 
markets--market imbalances. And, you know, we can talk, as a 
public policy issue, about, Is this more effective or that more 
effective, or is it regulatory or something else? One of the 
things I have pushed for, because I think it could be 
effective, is--and I believe I talked about this in the context 
of Smart Grid, but I talked about it in a much larger context--
is a little more transparency around how people build their 
software. Why is that important? Because at least the people 
who are taking a piece of software that may not have been 
designed for some particular purpose, but is general-purpose 
software, need to understand what was done and not done. You 
know, we know more about used cars than you do about a lot of 
pieces of software that are used in really large systems. So, 
at least forcing some transparency, which is what DHS was 
trying to get at, would require someone to show, What did you 
do, and not do, in development? My entire group--purpose in 
living is to enforce compliance around our own organization 
which is that transparency. You know, which groups do, and do 
not do, particular things. And how we build software goes to a 
security oversight board and it goes to our chief executive 
officer. So, we know, at any point in time, here's where we 
are, in terms of complying with our own development processes. 
We state it is--what we believe are to be best practices.
    Now, is that perfect? No. Does it mean that somebody, maybe 
in the Defense Department, who's buying a piece of software and 
going to deploy it in some system we have no knowledge of, 
understands what they're getting and not getting?
    Forcing transparency, by the way--it's a strange analogy--
it's the bathing-suit test. When someone puts on a bathing suit 
around March, and they know they're going to go out in the 
water in June, by and large, they're going to look at 
themselves and say, ``I look terrible. I need to get a trainer, 
cut out the carbs. I want to look good next to the three other 
people at the beach.'' So, forcing more transparency actually 
does elevate people's performance, in that you're probably 
going to do no--more if you know that someone's looking over 
your shoulder. It's not perfect; it won't cure everything, but 
I think that, as part of that correcting that market imbalance, 
is--people need to understand, ``You gave me a piece of 
software. What does it do, and not do? How well does it do it? 
And what did you engineer into this? And what were your 
assumptions about how it was going to be used and who is going 
to attack it?'' That's not perfect, but it's a good start.
    Senator Snowe. Thank you.
    Ms. Davidson. And the government could enforce that, 
through procurement.
    Admiral McConnell. Senator, could I offer one other----
    Senator Snowe. Yes.
    Admiral McConnell.--quick comment--example. In the late 
1960s, early 1970s, the United States dominated the 
semiconductor industry. At a point in time, we went from 80 
percent to 20 percent. So, we had to do something about that, 
because it was so vital to us. So, what we did was create a 
public-private partnership. It goes by the name of Symantec. 
And Symantec--I think, it--I don't get the--remember the exact 
numbers, about 250 million on the government side, about 250 
million on the private-sector side. We recaptured the 
semiconductor industry. That's the kind of thing that we could 
invest in here, with regard to cybersecurity. It would create 
the transparency that the case has been made well for. If----
    So, there are a series of things that could be done to put 
us in a position to create the kind of infrastructure that we 
need that's secure enough to do the Nation's business.
    Senator Snowe. That's an interesting analogy.
    Thank you.
    The Chairman. Thank you, Senator Snowe.
    Senator Ensign.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman.
    I agree with you, in how important and how critical these 
issues are to our Nation's economy and our national security; 
it's very important that we have this hearing today and that we 
explore it going forward into the future. And I appreciate the 
input of our witnesses today on an incredibly complex issue.
    Admiral McConnell, I have a great deal of respect for you, 
but when you're talking about security in other industries, the 
Internet and technology today is changing so much more rapidly 
than any of those other industries ever did. And also remember 
that with railroads we came in much later. The airline 
industry, as well. I mean, can you imagine if the government 
would have come in too early, for instance, in the airline 
industry, before it became a mature industry?
    The question is somewhat about balance. We do want to make 
sure that innovation occurs, as well. But, cybersecurity is 
very, very important for all of us; for all of our personal 
identities; for our financial security, where somebody could 
steal the money out of your bank account; for protecting some 
of these critical systems that we have, like Smart Grids; and 
for all of the other things that you all have laid out today.
    Getting to a question, I would ask each one of you to 
succinctly talk about what you believe is the single biggest 
cybersecurity vulnerability that we have today. If you could 
tell this committee just one thing, what would you say the 
government should focus on?
    Admiral McConnell. I'll go first, if that's all right.
    Senator Ensign. Yes. Just right down the line.
    Admiral McConnell. The area would be the financial system, 
because it--as the comments, I made earlier, about it being 
vulnerable. And the issue is, the authorities for dealing with 
it are divided by statute, and it's compartmentalized in 
boundaries. So, as a nation, cyber respects no boundaries; and 
so, it's going to take some action on the Hill for various 
committees who oversee pieces to address it more holistically 
for the integration of the problem.
    So, if you think about it as communications, exploitation 
of communications, attack of communications, or defense of 
communication, different statutes, different departments, 
different committees, and it's, How would you put that together 
in a way that you can ensure the effect of successful 
communications while doing the things that would allow you to 
gain insight of a potential adversary and then mitigate the 
risk at network speeds, which are milliseconds? So, that's the 
challenge.
    Senator Ensign. Dr. Lewis?
    Dr. Lewis. We, in our report of December 2008, said that 
the one thing you ought to focus on is securing cyberspace. And 
there were three components to that: the financial grid, as 
you've heard; the electrical grid; and the telecommunications 
networks.
    And so, I would say you need to think about, What is it 
that gives us this wonderful capability to do things over the 
Internet? And you need those three things. Focus on them.
    Senator Ensign. OK.
    Mr. Borg?
    Mr. Borg. Three of us here were on the Cyber Commission and 
heartily endorse that report that Jim wrote.
    It's--the center of all this has got to be, however, 
critical infrastructure industries. That's what we mostly need 
to protect. That's what could do us the greatest damage. That's 
where the government needs to be focusing its attention.
    Right now, if an electrical company wants to improve its 
cybersecurity, it can't get permission to pass on the minute 
rate increase that that requires; it can't get permission from 
the local regulatory organizations.
    With the best desire in the world to improve security, the 
impediments to these companies doing the right thing are really 
great. So, one of the first things to do is to remove the 
impediments and make sure that there is a positive incentive to 
take care of these urgent issues.
    Senator Ensign. OK.
    Ms. Davidson?
    Ms. Davidson. I would certainly echo what my colleagues 
have said, but I also want to distinguish between something 
that is important but not urgent. And that--it still gets back 
to this educational system, particularly college systems. We 
don't send Marines out to take the hill who don't understand 
that there are enemies--they will attack them--what weapons to 
use and how to secure the perimeter. And yet, we are training--
the people who build IT systems are building infrastructure. 
They don't understand that they're building infrastructure, 
with all that that implies, and they particularly do not 
understand the difference between things--you know, good input, 
bad input, and evil input. Until we change the mindset of 
people to understand their systems will be attacked, and to 
build and design accordingly, we're not going to change the 
structure. We might address it today or next year, but the next 
generation coming forward will not understand that we're 
continuing to build infrastructure, and the responsibilities. 
We have to invest, today, in changing the mindset, and that's 
the educational system.
    Senator Ensign. Admiral Barnett, before you answer--Ms. 
Davidson, you mentioned the government hanging carrots out 
there. We give them a lot of money from the Federal Government 
to tie in certain things. Remember, however, the private sector 
also has great influence. I know Oracle is trying to get the 
universities included. But, collectively, the private sector 
could have greater influence, because there's a lot of money 
that comes from private donors to the universities, as well, 
and I would encourage you all to get together, and especially 
with some of the larger donors who understand the critical 
importance of what you were just talking about, to encourage 
the universities to change what they're doing. And so, maybe we 
could hit it from both sides.
    Ms. Davidson. Thank you.
    Senator Ensign. Thank you.
    Admiral Barnett?
    Admiral Barnett. Senator Ensign, it may be somewhat a 
parochial answer, but, obviously, coming from the FCC, we see 
making the telecommunications networks and infrastructure 
secure to be a primary focus. We--you know, of course, going 
back to Senator Snowe's question, as well, the front line, of 
course, are private companies--the commercial things. But, 
there may be a role for regulation in such things as Admiral 
McConnell mentioned earlier, such as authentication, identity 
management, that could help secure--and you can't have 
piecemeal answers to that. A regulatory framework may be able 
to help bolster the private companies in protecting our 
telecommunications infrastructure.
    Senator Ensign. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Ensign.
    Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Admiral Barnett, I'd like to start with you, if possible.
    And when I think of the FCC----
    The Chairman. Incidentally, Senator--I mean, Admiral 
McConnell has to leave in about 5 minutes, so if--particularly 
if anybody has questions for him.
    Excuse me. Go ahead.
    Senator Pryor. OK. Thank you.
    When I think of the FCC, I think of, you know, your role of 
regulating, say, telecommunications, for example, and making 
sure there's competition and consumer protection, and all those 
types of things. But, are you saying that there--FCC does have 
a role in protecting our communications and our Internet?
    Admiral Barnett. Senator, what I would say is that we have 
a role in making sure that we have the best policies and best 
practices to ensure. I mean, our traditional role in--under the 
Communications Act is to ensure and promote that there is a 
vast, reliable, nationwide, global wire and radio 
communications system. To the degree that the Internet is now 
connected to our communication networks, the FCC has a role in 
doing that. And so, what we have to do as we go forward is make 
sure that we are continually looking at those policies and 
making sure that we are bolstering our networks. So, yes, sir, 
we do have a role.
    Senator Ensign. Ms. Davidson, let me ask, if I may. We've 
heard a lot today about the public sector and the private 
sector. I think, obviously, we all need to do a better job of 
working together to come up with smart policies, in a lot of 
different ways, to make all this happen like it should. But, 
right now, can the private sector talk amongst themselves about 
what's going on out there, and can you share information? Or 
when you start doing that, do you start to get into an 
antitrust problem or another environment that companies either 
can't do legally or are just reluctant to do because of 
competition?
    Ms. Davidson. You know, I think some of that's out of my 
area of expertise. I have been told that there are sometimes 
some challenges. A lot of the--a lot of it has to do with--at 
some point, it's knowing who you're dealing with. People talk a 
lot about information sharing, and I'm all for that, but we 
need to remember, information sharing is a tactic, not a 
strategy. So, it gets down to information sharing about what, 
for what purpose, with whom, and how is that going to be used? 
So, I'm sorry I can't give you a better answer. I'll be very 
happy to research it and get back to you to make sure I'm 
giving you a more precise one.
    Senator Ensign. Admiral Barnett.
    Admiral Barnett. Senator, if you don't mind me jumping in 
on that. But, that is one of the things that I think the FCC 
can help. Right now, we've had a very--a great deal of success 
in the traditional communications world by getting information 
on outages and problems in the communications network. Because 
companies are not--competitors are not going to be willing, nor 
is it proper for them, to share that information with each 
other. And yet, at the FCC, it's confidential. We can look at 
it; we can analyze what's happening across the entire network--
analyze it and work on solutions. It's been very effective for 
our legacy communications systems.
    One idea is to explore, Could that be extended to the 
Internet, and could we obtain the same success in getting 
situational awareness of what's happening?
    Senator Pryor. Good. Thank you.
    Admiral McConnell, let me ask you--I know you need to leave 
in just 5 minutes or so. You gave a very strong opening 
statement, and your insights have been very interesting to the 
Committee members. But, you know, you focus pretty much solely 
on U.S. policy. Is there a need for an international policy 
here that, you know, the U.S. either leads or the U.S. plugs 
into? I don't know that we've talked a lot about international 
policy.
    Admiral McConnell. And, sir, my view is, it can't be solved 
without an international approach. And I don't--I apologize for 
being the history buff here today, but I go back to think about 
the face-off between the United States and its allies and the 
Soviet Union in the cold war. So, it was an international 
dimension of NATO and the other allies that brought that to a 
successful conclusion, from our point of view.
    So, I think this is a global problem, and it will require 
interaction and agreement at an international level, probably 
starting with the nations that already have alliances, and so 
on. But, at some point, it's going to have to--in my view--it 
will have to migrate to nations that we currently see as, if 
not adversaries, certainly competitors.
    Senator Pryor. Dr. Lewis, let me ask you--and this may be 
my last question, because I may be out of time--but, just for 
the media and for laymen, like myself, can you describe--can 
you give us two or three scenarios of what a cyber attack might 
look like? I mean, we talk about this, but what does that mean 
to the--you know, the average Joe out there in this country? 
Tell us what a cyber attack might look like.
    Dr. Lewis. Sure. And I think we need to divide it--it's a 
great question--need to divide it into two parts. The first is, 
then, as you've heard from Scott and from Admiral McConnell and 
from everyone else on the panel, we're attacked every day, and 
we're successfully attacked, and it's the economic damage that 
we have to worry about.
    So, what would a cyber attack look like? It would look like 
being bled to death and not noticing it. And that's kind of 
what's happening now. All right? So, the cyber attack is mainly 
espionage, some crime. We've seen a good one. I don't know if 
you saw it, but a couple months ago a bank, over a 3-day 
weekend, had $9.8 million extracted from its ATMs. That was a 
good cyber attack. Caught some of the guys who did it. The 
mastermind probably lives in Russia, not under attack.
    I don't worry too much about terrorists, and I'll tell you 
why. Because terrorists are nuts. If they had the ability to 
attack us, they would have used it, right? So, the notion that 
they're waiting for Christmas or something--they know how to do 
it. Eventually, they will get it, right? Eventually. And they 
will not be constrained.
    There are people who could attack us now: Russia, China, 
some others. Our military--potential military opponents. Sorry. 
And we know they've done reconnaissance on the electrical grid. 
So, could they turn off the electrical grid in the event of a 
conflict over Taiwan or Georgia? Sure. That's what it would 
look like. Could they disrupt the financial system? They might, 
if they thought that they were either in really desperate 
straits or if they thought it wouldn't hurt their own bank 
accounts, right? But, I think that's what you want to look for.
    Right now, huge losses through espionage, growing losses 
through crimes, and the potential of tremendous damage to 
critical infrastructure if we get into a fight.
    Senator Pryor. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Pryor.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman.
    And I'll try to be quick with these, because I have to be 
somewhere at 4 o'clock.
    But, let me ask Admiral Barnett, if I can. I was listening 
to your response to Senator Pryor in regards to, kind of, the 
role the FCC is now playing or will play in the future. I sit 
on the Armed Services Committee, and we've gotten briefings on 
DOD issues around cybersecurity. Can you, from your 
perspective--who do you think, within the general government--I 
know Homeland Security, to some extent--but, who has the full 
authority--for example, if you have recommendations of things 
that should be done, who pulls the trigger?
    Admiral Barnett. Well, I don't know that we have any 
triggers to pull. We're a regulatory agency.
    Senator Begich. Right. I understand that.
    Admiral Barnett. But, we work very closely with the 
National Communications Systems, with DHS, and that's where we 
have most of our conversations, our information sharing. The 
information that we do get is applied to the National 
Communications System, on outages and network problems. We 
would see that being extended to other types of problems that 
we're talking about today.
    So, primarily focused on DHS, although we work with a lot 
of our Federal partners, including DOJ. We're a part of the 
Joint Telecommunications Resource Board that advises OSTP.
    Senator Begich. Do you think, just--in your experience at 
this point, do you think they're well coordinated among the 
agencies?
    Admiral Barnett. Well, as far as I can tell, we have good 
communications, we have good relationships and good information 
flows. We have--I'm not positive, while I've been in office, 
we've been tested on that. And for that reason, we participate 
in exercises to make sure that there are good information 
flows. Our most recent one was back in January, a tabletop 
conducted with----
    Senator Begich. Right.
    Admiral Barnett.--OSTP and Joint Telecommunications 
Resources Board.
    Senator Begich. What's the--do you think the agencies that 
you're working with have the resources they need to do the work 
to make sure--or are there gaps that have been identified, or 
you can identify?
    Admiral Barnett. You know, Senator, I'm not positive I 
could speak for those agencies. I can say that, after Chairman 
Genachowski asked us to do our own review, part of the things 
that we came up with is that we needed to increase our talent 
pool with regard to cybersecurity, and consequently, we 
launched a program to do that, to make sure that we have the 
talent that we need.
    It goes back to the question that the Chairman was talking 
about earlier, is that we need to make sure that there's an 
educational pool out there. One of the things that I've been, 
even before coming to the FCC, concerned about is the 
precipitous drop in computer science majors that this country 
has been producing since 2000. I mean, I think it's like a drop 
of almost 40 percent. It may have ticked up in the last year, 
because I haven't looked at it, but it's very concerning.
    Senator Begich. Do you have--and let me, if I can, kind of 
move into that arena. And anyone can answer this after I make 
this question--and that--or ask this question--and that is, Do 
you think our ability to buy that talent--pay, compete against 
companies like Oracle--do you think we have that capacity?
    Admiral Barnett. Once again, I can only speak for the FCC. 
One of the amazing things--it's just like when I was Active 
Duty in the military--it's amazing to me that Americans are 
willing to come forward, because of their belief in the country 
and what we're doing. I'm positive that we'll be able to find 
those folks, if we can educate them.
    Senator Begich. Anyone else want to comment on that?
    Admiral McConnell. There--I'm familiar with the current 
talent pool, particularly in this area, particularly around 
Fort Meade, over in Maryland, and there's just not enough 
resources. So, my comments about educational bases--we're going 
to have to do that. If I could offer another, sort of, 
historical context, what was referred to a moment ago, the 
NCS--the National Communications System--resulted from the 
Cuban Missile Crisis. The President couldn't communicate with 
the Cabinet officer. We had a single carrier--AT&T--so, a--an 
arrangement was made. We had guaranteed communications for all 
Cabinet officers, under any circumstances. That held until 
Judge Greene's famous decision, which broke it up.
    At that point--the question was--asked by Senator Pryor, 
was exactly the key issue: Can the industry members come 
together and have a discussion out of fear of the antitrust 
legislation? And they couldn't do that. So, a secondary 
organization was created, called NSTAC--National Security 
Telecommunications Advisory Council. But, it's only focused on 
telecommunications. That served the Nation well for 30 years. 
It resided in Defense. It now is over in the Department of 
Homeland Security. But, it's a public sector--U.S. Government--
and a private sector, and they collaborate, coordinate for 
keeping communications working.
    What--DHS, who under law has the authority for this 
mission--defense--has proposed a construct patterned after NCS 
NSTAC. It's called CPAC--Critical Infrastructure Protection 
Advisory Council. Three chairs: Secretary of Defense, the DNI, 
and the Secretary of Homeland Security. Three co-chairs. You 
pick the largest segments of industry--critical 
infrastructures--to come together. You have to have public 
meetings, with government participation, with minutes that are 
published to the public----
    Senator Begich. Sure.
    Admiral McConnell.--and you talk about the issues, like 
technology or policy or operations, to address these issues. 
Now, that has been proposed. My sense, that it hasn't gotten 
the traction that it needs. Perhaps that would--may be 
something that you could consider, in your bill, to put some 
energy behind it.
    Senator Begich. Yes, that's a good question.
    My time is up, but, Dr. Lewis, I saw you--maybe you could 
do a quick response.
    Dr. Lewis. Sure. Just--I wanted to come back to the 
educational point. And it's not a fluke that we have two 
admirals sitting here, because the Navy's paid a lot of 
attention to that--to cybersecurity and to cryptology. They're 
coming up with a scholarship program. There's something called 
U.S. Cyber Challenge, which CSIS has been a little involved in, 
and it's an effort to get kids interested in cybersecurity, in 
hacking contests. It's really good.
    There's a chance to rebuild the university programs. And 
Admiral McConnell mentioned the National Defense Education Act 
of 1958. And what that did is, we said, ``Hey, the Russians are 
ahead of us. We need a lot of engineers and mathematicians and 
foreign language specialists.'' Five years later, we had them. 
So, yes, you can fix this, with the right sort of investment.
    Senator Begich. Thank you very much, Dr. Lewis.
    I--my time is up, Mr. Chairman. Thank you for the 
opportunity.
    The Chairman. I've got to stick with that, Admiral.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much.
    And do you have to leave, Admiral McConnell? Is that 
correct?
    Admiral McConnell. I do, and I want to offer a last 
comment. But, I----
    The Chairman. Please.
    Admiral McConnell.--a little over time--just offer my last 
comment.
    The Chairman. Yup.
    Admiral McConnell. Something that hasn't been mentioned; I 
want to make it harder. We've talked about cybercrime and 
cyberwar, and on and on. I'm thinking about a new idea, and I 
will call it ``Insidia.'' Insidia means that an adversary 
builds into our infrastructure. They do what they're doing now, 
in terms of taking our intellectual capital, and now they harm 
the infrastructure for competitive advantage, if and when they 
choose to do so. That is possible today.
    So, let's say that a--you pick it--country X is going to 
introduce a new product, and they want achieve dominance in a 
market. They could cause things to happen in our 
infrastructure, that we don't even recognize, that would 
disadvantage us in a competitive way.
    So, it's early in my thinking, but I'll just leave the 
thought with you. Insidia. Just something I made up, but it 
could happen today. And the reason I know it could happen today 
is, I know we could do it, if we chose to do so.
    The Chairman. The great question, ``If we chose to do so.''
    Voice. We've been investigating that for the last several 
years, so I can give you background, if you'd like.
    The Chairman. Great.
    Senator Klobuchar. You know, just following up on some of 
the issues raised about the lack of expertise and not enough 
computer science majors. I'm a former prosecutor, and I always 
remember how difficult it was when we even had simple computer 
crimes and the police would show up, we didn't--and they'd 
press a button, and then all the porn would vanish from the 
screen, and we'd lose the computer evidence. And that's a 
really tiny example, compared to what we're dealing with here.
    What do you think about the ability--just as you're 
concerned about computer science degrees--of law enforcement 
right now? Because I've always said we need to be as 
sophisticated as the crooks we're trying to pursue, whether 
it's internationally or whether it's domestically. What do you 
think needs to be done there? I'm a member of the Judiciary 
Committee, as well.
    Mr. Borg?
    Mr. Borg. When we were looking at it, we discovered that 
actually the law enforcement is getting increasingly 
sophisticated about handling their evidence, but, they're not 
very sophisticated about their own vulnerabilities. We looked 
at the crime labs and discovered that we could, or somebody 
could, hack into most of the crime labs that we've looked at, 
alter evidence, if they chose, do all kinds of mischief. So, 
we've got some huge issues there.
    Senator Klobuchar. OK.
    Mr. Borg. Think if somebody for hire could tamper with just 
the chain of evidence for any prosecution that depended on 
physical evidence. That's the situation we're in right now.
    Senator Klobuchar. Right. Well, and part of what I think is 
just the training, again, and being able to hire people who 
have that kind of computer forensics experience.
    Yesterday, the Federal Trade Commission issued a report 
that revealed widespread data breaches by companies, schools, 
and local governments whose employees are engaged in peer-to-
peer file sharing. The software was also implicated in a 
security breach involving the President's helicopter, and other 
cases. I'm actually working on some legislation along these 
lines, that we're going to be introducing soon. But, could you 
talk a little bit about how this could be a national security 
threat, and what can be done about the human element in all 
this, about employees even inadvertently sharing confidential 
files?
    You want to talk about peer-to-peer?
    Dr. Lewis. Well, you know, we're coming to a--sort of a--
we're at the early days of, I think, new thinking about 
cybersecurity, and that's where the work of this committee's 
been really valuable.
    I talk to a lot of companies. What they've--what I've 
learned is that some of them have fabulous best practices, 
right? Now, usually they've been companies that have already 
been hit, right? So, I talk to a giant oil company, they had 
a--they were hacked, and lost millions of dollars, and now they 
do everything right. One of the things they do is, they 
severely limit the ability of employees to use this kind of 
software.
    We can think of many examples. It's fun, if you think about 
some of them, you can type in ``tax return'' and it will, for 
systems that are not set up, show you people's tax returns. 
But, we now are beginning to identify practices that work in 
improving network security, and this is one of them.
    So, the question is, How do we populate industry with those 
best practices? How do we tell them what they are? How do we 
get them all to do the right thing, when it comes to file 
sharing?
    Senator Klobuchar. Very good.
    On February 16, the Bipartisan Policy Center sponsored the 
Cyber ShockWave exercise, which brought together former high-
ranking national security officials to evaluate how they acted 
when there was a realtime cybersecurity emergency. And one of 
the problems the simulation exposed was the lack of clarity 
regarding government authority to regulate private-sector-
controlled infrastructure systems, such as telecommunication 
networks and the electrical power grid, during such an 
emergency. Do you have any views on what steps should be taken 
to clarify the ability of government to assume temporary 
control of infrastructure during a cybercrisis?
    Dr. Lewis. Well, I think, I'm--I don't want to talk too 
much; I'll let somebody else jump in, too, but--there's a 
provision in the bill that I think could be very helpful. And 
one of the things that we need to think about is, In an 
emergency, do we want the President to have the things he needs 
to do to protect the American people? And I'm not sure the 
scenario got it right. I'm not sure that the President wouldn't 
scrounge around--they have some very smart lawyers over there--
and maybe under the International Economic Powers Act or--
pardon me--International Economic Emergency Powers Act, or some 
other act, we could come up with a solution. But, I think the 
ability to intervene in a crisis is essential, and giving the 
President that authority clearly is going to be essential for 
national defense in what's become a new kind of warfare.
    So, in that sense, the provision in the bill, which I 
understand has gone through many changes, really could be quite 
helpful in making the Nation more secure.
    Senator Klobuchar. Mr. Borg, in your testimony, you stated 
that cyber attacks have already done damage to the American 
economy, much more than is generally recognized, due to massive 
thefts of business information. Could you talk about some of 
the examples of what you most see with business information 
thefts, and what was, or not, done by individual corporations, 
what you think they could do better?
    Mr. Borg. It's very tricky to talk about this, because 
we've been warned by lawyers that if we even hint about an 
actual example, we will be sued by everybody involved--the 
company----
    The Chairman. Could you say that again?
    Mr. Borg. Is that--what?
    The Chairman. Could you say that again?
    Mr. Borg. We've been warned by lawyers that if we even hint 
at a real example, so that somebody could begin to identify it, 
we will be sued by everybody involved, because the business 
leaders who let this happen will face shareholder lawsuits, 
they will--their companies will feel obligated to sue the 
beneficiaries, who will countersue, claiming libel, and so on. 
So, the whole thing is, legally, a mess. As a consequence, 
nobody wants to talk about this. This is huge.
    Senator Klobuchar. Right.
    Mr. Borg. This is just gigantic.
    Senator Klobuchar. Well, but there's--sometimes there are 
publicly known examples that maybe you could----
    Mr. Borg. There aren't for this one.
    Senator Klobuchar. OK.
    Mr. Borg. We do have companies that had very, very 
extensive intrusions that coincided with similar facilities 
being built in Southeast Asia. The facilities in Southeast Asia 
are ones that nobody is allowed to visit--we think, because 
they would suspiciously like the facilities here that they are 
replicating. They were, when they opened, able to function very 
efficiently, offer very low prices, with no particular strain 
on the corporation that was running them. So, we think whole 
factories are being replicated in other parts of the world.
    Senator Klobuchar. Wow.
    Mr. Borg. The economic consequence is that whole industries 
are potentially going to be stolen over time. It happens 
gradually. It's being slowed down by certain obstacles right 
now, the chief one of which is, there aren't enough people in 
some of the countries and areas of the world that are receiving 
this information to sort it all out; there isn't enough 
expertise in American ways of doing business to utilize all the 
information they've got. But, potentially, we're looking at the 
viability of entire industries being undermined over time. And 
the thing is just going abroad.
    Senator Klobuchar. And so, if they had the appropriate 
people, they would just be able to basically replicate a 
company, is what you're saying?
    Mr. Borg. Yes, that's right. Except without the expenses of 
having to do the R&D, to go through the learning curve, to do 
all the other things. You can open a facility, and, on the day 
you open, have a level of efficiency that it took the American 
market leaders 6 years to get to.
    Senator Klobuchar. Anyone else?
    Dr. Lewis. Let me give you a real quick example. I don't 
care if anybody sues me, but--I heard an example I thought was 
astounding. It was about a small furniture company, right? A 
couple hundred employees, you know, not a big revenue--they 
make wooden furniture. They got hacked, and somebody stole all 
the designs for the wooden furniture. Now, you all know that 
there are countries in the world that are good at making low-
cost furniture, right? And now they have the designs, the 
intellectual property. They have the newest styles, and they 
can get it on the market faster--as Scott said, on the market 
faster, at a lower price. That American company has really been 
hurt, right? And that's what we're looking at.
    But, the notion, to me, that it's worth this--how pervasive 
is this, if you're going to be hacking small furniture 
companies that make wooden furniture? It's amazing. We don't 
realize what's happening to our country.
    Senator Klobuchar. OK.
    Mr. Borg. Something else here that's very important, that's 
not understood, is that all of the information for all the 
pressures, temperatures, switches for an entire factory, and 
all the schematic diagrams, can be stolen. We're not talking 
about stealing the formula for Coca-Cola. We're talking about 
sucking all of the information out of a company.
    Senator Klobuchar. Well, thank you very much. It sounds 
like we have a lot of work to do here.
    The Chairman. Kind of, yes.
    Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. And I want to thank 
you and the Ranking Member for holding today's hearing on a 
very important and oftentimes overlooked subject, 
cybersecurity, which, as we've heard, has great consequence for 
our security and our economy. And I think we have to remember 
that we're under constant attack. Our critical infrastructure 
and the Internet backbone of our economy remain extremely 
vulnerable to these cyber attacks. And there was a recent GAO 
report that states that cyber attacks could cost our economy 
$100 billion annually in the near future. And so, I think it's 
important that this committee give the appropriate, sufficient 
attention to this important subject.
    I know some--the questions have been posed--Senator 
Klobuchar and I are working on the peer-to-peer issue, and some 
legislation with regard to that. But, I--what I'd like to do is 
just ask a couple of questions to the panel and whoever would 
like to respond to these.
    The Wall Street Journal recently reported that hackers in 
Europe and China hacked into computers in over 2,500 companies 
and government agencies. And what's probably even more shocking 
is that they infiltrated these systems for several months 
before they were being detected. How do we improve the 
identification of these attacks, to stop the activity before 
they do additional damage?
    Mr. Borg. One of the problems is that we focus so 
exclusively on perimeter defense that once somebody has 
penetrated the system, we don't have adequate devices to spot 
what's going on. One of the things that we urgently need to 
develop is industry-specific, sometimes even business-specific, 
monitoring capabilities that will set off alarms when these 
systems are being misused and when information is being 
improperly moved about.
    Dr. Lewis. You know, the Journal article was interesting. I 
think it's the third or fourth time I've heard of something 
like this--massive penetrations; hundreds, if not thousands of 
companies. It's an ongoing program. It's a nice program, 
because you're not going to get caught. And even if you do get 
caught, there are no consequences.
    So, one of the things we want to think about is, When we 
see people committing a crime, what are the consequences? And 
right now, if there's zero consequence, there's almost zero 
risk.
    I've talked to a few of the big financial companies and 
said, ``Do you have trouble telling who is doing bad things to 
you?'' And what they usually say is, ``No.'' They can follow 
the money, they see where it goes, they know who's doing it to 
them. But, right now, we don't have any way to go to these 
other countries and say, ``Hey, some of your citizens are 
committing crimes in our country. Would you do something about 
it?'' And so, whether this is something for the World Trade 
Organization, whether it's for the World Intellectual Property 
Organization, whether it's for INTERPOL, we need to start going 
after people who do these things. And right now, they've gotten 
a free ride.
    Senator Thune. I'm just trying to think about what our role 
is, in terms of a worldwide problem. And if you don't have the 
capability of enforcing or imposing some sort of penalty or 
punishment on people who do this, you're right, there's no 
consequence to it. I don't know what would keep them from 
continuing to do it.
    The question I have, dealing with the first response, which 
said coming up with some industry-specific or even company-
specific mechanisms of dealing with that, Do you see some role 
for the Congress in that process? I mean, it seems to me that 
the companies that are impacted by this are, maybe, better 
positioned to do that.
    Mr. Borg. When I've talked about the need for this kind of 
tool, this kind of software, to people in the security 
industry, they have regularly said, ``Oh, yes, we're really 
eager to jump into that market as soon as it's pioneered. We 
don't want to be the first mover, we want to be ready to--once 
the market is formed.'' So, there's a huge opportunity here for 
the government to seed that market, to be a guaranteed 
customer, to, in some cases, be an initial supplier, providing 
some prototype tools. And then, I think, once that is set up, 
the security industry will be ready to move into it. But, it's 
another example of a market that's not working properly, that 
could be fixed by government intervention.
    Ms. Davidson. If I can echo that--and I'm sorry Admiral 
McConnell is no longer here, because he was using the railroad 
industry as an example. There is a role for the government in 
promoting the use of standards. And why do we care about that 
in this context? Part of what would make it easier for people 
to not only have better situational awareness, but to be able 
to connect these types of dots, is having standards around what 
type of records or censor records you need to keep in a system, 
and the way in which that is expressed. And the reason for 
that--why do the railroads tie into that? Because, a long time 
ago, the railroads didn't have a standard train gauge. And the 
reason it's--I think, 4 feet, 8-and-a-half inches, is because 
the government stepped in and said, ``We want to build a 
transcontinental railroad--that's a public good--and we're 
going to tell you what the train gauge is going to be, so we 
can put the pieces together, and you can get on a plane on the 
East Coast and go all the way across the West Coast.'' The 
government could actually promote the use of standards around 
audit records in such a way that would be not only how the--the 
nerdy bits and bytes of how they're described, but also what 
kind of record you have to keep. And by doing that, and 
promoting it through procurement, you could effectively tell 
your suppliers, ``We're going to change--we're going to tell 
you what kind of train you're going to build and what the train 
gauge is going to be.''
    NIST is very good at getting industry to participate in 
that, and that could actually help make--create the 
infrastructure of security which can help secure critical 
cyberinfrastructure.
    Senator Thune. And there are multiple government agencies 
that deal with, and have some role in preventing, cyber 
attacks. You've got Defense, Homeland Security, Commerce, FCC, 
FBI. And this was actually going to be a question more for 
Admiral McConnell, but I'm interested in knowing, from your 
observation, how the coordination--level of coordination is 
between those various agencies, and is there anything that this 
committee could do to ensure that they're working in a more 
efficient and coordinated manner to prevent cyber attacks?
    Admiral Barnett. Senator, from the FCC's perspective, we--
Chairman Genachowski is focused on making sure that we have 
good communications with our Federal partners. And that's not 
just for cybersecurity, but emergency management and other 
responsibilities that we have. So, there's certainly a focus on 
this. I mean, I think there's a desire to make sure that we do 
the best. And for that, there's a lot of communication, I would 
say, with regard to the exercises that you're seeing. I can't 
say that there may need to be some more, and I can't speak to 
all agencies, but there certainly is communication going on 
about the threat.
    Dr. Lewis. You know, we want to recognize that progress has 
been made in the last year, or even a bit longer. So, there is 
more cooperation than there used to be, and more coordination. 
And hopefully the appointment of a new cybercoordinator at the 
White House will help that.
    But, you're all familiar with what happened on December 
25th in Detroit. And that was a--in some ways, a problem with 
coordination among Federal agencies. Again, on the 
counterterrorism side, we're much better off than we were 9 
years ago. But, you can still see problems, and I'd say, in 
cyberspace, the coordination is not as good as it is in the 
intelligence community and the counterterrorism community.
    So, good progress, but still a long ways to go. And that's 
where congressional attention, measures like this bill, can 
help encourage the Federal Government to move in the right 
direction.
    The Chairman. Thank you, Senator Thune.
    Senator Snowe.
    Senator Snowe. Thank you, Mr. Chairman.
    Dr. Lewis, I wanted to ask you about the cybercoordinator 
position and the appointment of Howard Schmidt, as you 
mentioned, being a coordinator, rather than a Senate-confirmed 
position. And, for example, he is not able to testify before 
this committee on this issue. So, how important is it to have a 
Senate-confirmed position on this question?
    Dr. Lewis. Well, I think, in the long run--and hopefully 
the long run won't be more than a few years--we're going to 
need something like USTR, right? Or maybe some of the other 
agencies that exist. We're going to need a specific agency that 
will be appropriately staffed and have the right authorities to 
do this. And that position, just as the USTR positions are 
confirmable, would make sense. So, I think, good first step 
there, appointing a coordinator. We're on the right path, but 
we've got a long ways to go.
    Senator Snowe. Yes.
    Dr. Lewis. And, you know, when you think about it, this is 
a new infrastructure--you've heard that from everyone--that we 
depend on. But, we haven't adjusted the government to that. And 
moving toward that Senate-confirmable position would probably 
be a good idea.
    Senator Snowe. Does anybody else have an opinion on that 
question?
    Ms. Davidson. Well, I can't comment on the structure, but I 
can certainly comment on the individual. I think Howard Schmidt 
is probably the very best possible person who could have been 
chosen for that position, who commands tremendous respect in 
industry, and his sole agenda is to make things better. And 
because of his--because of who he is, there will--people who 
will line up to do things for him because it's Howard asking. I 
think it was an outstanding appointment. You just could not 
have had found anybody better. It will be a very difficult job, 
but if anyone is up to it, it is--he is absolutely the right 
person for that.
    Senator Snowe. Well, I just think it's--given everything 
that we've discussed here today and, obviously, the 
significance of this issue and the fact that, as the President 
described, it's a strategic national asset, I think it should 
be elevated so we have that conversation, and that--more 
importantly, that he reports directly to the President of the 
United States. I mean, I think that that sends a very critical 
message, frankly. And that relationship should be developed at 
the outset, as we're beginning this process and, hopefully, 
getting legislation in place. That's going to be absolutely 
critical in that regard; otherwise, we're not going to have the 
benefit, other than in private meetings, to have those kind of 
discussions, when, in fact, they should be part of the public 
arena.
    I would just like to ask you, Are you familiar with the 
NetWitness report, by any chance? And how would you 
characterize the extent of that attack?
    Dr. Lewis. Interesting company. The fellow who runs it is a 
guy named Amit Yoran. Like Howard, he has tremendous respect, 
long experience. And so, it's good that they came out with 
this.
    Interesting report, but, for me, it wasn't a big surprise. 
I mean, this is sort of the normal business, here. How many 
times have we seen this in the past: ``Somewhere in Eurasia, 
there's a group of hackers, and they've penetrated hundreds or 
thousands of American companies.'' You know, it's just--this 
one wasn't particularly sophisticated.
    One of the things to bear in mind is that we have more 
sophisticated opponents than the fellows we stumbled across 
here. The NetWitness report just helps reinforce the kind of 
pressure we're facing.
    Senator Snowe. Dr. Borg?
    Mr. Borg. There were a couple of things about it that were 
a little bit interesting. One is just the scale of it, and the 
other is that it used two botnets in conjunction. Each time we 
have one of these, they're a little more sophisticated, they 
have another little new twist, something here or there. So, 
it's a sign of an ongoing process of attackers just getting 
better and better, more talented.
    Senator Snowe. Getting increasingly sophisticated? Yes. And 
how do we keep pace with that sophistication?
    Mr. Borg. Well, one of the ways we're not keeping pace is 
by having departments of cybersecurity where, in the graduate 
programs, there are no Americans. A lot of our leading programs 
literally have no American students at the Ph.D. level, or 
sometimes even the master's level. We're training a lot of the 
world in cybersecurity better than we are our own people.
    Senator Snowe. What accounts for that? Is there any reason 
for that, or does it just happen to be the way it is?
    Mr. Borg. If you're Indian----
    Senator Snowe. By----
    Mr. Borg.--or Chinese----
    Senator Snowe. Yes.
    Mr. Borg.--or from some other part of the world, there is 
greater motivation and a bigger gain from getting a degree in 
cybersecurity than if you're American.
    Ms. Davidson. Well, and to that point, a lot of the--you 
know, how do we keep up with it? I actually have a team of 
hackers who work for me. They're ethical hackers; their job is 
to break our software before someone else does. They are also 
the ones who author our coding standards: How do you write 
secure code? And those are in a constant state of revision, not 
only for new things that are publicly known, but new, nefarious 
ways they find to break our software. And we train all our 
developers on that. So, it is constant revision, because there 
is always something else malicious coming down the pike.
    Admiral Barnett. Senator, of course, I have a son who's in 
computer security, so I'm not going to complain about the 
American education system; I think we do have the ability to 
train the people we need. But, there needs to be an emphasis 
on--it has been a concern of mine--I mentioned the precipitous 
drop in the number of computer science degrees that we are 
producing. I might mention the number of women that we are 
producing, and that has dropped even further. There's a good 
deal of research of the reasons for that. We need to attack 
those directly and reemphasize getting American kids ready to 
go into computer science programs--so, we have to start earlier 
than college--and then making sure that they're incentivized to 
do that, and attack all the various reasons, some of which are 
cultural--there are various reasons, too, that we can provide 
to you.
    Senator Snowe. Well, that's interesting. And that's 
something that is part of our legislation that we're focusing 
on, on the training and the certification of cybersecurity 
personnel. But, that's clearly an emphasis that we have to 
make.
    So, then would it be very difficult for the Department of 
Homeland Security to, you know, hire up to 1,000 cybersecurity 
personnel over the next 3 years? Is that ambitious, or is that 
doable?
    Dr. Lewis. It's probably doable. They came in with only 
about a third of their positions filled. They had 1,000 slots, 
and I think they had about 300 filled. And in the intervening 
year, I think they've moved that up to about 50 or 60 percent; 
they've done a good job.
    There's three problems. First, the shortfall of trained 
personnel means DHS is competing with NSA and with DOD, with 
FBI. And, let's face it, it might be more fun to work at NSA or 
DOD than DHS, right? So, they've got a competition problem.
    Second, a lot of the hiring processes that we have in the 
Federal Government don't help. And so, somebody gets hired by 
DHS, and then they're told--and this happens at other agencies, 
too--``We've hired you, and in another 6 to 8 months we'll be 
able to actually bring you on board.'' And, of course, people 
can't wait 6 to 8 months for a job. So, a lot of people leave 
early.
    Finally, there's this--again, this shortfall problem, which 
is that somebody comes to DHS, they get good training, they get 
some good experience, they get a clearance, and they're 
suddenly a lot more attractive to the private sector. So, 
you've got an outflow problem, too. And all these things are 
not impossible to beat; we've beat them in other agencies. But, 
while there has been really good work done at DHS, I think they 
could use some help on the recruitment side.
    Senator Snowe. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Snowe.
    Let me kind of close up here by saying, you've been a 
fabulous panel, all of you. And you, too, Admiral McConnell, 
wherever you are. I mean, you really know your stuff. You speak 
with the kind of cold clarity which this subject deserves. 
Senator Snowe and I are very happy that we've introduced our 
bill. And when listening to you, you know, you just ask, Is 
it--was it done in time? Can it make a difference? And the 
answer has to be yes.
    And let me say the things that worry me. One is the whole 
question of starting kids out. Right now, there's this 
enormous--which was brought on point--emphasis on STEM--
Science, Technology, Engineering, and Mathematics. We 
desperately need that. Is there a way that--and the kids are so 
good--my son was--two nights ago he called up, and he's really, 
really good on computers, and he was doing--he was at war with 
a hacker, trying to fight back, and, you know, very, very 
sophisticated stuff. He's 30, so that makes it a little easier. 
But, the--trying to integrate this somehow--we don't have that 
choice, do we?--into early education. We do not have that 
choice. And if boards of education say they don't have that 
money, we still do not have that choice.
    The second thing is that the problem is so pervasive, so 
overwhelming. We're talking about the public sector and the 
private sector and all the--your 6- to 8-month vetting, you 
know, the horrors of the Federal Government and its vetting 
process, and people just say, ``You know, I can't wait.'' So, 
you lose good people. The salaries involved. The budget 
restrictions we're now going through for the next number of 
years, because of our deficits. And yet, you know, put it in 
comparison to the dangers of these massive cyber attacks, which 
are not, you know, unlike another terrorist attack, something 
of the future, you know, next week, next month, next year; 
they're all day, every day, as I quoted at the beginning, from 
a DOD person. I mean, it's just happening all the time, sucking 
the blood. I think, forensically, it takes 4 minutes to drain 
the blood out of a person, and, you know, that's not a 
particularly attractive analysis, but it's a cogent one, that 
this is a really serious, desperate problem and that bills at 
any--you know, any kind of effort is going to be important, and 
we have to, all of us, decide how to do this.
    You know, we talk about the Federal Government and the 
stovepipes that Olympia Snowe and I have dealt with on the 
Intelligence Committee, and the intelligence community has 
gotten a lot better since we had a DNI, but they are by no 
means cured. People tend to hold on to their territory, and 
they don't give it up easily. And I--that has to be true in the 
corporate world, for some, you know, very clear and 
understandable reasons.
    So, how do we make it all work? How do we get people to 
together? How do we create the sense of urgency, at a broader 
lever, in which we do things we've just never done before as a 
country? Which I think is what it amounts to. Yes, we've got to 
give the President the right to intervene. And that's 
controversial. That's all--that'll always be controversial. 
But, Senator Snowe and I believe that needs to be done.
    But, let me leave you with one happy thought, just for 
practice. Last year and this year and the year before, on the 
two sides, let's say, of American young people looking for 
careers, one is in the intelligence--the world of 
intelligence--the CIA, NSA, et cetera--the applications for 
those agencies, in number and in quality, have never been 
higher. So, they're swamping these agencies with applications 
to work there. And incredible--and I've done this, and I'm sure 
that Senator Snowe has, too--you go and meet some of these 
young people working for CIA or whatever--they're fantastic. 
And so, that's national security.
    On the other end is the Peace Corps or Teach for America. 
But, just take the Peace Corps for a moment. They have never 
had so many applications, ever, and of such high quality.
    So, to say, on the one hand, that we don't have enough 
Americans doing this, that people from other countries--they 
used to get their degrees and stay here, because it was more 
profitable. Now, they're being called home, and they're 
patriotic, and they're doing--I mean, I can't criticize them 
for what they're doing. It's just that it makes our life more 
difficult.
    So, I think that, with the depth and desperation of the 
problem, mixed with this sort of hopeful and positive attitude 
to be engaged in serious matters, cerebral matters, of young 
people in this country, we've got to find our way out of this. 
And we won't do it quickly, but we sure have to do it.
    So, thank you very, very much, all of you.
    The hearing is adjourned.
    [Whereupon, at 4:35 p.m., the hearing was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    Thank you, Chairman Rockefeller, for again focusing this 
committee's attention on cyber security.
    Since this committee met last year to discuss this topic, we have 
witnessed a number of alarming cyber attacks and data breaches.
    In December, Google announced that they--and probably many other 
American companies--had been infiltrated by cyber attacks that 
originated in China. Apparently the hackers specifically targeted 
Chinese activists who used Google services. However, many other users 
and companies could be harmed by this type of cyber attack.
    In January, we learned that the National Archives apparently lost a 
hard drive that had over 100,000 Social Security numbers for workers 
and visitors to the White House.
    This month, a cyber war game exercise also illustrated some of the 
Nation's vulnerabilities to a sophisticated cyber attack and the need 
for a nimble and coordinated response to protect our infrastructure.
    So, I welcome the opportunity to ask a few questions today about 
how we can do more to protect consumers, companies, and the Nation.
                                 ______
                                 
     Written Questions Submitted by Hon. John D. Rockefeller IV to 
                     Vice Admiral Michael McConnell
    Question 1. What are the key elements of public-private teamwork 
that are not in place today that should be?
    The witness did not respond.

    Question 2. Would it make a difference if more senior executives in 
the private sector were granted security clearances?
    The witness did not respond.

    Question 3. What about cybersecurity? Are you confident that the 
everyday American citizen knows the threat that we are under, and knows 
how to make his or her own home or business safe?
    The witness did not respond.

    Question 4. Should there be basic cyber awareness and education as 
part of the normal curriculum in elementary and secondary school?
    The witness did not respond.

    Question 5. What can the government and private sector do together 
to solve this labor shortage problem?
    The witness did not respond.

    Question 6. What can we do to inspire young students to aspire to 
serve their country by being a cybersecurity professional?
    The witness did not respond.

    Question 7. What must the government do better? What must the 
private sector do better? What responsibilities do both have to the 
public at large?
    The witness did not respond.
                                 ______
                                 
           Written Questions Submitted by Hon. Tom Udall to 
                         Vice Admiral McConnell
    Question 1. Admiral McConnell, your statement sounds the alarm 
about threats to our infrastructure. You note that the United States is 
not doing enough to promote cybersecurity and that the country needs a 
coordinated approach involving the public and private sectors. Our 
national labs--which are the crown jewels of our Nation's research 
system--are active in efforts to promote cyber security. In my home 
state of New Mexico, Sandia National Laboratories is engaged in efforts 
to secure the national electrical grid from cyber attack. Los Alamos 
National Laboratories is a leader in quantum cryptography. What role 
should our National Labs have in the efforts you describe to protect 
our Nation from cyber attack?
    The witness did not respond.

    Question 2. Some experts say the arrival of ``Cloud computing'' 
could be as important and as disruptive as the advent of the World Wide 
Web. Eric Schmidt, the CEO of Google, has written that, ``We're moving 
into the era of `cloud' computing, with information and applications 
hosted in the diffuse atmosphere of cyberspace rather than on specific 
processors and silicon racks. The network will truly be the computer.'' 
How can we be sure to realize the benefits of cloud computing given 
very real cyber security threats?
    The witness did not respond.

    Question 3. What is the role of government and private industry in 
protecting sensitive data as it increasingly moves from desktop devices 
to the ``cloud''?
    The witness did not respond.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Dr. James A. Lewis
    Question 1. What are the key elements of public-private teamwork 
that are not in place today that should be?
    Answer. The most effective partnership models are based on small 
permanent groups of senior business leaders from the corporate 
headquarters who regularly interact with senior government officials. 
Only two or three groups (DOD's ESF, DHS's CIPAC and perhaps NSTAC) now 
follow this model. The key elements are trust and authority--trust 
comes from regular meetings among the same people and authority comes 
from the ability to make binding decisions. Many existing groups are 
not designed to provide trust or authority.

    Question 2. Would it make a difference if more senior executives in 
the private sector were granted security clearances?
    Answer. Classified briefings on the nature and extent of the threat 
are very effective in alerting corporate CEO's to the problem they 
face. Classified briefings have been one of the most effective parts of 
the DOD's Defense Intelligence Bases initiative.

    Question 3. What about cybersecurity? Are you confident that the 
everyday American citizen knows the threat that we are under, and knows 
how to make his or her own home or business safe?
    Answer. I do not believe we should make citizens responsible for 
the national defense. There are some minimal activities (keeping anti-
virus software updated) that citizens now need to perform but we would 
be better served by shifting security to service providers. Nobody has 
to program their land-line phone or install anti-virus software on it. 
The same model should apply to the Internet.

    Question 4. Should there be basic cyber awareness and education as 
part of the normal curriculum in elementary and secondary school?
    Answer. Wouldn't hurt, although we shouldn't expect too much from 
it.

    Question 5. How can the Federal Government bolster market-based 
private sector incentives to drive innovation in cybersecurity and 
raise the bar on cybersecurity standards and best practices?
    Answer. The same way it drove innovation in automobile safety: by 
setting goals and requirements and then letting the companies figure 
out how to implement them.

    Question 6. Does the American public have the right to expect that 
U.S. private sector critical infrastructure companies are looking out 
for the safety and security of the American people? Should this 
interest in public safety an integral aspect of the private market for 
IT products and services?
    Answer. In most other areas of public safety we expect critical 
infrastructure companies to meet minimal standards. It is time to 
extend this to cybersecurity. In many cases, regulatory authorities 
also allow companies to impose a small surcharge to cover the 
additional cost of safety measures. This too must become part of a 
national effort to secure networks.

    Question 7. What must the government do better? What must the 
private sector do better? What responsibilities do both have to the 
public at large? With this in mind, how can we fashion a public-private 
partnership, based on trust, that allows for sharing of confidential 
and/or classified threat and vulnerability information between the 
government and critical private sector networks?
    Answer. National security is the responsibility of the government. 
We should not assign this function to citizens or companies if we wish 
to succeed. Government needs to be better organized and have a clear 
strategy for defense. The best analogy might be to city policing: yes, 
we want people to lock their cars and doors to buildings, and exercise 
a little common sense, but at the end of the day it is the 
responsibility of the city authorities to bring crime rates down. Our 
current approach to cyber security is like the crime fighting approach 
in New York City in the 1970s. We need to change that.

    Question 8. Would government and private cybersecurity efforts 
benefit from ``vulnerability mapping'' of major U.S. networks, public 
and private?
    Answer. Only if the mapping was then tied to some action to either 
improve defenses or increase resiliency.

    Question 9. What are the specific risks to such an activity?
    Answer. Since our major opponents have probably already done this, 
any additional risk is likely to be small.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Dr. James A. Lewis
    Question 1. The recent Bipartisan Policy Center cyber war game 
exercise examined a potential attack that first affected wireless cell 
phones. As computing and networking technology become integral to all 
manner of consumer goods, it seems that new cyber attack 
vulnerabilities will only proliferate. In today's business landscape, 
supply chains stretch across the globe and companies often acquire 
other firms to gain access to new software and technologies for their 
products. This makes it more difficult to know whether a product may 
contain cybersecurity vulnerabilities from a single component or piece 
of software code from an outside supplier or other firm. How is 
security of the final assembled product affected in an environment in 
which new links are so frequently added to the product's ``chain''?
    Answer. Most companies have processes in place for quality control 
that provides some level of protection. A skilled adversary could 
bypass these, but it would be expensive to do so. The larger problem is 
that as manufacturing and invention shift form the U.S. to Asia, our 
vulnerability to supply chain corruption may grow.

    Question 2. How are leading technology companies bringing the 
security of acquired products in line with their own standards for 
cybersecurity?
    Answer. The most advanced companies buy from trusted suppliers, 
engage in testing, and rely on their network defenses to identify 
anomalies (such as effort to exfiltrate large amounts of data) after a 
new device or program is installed.

    Question 3. What is the role of Chief Security Officers or Chief 
Technology Officers in assuring best security practices are implemented 
in such cases?
    Answer. It varies from company to company. The best practice is for 
both CSO and CTO to work together to build secure networks.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Ensign to 
                           Dr. James A. Lewis
    Question 1. Are there any legal restrictions we should focus on 
that make it more difficult for industry and government agencies to 
share the information needed to protect our critical cyber 
infrastructure? Are there any barriers that Congress needs to 
eliminate, or any legal flexibility we can provide to foster the 
necessary sharing while still protecting sensitive or proprietary 
information?
    Answer. The main problems are the need to have personnel with 
security clearance to receive some information and the perception that 
the government does not share fully. It may be possible to streamline 
the clearance process for lower classification levels (Secret, for 
example).

    Question 2. What mechanisms are in place for private companies to 
report cyber intrusions (either originating domestically or overseas) 
to the Federal Government?
    Answer. Different parts of the Federal Government receive reports 
of cyber intrusions. DHS, FBI, Secret Service and, in some instance 
DOD, all get reporting from companies, but the information is not 
always available to other agencies.

    Question 3. What is being done to encourage private companies, 
particularly those with government contracts, to report cyber 
intrusions (either originating domestically or overseas)?
    Answer. DHS, FBI, Secret Service and DOD have outreach programs, 
such as FBI's Infragard program

    Question 4. Do government contractors have an ethical or statutory 
obligation to report cyber intrusions (either originating domestically 
or overseas)?
    Answer. DOD has begun to require reporting from companies in the 
Defense industrial base and in some instances companies have reported 
breaches in their SEC filings, but there is no consistent requirement.

    Question 5. Do government contractors with classified information 
on their servers and individuals with security clearances on their 
payrolls have a statutory or ethical obligation to report cyber 
intrusions (either originating domestically or overseas)?
    Answer. This requirement may be part of their contract of part of 
DOD acquisitions regulations--the DFAR.

    Question 6. When Request For Proposals (RFPs) are put out for 
contracts that involve sensitive or classified information do all of 
these RFPs require that bids include the number of successful and 
unsuccessful cyber intrusions committed by domestic or foreign entities 
(either originating domestically or overseas)?
    Answer. I do not know of any specific requirement.

    Question 7. In your opinion, if a private company believes that it 
has been the victim of a cyber intrusion (both originating domestically 
or overseas), which is the appropriate agency that it should report 
this intrusion to?
    Answer. The FBI.

    Question 8. In your opinion, if a government contractor believes 
that it has been the victim of a cyber intrusion (both origination 
domestically or overseas), which is the appropriate agency that it 
should report this intrusion to?
    Answer. The FBI and the contracting agency.

    Question 9. In your opinion, if a government contractor that is 
working on a sensitive or classified project and believes that it has 
been a victim of a cyber intrusion (both origination domestically or 
overseas), which is the appropriate agency that it should report this 
intrusion to?
    Answer. The FBI and the contracting agency.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                             to Scott Borg
    Question 1. What are the key elements of public-private teamwork 
that are not in place today that should be?
    Answer. The public and private sectors should be discussing how to 
engender the sort of market environment that will allow the creative 
potential of American corporations to be turned loose on our collective 
cyber-security problems. This hasn't happened yet.
    Instead, our ability to tackle the challenges of cyber security is 
being severely limited by established interests and obsolete ways of 
thinking. Even the threat of government regulation and the promise of 
big profits from government contracts or subsidies are not solutions, 
but serious impediments to real cooperation. Both get corporations 
thinking in terms of lobbyists and public relations, rather than 
problem solving.

    Question 2. Would it make a difference if more senior executives in 
the private sector were granted security clearances?
    Answer. Giving more senior executives security clearances would be 
of little help. The population that needs to be reached is much larger 
than the group to whom it would be practical to grant clearances. What 
is needed, instead, is a set of better incentives for declassifying 
information and an improved system for circulating it, while respecting 
its sensitivity.
    In general, the whole system of government security clearances is 
ill-suited to protecting the sort of private-sector-based information 
relevant to cyber defense. It has been a serious impediment to 
communication, yet does not offer sufficient security.
    It is important to understand that the most sensitive and dangerous 
information regarding the possibilities of cyber attacks on critical 
infrastructures is not possessed by the government. It is generated and 
owned by private sector corporations. Much of this information is far 
too sensitive to be entrusted to everyone with a given level of 
security clearance. This information is seldom shared with the 
government, in part, because there is a widespread belief that the 
government can't be trusted with it.

    Question 3. What about cybersecurity? Are you confident that the 
everyday American citizen knows the threat that we are under, and knows 
how to make his or her own home or business safe?
    Answer. It is obvious to virtually all cyber-security experts that 
most Americans have no idea of the threat we are under and little idea 
of how to make their home and business computers safe.

    Question 4. Should there be basic cyber awareness and education as 
part of the normal curriculum in elementary and secondary school?
    Answer. Yes, cyber-security education is essential, but it should 
not be used as an excuse for failing to create more secure information 
products and services. When systems are badly designed, there is a 
great temptation to blame the users. But systems that make great 
demands on users are simply badly designed systems. In addition to 
education, it is urgently important to address the question of why 
information systems are so badly designed from a security standpoint.

    Question 5. How can the Federal Government bolster market-based 
private sector incentives to drive innovation in cybersecurity and 
raise the bar on cybersecurity standards and best practices?
    Answer. I have offered a list of six basic reasons why markets are 
not delivering the needed levels of cyber security: (1) Companies are 
not being charged for the increased risks they cause or paid for the 
risks they reduce; (2) Individual executives are not being motivated to 
act in the long term interests of their companies where cyber security 
is concerned; (3) People don't have adequate information to take 
account of cyber security in their market choices; (4) Markets for many 
urgently needed cyber-security products and services haven't been 
created yet; (5) Switching costs are too great to allow companies to 
shift readily to more secure choices; and (6) Entry barriers have kept 
out alternative products and services that would be better from a 
security standpoint.
    For each of these six market problems, there are several market 
remedies that should be considered. One of the possibilities, for 
example, for remedying the lack of information needed for market 
choices is a government-facilitated system for rating the cyber 
security of software products. If people don't have any reliable 
information on which software products are safer, they can't choose the 
safer products. Putting rating labels on software, the way we put 
already rating labels on everything from cars to cookies, would make it 
possible for the markets to deliver safer software.
    Talk of ``raising the bar'' and ``bolstering incentives'' misses 
the point. The markets that determine cyber security are broken and 
need to be fixed. Government mandates and subsidies won't do the job. 
The government measures that are needed are actually less heavy-handed 
and less expensive, but they need to affect the mechanisms that allow 
markets to function.

    Question 6. Does the American public have the right to expect that 
U.S. private sector critical infrastructure companies are looking out 
for the safety and security of the American people? Should this 
interest in public safety an integral aspect of the private market for 
IT products and services?
    Answer. The American public should be able to assume that its 
interests are being safeguarded, especially where monopolies like 
electric power are concerned. But government intervention in these 
areas needs to handled very carefully, because the technology is 
changing so rapidly. If the government tries to dictate security 
measures to the critical infrastructure industries, these measures will 
probably be out of date and counter-productive before they are finished 
being officially formulated.

    Question 7. What must the government do better? What must the 
private sector do better? What responsibilities do both have to the 
public at large?
    Answer. The government needs to get over the idea that its choices 
are to throw out the market and dictate what should be done or, 
alternatively, to do nothing and hope some market will somehow solve 
things. Instead, the government needs to understand that properly 
functioning markets need attention and engagement.
    For its part, the private sector needs to recognize that properly 
functioning markets provide better opportunities to make money for any 
companies that are delivering real value. They should work with the 
government to make these markets happen.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Mary Ann Davidson
    Question 1. What are the key elements of public-private teamwork 
that are not in place today that should be?
    Answer. The information flow still seems to be one way. With the 
exception of the UK government (through CPNI, a part of MI5), industry 
almost never hears of threats the government--or some in the 
government--know about. In some cases, there may be legal restrictions 
that prevent this information sharing. It is (obviously) not the case 
that everyone should know everything, but if there is a material threat 
that affects national security--where that definition also includes 
economic security--then I think that some of that information should be 
shared more broadly.

    Question 2. Would it make a difference if more senior executives in 
the private sector were granted security clearances?
    Answer. Generally, yes. I still think there is a general lack of 
awareness among some executives about the extent to which critical 
systems are vulnerable and the degree to which their data--including 
intellectual property--is vulnerable. This affects not only national 
security in the traditional sense but also our national economic 
security.

    Question 3. What about cybersecurity? Are you confident that the 
everyday American citizen knows the threat that we are under, and knows 
how to make his or her own home or business safe?
    Answer. Absolutely not; that is, I have no confidence that the 
average person knows how severe of the risks are and what they can do 
to protect themselves. I am a security professional, yet I still learn 
new things every day about how technology can be broken, corrupted or 
used by bad guys against us.

    Question 4. Should there be basic cyber awareness and education as 
part of the normal curriculum in elementary and secondary school?

    Answer. It may sound strange to say Yes, but I am old enough to 
remember the cold war, and how elementary school children would do 
``duck and cover'' drills in schools. We accepted that at the time, 
because we lived under the threat of a nuclear war. We now live in a 
world in which there are new threats and--especially given the degree 
to which schools seem hell bent on using computers at an early age as 
``educational tools''--they need to emphasize both ``responsible use'' 
and ``safe use'' of those tools.

    Question 5. How can the Federal Government bolster market-based 
private sector incentives to drive innovation in cybersecurity and 
raise the bar on cybersecurity standards and best practices?
    Answer. I do not think innovation is the problem--there are lots of 
security startups and more all the time. (Of course, there are other 
disincentives in the sense that Sarbanes-Oxley, for all that it was 
well intended, has resulted in the curtailment of the market for 
initial public offerings (IPOS) in the U.S. The ``compliance overhead'' 
for becoming a public company is so high and so expensive that a lot of 
companies will not IPO anymore--their only exit strategy for investors 
is to be acquired. This was a (clearly) unintended consequence of the 
legislation but it has nonetheless curtailed innovation.)
    I note that there are ways to bolster innovation by helping small 
innovative security startups tap into the larger market that the 
Federal Government represents, such as the IT Security Entrepreneur's 
Forum which is sponsored, in part, by the Defense Department and the 
Department of Homeland Security. (See http://www.security-
innovation.org/).
    As far as raising the bar on standards and best practices, I have 
been an advocate for a long time of using procurement power to do that. 
And the procurement power need not only be the Federal Government but 
could include other sectors. For example, the multi-state information 
sharing and analysis center (MS-ISAC) has come up with common 
procurement language on software development practice. Is it binding on 
the states? No. Is it a common resource that they can use to 
contractually ``signal'' their suppliers that they need to provide 
better security? Yes.
    A no-brainer as far as I am concerned is that any piece of software 
sold to the government should: (a) provide a secure configuration guide 
(attorneys frown on the term ``best practice''), (b) enable the product 
to be installed in that configuration (make it easy and cheap for 
customers to be ``secure out of the gate'') and (c) either provide a 
tool to maintain the configuration or support a standard (such as those 
provided via the Security Content Automation Protocol) that enables the 
configuration to be monitored automatically and re-configured 
automatically.
    The Air Force realized that something like 80 percent of their 
security vulnerabilities were a result of weak/poor configuration 
practice. If vendors can do something once that helps secure all their 
customers, at a lower lifecycle cost, they ought to do it. Procurement 
can force them to do it.

    Question 6. Does the American public have the right to expect that 
U.S. private sector critical infrastructure companies are looking out 
for the safety and security of the American people? Should this 
interest in public safety an integral aspect of the private market for 
IT products and services?
    Answer. The two items are different. Why are they different? 
Because in the case of critical infrastructure companies, most know 
they are ``critical'' and in fact are already regulated (financial 
services and utilities, to name two). So, there is already awareness 
that there is a ``duty of care'' to the public (or they wouldn't be 
regulated in the first place).
    In the case of the private market for IT products and services, 
realize that while some products are created for vertical markets that 
may be regulated (e.g., a piece of software that is used in the 
utilities industry), a lot of software is general purpose (e.g., 
accounting software). Trying to impose a ``worst case'' duty of care on 
all purpose software would be like trying to ensure that, say, any 
laptop would be required to comply with the battlefield ruggedness the 
military demands. The Defense Science Board, in considering the foreign 
influence over the supply chain of software, realized that, while 
raising the overall assurance of commercial software was necessary, 
raising it to the level required for all national security applications 
was unfeasible because the commercial marketplace will not support such 
high levels of assurance. I think it is a similar argument for general 
purpose software used in ``critical sectors''--it's not clear whether 
the market will support high assurance to the extent that's what those 
sectors require.
    Now what should happen is that critical sectors use their (perhaps 
collective) purchasing demands to push their suppliers to higher levels 
of assurance. In fact, we are already seeing many regulated sectors or 
customers tied to those sectors (as suppliers) demanding more 
transparency in development practice and higher accountability in 
software development practice because their customers (e.g., 
pharmaceuticals, defense) are demanding it. And I am all in favor of 
that push since I think customers' being more demanding purchasers 
(within reason) absolutely is an effective agent of change.

    Question 7. What can the government and private sector do together 
to solve this labor shortage problem?
    Answer. Unfortunately, there isn't a simple solution for this. 
Nobody can major in ``cybersecurity'' and in fact, security needs to be 
embedded in a lot of places if we want to change the dynamic. (E.g., we 
don't use traffic cops to enforce secure driving--drivers all have to 
take drivers' ed and be licensed to drive or we wouldn't have a prayer 
of having reasonably safe highways).
    As I have noted in my testimony, I think curricula change in 
universities is a Must Do or we do not have a prayer of changing the 
battlefield, so to speak. Perhaps the government can bring some 
pressure on the accreditation bodies for computer and computer-related 
degree programs? There is a group called ABET which accredits 
engineering, computer science and technology programs (see http://
www.abet.org/) and within that there is a group called Computing 
Sciences Accreditation Board, see http://www.csab.org/) which appears 
to be the sub-group of ABET that accredits computer science, 
information systems, software engineering and information technology 
degree programs. I do not know who accredits industrial control systems 
degree programs (if it is not within one of the above groups).

    Question 8. What can we do to inspire young students to aspire to 
serve their country by being a cybersecurity professional?
    Answer. Making being a good guy more glamorous than being a bad 
guy, as trivial as that sounds. Currently, the press tends to 
``glamorize'' the hacking community. Vendors are almost universally 
portrayed as evil slugs that deliberately build crummy software because 
they do not care about their customers (!). Hackers (including those 
who release exploit code before a vendor can fix a problem) are often 
given a pass--regardless of the amount of damage they do. One well-
known hacker released ``proof of concept code'' that several months 
later was the genesis of the Slammer word, which did BILLIONS in 
damages. He got a pass from the press for that and there were no legal 
repercussions, either, since releasing proof of concept code is not 
illegal.
    Finding a way to change the dynamic so kids use their technical 
skills as defenders and securers can be done (I suspect the Marines'--
The Few, the Proud, the Marines--is one of the more successful 
``service-oriented'' advertising campaigns there is).
    We have a broader societal problem (in my opinion) in that we have 
generations raised to be very aware of their rights and what is due 
them, but few are aware of or seem to care about their 
responsibilities. Serving your country is a responsibility of 
citizenship and I think diversifying that message to emphasize other 
kinds of service (than just using a rifle) could work (e.g., ``Uncle 
Sam is looking for a few good geeks'').
    I don't think appealing to the wallet is necessarily the first 
thing to pitch but quite honestly; there is a lot of demand for 
cybersecurity professionals--and not nearly the supply. This creates 
scarcity that increases wages, all things being equal. So yes, 
cybersecurity is also a good career move because the skills are 
marketable.

    Question 9. What must the government do better? What must the 
private sector do better? What responsibilities do both have to the 
public at large?
    Answer. I think the government can do a number of things better. 
For one thing, while the military is busy standing up cyber commands, 
not all the services actually have career paths for plain old 
information technology let alone cyber-expertise. I note that 
traditionally, logistics, though not a war fighter discipline, is still 
a valued career skill and in fact you can make flag rank (general or 
admiral) in a logistics specialty. Why does it matter? Because Patton 
understood what would happen if his 3rd Army ran out of oil. Today's 
information centric armies run on bits and bytes, just as much as oil. 
Without a clear, recognized and rewarded career path in both 
``defensive'' information technology and offensive cyber war, the 
military is sending a signal that information smarts is not valued and 
is not important.
    Obviously, the government also needs to lead by example by securing 
their own networks.
    As far as the private sector goes, I do advocate greater emphasis 
and ``governance'' around security for private enterprises. Governance 
is not about being perfect, it is about understanding the threats to 
your business, prioritizing them in terms of ``what do we, as a 
company, adhere to in terms of security practices to mitigate those 
risks?'' and ensuring that you are doing those things broadly and 
consistently. Where you are not doing them, you have a reasonably 
aggressive remediation plan in place to, as they say, ``get with the 
program.'' If you do not manage risks appropriately, you are not 
running your business well.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Mary Ann Davidson
    Question 1. Ms. Davidson, in your statement, you note that many of 
the commercial software components used to build a new ``smart grid'' 
probably are not designed for such for the level of cyber attack 
threats that our Nation's electric grid may face. But ensuring that 
commercial software, or even government computer systems, are safe from 
cyber attack is a real challenge. The National Institute of Standards 
and Technology (NIST) maintains a standard for data encryption, the 
FIPS 140 standard. What other government or industry standards exist 
for cyber security?
    Answer. There are lots of standards--some of them are technical 
standards that ensure interoperability of components (e.g., public key 
encryption standards like PKCS (public key cryptography standards) 11, 
or standards created by consortia such as the payment card industry 
(PCI) data security standard (DSS) that addresses securing information 
related to payment transactions. There are some emerging standards that 
would specifically facilitate higher ``situational awareness'' for 
networks, such as the security content automation protocol (SCAP), a 
cornucopia of standards that enable things like determining what 
product is running on a network (and what version), what it's secure 
configuration is, and so on. These standards were developed by NIST or, 
in some cases, Mitre under contract to NIST.
    There are also international software assurance standards (such as 
the Common Criteria--International Standards Organization (ISO)-15408) 
to which the U.S. subscribes. The Common Criteria is focused on 
describing the nature of threats, what technical measures a product 
needs to address those threats, and how well it does meet them. I note 
that in many cases an international standard is really better than a 
market-specific one, because: (a) a lot of security needs are not 
country specific and (b) if each country (and in some cases if each 
industry) starts specifying a similar but slightly different way to do 
X, companies will--ironically--potentially end up with worse security 
as they spend money not on actual improvement but on meeting hundreds 
of only slightly different regulatory requirements. For example, if 
local, city, county, state and Federal bodies all required separate 
termite inspections for houses, you'd have to pay for four inspections. 
Your house would arguably not be four times as termite-free as if you 
just did one pretty good inspection.
    In some cases (by industry) there might be legitimate differences. 
For example, the Defense Department has (legitimately) different 
requirements for, say, smart phones that are going to be used in 
sensitive environments than the average consumer does for his or her 
smart phones.

    Question 2. Should Congress encourage companies and government 
agencies to develop and use more cyber security standards?
    Answer. I think technical interoperability-type security standards 
the market will take care of--government tends to be too slow to drive 
those and entities tend to cooperate when there is a common problem 
(or, where cooperation will actually increase the market size because 
there can be more uptake of technology with a single standard than 
would be the case if there are dueling standards).
    But there are ``underserved'' markets or areas in which industry is 
unlikely to develop common standards where government--specifically, 
NIST--can have an important role. One such area has been SCAP--being 
able to determine, quickly, what products are on a network, what their 
configurations are, to what they might be susceptible, and to be able 
to reconfigure them automatically--is helping to automate defenses. 
Considering attacks are automated, automating defenses is important.
    Another such area (as unglamorous as it sounds) is auditing and 
auditability. There are a plethora of products in the sector called SIM 
(security information management) or SIEM (security information and 
event management) that claim to be able to analyze ``events'' on 
networks (by data mining audit logs) and correlate them (e.g., to see 
attack patterns). However, that assumes a) that events are recorded at 
all--not all products have robust enough auditing to even record 
interesting events--and that the events can be expressed in a common 
format (so they can be more easily correlated). There is an emerging 
standard (called CEE--Common Event Expression, see http://
cee.mitre.org/) in this sector but quite honestly, the government could 
help create the capacity for better ``situational awareness on 
networks'' by fostering a standard adoption through procurement 
policies. Any software product the government buys could be expected to 
a) have basic auditability as defined by a standard (possibly CEE, 
assuming it is actually published by NIST and industry is allowed to 
comment on it) and b) express their audit records in a common format.

    Question 3. The recent Bipartisan Policy Center cyber war game 
exercise examined a potential attack that first affected wireless cell 
phones. As computing and networking technology become integral to all 
manner of consumer goods, it seems that new cyber attack 
vulnerabilities will only proliferate.
    In today's business landscape, supply chains stretch across the 
globe and companies often acquire other firms to gain access to new 
software and technologies for their products. This makes it more 
difficult to know whether a product may contain cybersecurity 
vulnerabilities from a single component or piece of software code from 
an outside supplier or other firm. How is security of the final 
assembled product affected in an environment in which new links are so 
frequently added to the product's ``chain''?
    Answer. Keep in mind, there are many supply chain risks businesses 
need to consider that directly affect their business. These are not 
necessarily the same concerns that their customers have (but are 
nonetheless important). For example, some software carries so-called 
``viral licensing'' provisions in that, if the software is embedded 
within another product, the product comes under the same licensing 
terms (which in many cases, effectively makes it freeware). No vendor 
wants to embed such third party code that ``taints'' their code base in 
such a way that they can no longer sell the resulting product--their 
revenue model is destroyed. Second, realize that it is impossible to 
detect all vulnerabilities in software even using the best commercially 
available tools and it is--in particular (emphasis added) it is 
impossible to absolutely prevent someone from putting something bad in 
code that would be undetectable.
    What is reasonable and feasible is that a company should have 
reasonable practices around their supply chain risk (because it is in 
their business interests to do that, anyway). Note again that many of 
these risks will go directly to their ability to operate and will not 
necessarily be the same risks that a purchaser worries about. A company 
should also have a reasonable governance structure in place to ensure 
that they are doing the same things across their lines of business. 
Having done that, they could disclose their practices to interested 
purchasers--who were, for example, concerned over how a company takes 
reasonable measures to prevent someone from corrupting their code base. 
Reasonable means that, for example, changes to code have attribution, 
and there are restrictions on access (e.g., not just anybody in the 
company can make a change to code--and certainly not in a way that 
cannot be attributed).
    I have done a paper for the House Homeland Security Subcommittee on 
Cybersecurity, Emerging Threats and Science and Technology on supply 
chain risk that speaks to the above in more detail and I would be happy 
to provide that, as well, if it is of interest and of use.

    Question 4. How are leading technology companies bringing the 
security of acquired products in line with their own standards for 
cybersecurity?
    Answer. I cannot (obviously) speak for other companies, but Oracle 
has a structured process for integrating acquired companies into Oracle 
business practices. My team has the remit for integration of acquired 
entities into our secure development practices. As part of that, we 
rapidly ascertain their current practices, use the review to create a 
compliance plan going forward, and--as with all lines of business--
periodically report progress against compliance requirements to 
executive management via a security oversight committee. The compliance 
measurement covers the entirety of our secure development practices. In 
cases where an entity struggles to make compliance we highlight them 
for special attention and guidance (and the accountability that goes 
with it). There are other groups that look after integration of our 
networks, the security policies that go with our business practices, 
and so forth.

    Question 5. What is the role of Chief Security Officers or Chief 
Technology Officers in assuring best security practices are implemented 
in such cases?
    Answer. There can be several roles. One of them is that to the 
extent a CTO or CSO is an influencer or purchaser of technology, they 
can enforce better procurement transparency on their suppliers. That 
could include specific ``disclosure'' requirements on their suppliers 
related to development practice if not compliance with standards (like 
FIPS-140, or ISO 15408).
    Second, to the extent a company develops their own software, they 
should have internal standards for development practice that at least 
reflect or include consensus good practice. That can reference 
``standards''--I use the term loosely--such as BSIMM (Build Security In 
Maturity Model), or the Build Security In guidance issued by the 
Department of Homeland Security, or things like the SANS Top 25 coding 
errors (i.e., to at least ensure that a developer has considered these 
issues and attempted to avoid them), and so forth. There actually is a 
lot of material out on what constitutes good, secure development 
practice, and what common vulnerabilities are (and how to avoid them). 
It's unconscionable that universities do not educate people who design 
and build systems on these matters, but that does not mean people who 
build systems in industry should accept that ``educational deficiency'' 
without making every effort to rectify it in their own practice.
                               Attachment
                           Supply Chain Risk
    The purpose of this document is to outline risk management concerns 
pertaining to the supply chain of software and hardware. This document 
may serve as a blueprint for suppliers seeking to ensure they've 
adequately addressed hardware- and software-related supply chain risk, 
and for purchasers in the procurement of software. That is, suppliers 
that want to protect their supply chain should be able to address these 
questions for their own risk management purposes. Secondarily, 
suppliers should be able to disclose their supply chain risk management 
practices so that a purchaser can make better risk-based acquisition 
decisions.
    While supply chain transparency alone will not ameliorate risk, it 
will level the playing field to the extent that supply chain assurance 
``disclosure'' becomes the norm, and thus customers have the ability to 
use supply chain risk mitigation as a--but not necessarily the only--
purchasing criterion. Furthermore, it is likely that disclosure will 
lead to some upleveling of security practices to the extent vendors are 
not already addressing supply chain risk and more customers evaluate 
supply chain risk prior to purchasing. That is, to the extent more 
purchasers demand transparency around supply chain risk mitigation, 
suppliers not already addressing this risk will be compelled by market 
forces to do so.
Scope
    The scope of this paper is supply chain risk for commercial off-
the-shelf (COTS) software and hardware, not custom code or government 
off-the-shelf (GOTS) software and hardware, which may be a combination 
of COTS components and either government-developed or third party 
custom code. GOTS could include custom applications (built by cleared 
individuals) that run on COTS components, for example. This document 
does not address supply chain risk related to industrial policy (i.e., 
a country may wish to ensure that they have one or more domestic 
suppliers of a critical component--such as microprocessors   la the 
Trusted Foundry Program--to avoid supply chain disruption caused by war 
or other geopolitical upheaval).
Constraints
    There are a number of practical constraints that bound the ``supply 
chain risk assessment'' problem as it pertains to COTS software and 
hardware. These constraints are important because they set the 
framework for what can reasonably and feasibly be asserted about the 
supply chain of commercial software and hardware. Any such 
``reasonability'' discussion must of necessity bound efforts to reduce 
or mitigate supply chain risk for COTS. In particular, COTS is not 
GOTS: it is no more reasonable to purchase commercial, general purpose 
software and hardware and expect it to have the assurance (e.g., 
extensive third party validation, ``cleared'' personnel, robustness in 
threat environments it was not designed for) of custom, single purpose 
software and hardware as it is to purchase a Gulfstream V and expect it 
to perform to the specifications of an F-22 Raptor.
    Constraint 1: In the general case--and certainly for multi-purpose 
infrastructure and applications software and hardware--there are no 
COTS products without global development and manufacturing.
    Discussion: The explosion in COTS software and hardware of the past 
20 years has occurred precisely because companies are able to gain 
access to global talent by developing products around the world. For 
example, a development effort may include personnel on a single 
``virtual team'' who work across the United States and in the United 
Kingdom and India. COTS suppliers also need access to global resources 
to support their global customers. For example, COTS suppliers often 
offer 7x24 support in which responsibility for addressing a critical 
customer service request migrates around the globe, from support center 
to support center (often referred to as a ``follow the sun'' model). 
Furthermore, the more effective and available (that is, 7x24 and 
global) support is, the more likely problems will be reported and 
resolved more quickly for the benefit of all customers. Even smaller 
firms that produce niche COTS products (e.g., cryptographic or security 
software and hardware) may use global talent to produce it.
    Note that global development may include outsourcing of development 
staff resource (use of contracted third parties to develop code modules 
that are sold separately, or integrated into larger product suites), as 
well in-house developers (employees) of a global enterprise that are 
located in development centers around the globe. For example, some 
enterprise software providers build some modules in-house while being 
an open source distributor for other modules. In addition to including 
development groups in multiple countries, global development may also 
include H1B visa holders or green card holders working in the United 
States.
    Hardware suppliers are typically no longer ``soup to nuts'' 
manufacturers. That is, a hardware supplier may use a global supply 
network in which components--sourced from multiple entities worldwide--
are assembled by another entity. Software is loaded onto the finished 
hardware in yet another manufacturing step. Global manufacturing and 
assembly helps hardware suppliers focus on production of the elements 
for which they can best add value and keeps overall manufacturing and 
distribution costs low. We take it for granted that we can buy 
serviceable and powerful personal computers for under $1000, but it was 
not that long ago that the computing power in the average PC was out of 
reach for all but highly capitalized entities and special purpose 
applications. Global manufacturing and distribution has helped make 
this happen.
    In summary, many organizations that would have deployed custom 
software and hardware in the past have now ``bet the farm'' on the use 
of COTS products because they are cheaper, more feature rich, and more 
supportable than custom software and hardware. As a result, COTS 
products are being embedded in many systems--or used in many deployment 
scenarios--that they were not necessarily designed for. Supply chain 
risk is by no means the only risk of deploying commercial products in 
non-commercial threat environments.
    Constraint 2: It is not possible to prevent someone from putting 
something in code that is undetectable and potentially malicious, no 
matter how much you tighten geographic parameters.
    Discussion: One of the main expressions of concern over supply 
chain risk is the ``malware boogeyman,'' most often associated with the 
fear that a malicious employee with authorized access to code will put 
a backdoor or malware in code that is eventually sold to a critical 
infrastructure provider (e.g., financial services, utilities) or a 
defense or intelligence agency. Such code, it is feared, could enable 
an adversary to alter (i.e., change) data or exfiltrate data (e.g., 
remove copies of data surreptitiously) or make use of a planted ``kill 
switch'' to prevent the software or hardware from functioning. 
Typically, the fear is expressed as ``a foreigner'' could do this. 
However, it is unclear precisely what ``foreigner'' is in this context:

  <bullet> There are many H1B visa holders (and green card holders) who 
        work for companies located in the United States. Are these 
        ``foreigners?''

  <bullet> There are U.S. citizens who live in countries other than the 
        U.S. and work on code there. Are these ``foreigners?'' That is, 
        is the fear of code corruption based on geography or national 
        origin of the developer?

  <bullet> There are developers who are naturalized U.S. citizens (or 
        dual passport holders). Are these ``foreigners?''

    It is unclear whether the concern is geographic locale, national 
origin of a developer or overall development practice and the 
consistency by which it is applied worldwide. For example, non-US staff 
working outside the U.S. would appear by definition to be 
``foreigners,'' yet they are often subject to U.S. management oversight 
and their work on code may be peer and manager reviewed before it is 
accepted. In the sense that a U.S. manager ``accepts'' responsibility 
for a ``foreigner's'' code work, is this still a concern?
    Similarly, there are presumably different levels of concern for 
different foreign countries. How is a COTS vendor expected to know 
which countries are of more concern than others? Should work by staff 
working in or citizens of traditional U.S. allies be accepted as 
similar to that of U.S. staff?
    COTS software, particularly infrastructure software (operating 
systems, databases, middleware) or packaged applications (customer 
relationship management (CRM), enterprise resource planning (ERP)) 
typically has multiple millions of lines of code (e.g., the Oracle 
database has about 70 million lines of code). Also typically, 
commercial software is in near-constant state of development: there is 
always a new version under development or old versions undergoing 
maintenance. While there are automated tools on the market that can 
scan source code for exploitable security defects (so-called static 
analysis tools), such tools find only a portion of exploitable defects 
and these are typically of the ``coding error'' variety. They do not 
find most design defects and they would be unlikely to find 
deliberately introduced backdoors or malware.\1\
---------------------------------------------------------------------------
    \1\ For example, a trivial way to introduce a backdoor in a way 
that would be undetectable by automated tools would be to create a 
package or function (that is, a piece of code that does something 
specific) that is ``called'' within a piece of software but that does--
nothing. Nothing that is, unless the package is called with a specific 
argument--that is, a piece of data (e.g., an input string) that 
triggers the package to do something very specific and malevolent. 
While some automated tools scan for ``dead code''--code that is never 
executed--this package would be executed in the sense it is called by 
many other pieces of code--but doesn't do anything, or doesn't do 
anything bad, except when called with a particular ``triggering'' 
input. Manual code review might catch this, but as noted earlier, 
manual code review is unlikely for every change to a large code base 
that changes constantly.
---------------------------------------------------------------------------
    Given the size of COTS code bases, the fact they are in a near 
constant state of flux, and the limits of automated tools, there is no 
way to absolutely prevent the insertion of bad code that would have 
unintended consequences and would not be detectable. (As a proof point, 
a security expert in command and control systems once put ``bad code'' 
in a specific 100 lines of code and challenged code reviewers to find 
it within the specific 100 lines of code. They couldn't. In other 
words, even if you know where to look, malware can be and often is 
undetectable.) \2\
---------------------------------------------------------------------------
    \2\ The expert related the story while serving on the Defense 
Science Board task force analyzing the mission impact of foreign 
influence on DOD software, referenced later in this paper.
---------------------------------------------------------------------------
    Constraint 3: Commercial assurance is not ``high assurance.''
    Note that there are existing, internationally recognized assurance 
measures such as the Common Criteria (ISO-15408) that validate that 
software meets specific (stated) threats it was designed to meet. The 
Common Criteria supports a sliding scale of assurance (i.e., levels 1 
through 7) with different levels of software development rigor required 
at each level: the higher the assurance level, the more development 
rigor required to substantiate the higher assurance level. Most 
commercial software can be evaluated up to Evaluation Assurance Level 
(EAL) 4 (which, under the Common Criteria Recognition Arrangement 
(CCRA), is also accepted by other countries that subscribe to the 
Common Criteria).
    Regarding the supply chain issue at hand, what is achievable and 
commercially feasible is for a supplier to have reasonable controls on 
access to source code during its development cycle and reasonable use 
of commercial tools and processes that will find routine ``bad code'' 
(such as exploitable coding errors that lead to security 
vulnerabilities). Such a ``raise the bar'' exercise may have a 
deterrent affect to the extent that it removes the plausible 
deniability of a malefactor inserting a common coding error that leads 
to a security exploit. That is, in the absence of using these tools, a 
malefactor could insert a back door implemented as a common coding 
error. If the error is found, the malefactor has plausible deniability 
that, after all, he made a coding error that many other developers 
make, such as a buffer overflow. Using automated vulnerability finding 
tools, in addition to improving code hygiene, makes it harder for 
someone to deliberately insert a backdoor masquerading as a common 
coding error because the tools find many such coding errors. Thus, a 
malefactor may, at least, have to work harder. (A side benefit is the 
overall lower cost of ownership of software to the extent code quality 
improves and customers do not have to apply so many after-the-fact 
security patches.)
    That said, and to Constraint 1, the COTS marketplace will not 
support significantly higher software assurance levels such as manual 
code review of 70 million lines of code, or extensive third party 
``validation'' of large bodies of code beyond existing mechanisms 
(i.e., the Common Criteria) nor will it support a ``custom code'' 
development model where all developers are U.S. citizens, anymore than 
the marketplace will support U.S.-only components and U.S.-only 
assembly in hardware manufacturing. This was, in fact, a conclusion 
reached by the Defense Science Board in their report on foreign 
influence on the supply chain of software.\3\ And in fact, supply chain 
risk is not about the citizenship of developers or their geographic 
locale but about the lifecycle of software, how it can be corrupted, 
and taking reasonable and commercially feasible precautions to prevent 
code corruption.
---------------------------------------------------------------------------
    \3\ Report of the Defense Science Board Task Force on the Mission 
Impact of Foreign Influence on DOD Software (http://www.acq.osd.mil/
dsb/reports/2007-09-Mission_Impact_of_Foreign
_Influence_on_DoD_Software.pdf).
---------------------------------------------------------------------------
    The lack of market support for ``higher assurance commercial 
software'' is particularly ironic given the recent policy change \4\ by 
the National Information Assurance Partnership (NIAP) that negates much 
of the value of existing assurance mechanisms (i.e., Common Criteria 
evaluations). While they are not perfect, Common Criteria evaluations 
do establish the assurance of commercial software and--at commercial 
assurance levels--includes an assessment of the security of the 
software development environment. In other words, it is ironic that 
there seems to be increased interest in software assurance (or, the 
supply chain aspects of assurance) at the very time the U.S. government 
is undercutting the market for evaluated products.
---------------------------------------------------------------------------
    \4\ See http://www.niap-ccevs.org/ Prior to October 2009, 
procurement policy as it related to software assurance was governed by 
Department of Defense (DOD) 8500, which stated that national security 
systems must have an international Common Criteria (ISO 15408) 
evaluation or, for cryptographic modules, Federal Information 
Processing Standard (FIPS) 140-2 cryptographic module validation. 
(Note: DoD 8500 and NSTISSP #11 are due to be modified to reflect the 
new NIAP policy.) As of October 2009, the NIAP policy has been changed 
such that only products for which the U.S. government has an approved 
``protection profile'' (a description of the threats a specific class 
of product faces and the technical remedies for these threats) must be 
evaluated. (The only other ``exception'' is in the case where an agency 
indicates to NSA by letter that they need another class of product--
without a protection profile--evaluated.) While the intent of the 
policy is to make evaluation more ``relevant'' to the stated needs of 
the U.S. Government, as a practical matter it has undercut the market 
for evaluated products. Vendors are already reassigning their 
evaluation personnel in response to this ``market signaling.''
---------------------------------------------------------------------------
    Constraint 4: Any supply chain assurance exercise--whether improved 
assurance or improved disclosure--must be done under the auspices of a 
single global standard, such as the Common Criteria.
    This document is proposed as a potential ``disclosure 
questionnaire'' for both suppliers and purchasers of software and 
hardware. Any such disclosure requirement needs to ensure that the 
value of information--to purchasers--is greater than the cost to 
suppliers of providing such information. That is, the information needs 
to result in significantly more ``informed'' purchasing behavior than 
would otherwise be the case. To that end, disclosure should be 
something that is standardized, not customized. Even a large vendor 
would not be able to complete per-customer or per-industry 
questionnaires on supply chain risk for each release of each product 
they produce. The cost of completing such ``per-customer, per-
industry'' questionnaires would be considerable, and far more so for 
small, niche vendors or innovative start-ups.
    For example, a draft questionnaire by the Department of Homeland 
Security as part of their software assurance efforts asked, for each 
development project, for each phase of development (requirement, 
design, code, and test) how many ``foreigners'' worked on each project? 
A large product may have hundreds of projects, and collating how many 
``foreigners'' worked on each of them provides little value (and says 
nothing about the assurance of the software development process) while 
being extremely expensive to collect. (The question was dropped from 
the final document.)
    More specifically, given that the major supply chain concerns seem 
to be centered on assurance, we should use international assurance 
standards (specifically the Common Criteria) to address them. Were 
someone to institute a separate, expensive, non-international ``supply 
chain assurance certification,'' not only would software assurance not 
improve, it would likely get worse, because the same resources that 
companies today spend on improving their product would be spent on 
secondary or tertiary ``certifications'' that are expensive, 
inconsistent and non-leverageable. A new ``regulatory regime''--
particularly one that largely overlaps with an existing scheme--would 
be expensive and ``crowd out'' better uses of time, people, and money. 
To the extent some supply chain issues are not already addressed in 
Common Criteria evaluations, the Common Criteria could be modified to 
address them, using an existing structure that already speaks to 
assurance in the international realm.
Terms
    Like the Indian fable of the six blind men and the elephant, each 
of whom described a totally different animal based on what part of it 
they were touching, the definition of ``supply chain risk'' often 
varies depending on who is describing it. The assurance that 
stakeholders may wish to have around supply chain risk may vary 
depending on their perspectives. For example, vendor concerns may 
include a heavy emphasis on intellectual property (IP) protection since 
IP is typically one's ``corporate crown jewels'' and, should it be 
compromised (e.g., stolen or tainted) the firm may be out of business 
or crippled in some markets. For customers, the concern tends to focus 
on the aforementioned ``malware boogeyman'' which is a subset of a 
larger discipline known as software assurance.
    Counterfeiting is a risk that is perceptually greater for hardware 
than for software. The concern from a supplier's side goes to both 
their brand and their intellectual property since a hardware component 
has to both look like and perform like the genuine article but may not 
be as good a quality as the genuine article. The customer concerns over 
counterfeiting include getting what you pay for in terms of performance 
characteristics (i.e., not failing at a critical juncture) and the 
customer ability to service the product.
    Software assurance (SwA) is defined by the Department of Homeland 
Security as ``the level of confidence that software is free from 
vulnerabilities, either intentionally designed into the software or 
accidentally inserted at anytime during its lifecycle, and that the 
software functions in the intended manner.''
    Source code is raw computer code in uncompiled form. Typically, 
vendors deliver compiled code (also known as binaries or executables) 
to customers, so that all the customer can do is execute--``run''--the 
code. While much software is configurable, the executable typically 
limits the amount of customization or configuration a customer can do 
to what is designed in (e.g., a customer of an ERP application can 
typically configure approval hierarchies or the chart of accounts, but 
cannot change the basic logic of the application). Therefore, most 
threats to the supply chain are threats to source code to the extent 
that it is source code that must actually be modified (maliciously).
    There is another risk to the extent that some code allows execution 
of other binaries that are ``linked in''--allowed to run with the 
executable. That is, a software developer that downloads or purchases 
binaries to run with their code without an understanding or vetting of 
what that code does could be allowing ``bad code'' to execute with or 
within their product. Much software (such as browsers or wiki software) 
is explicitly designed to allow such third party ``plug-ins.'' Despite 
the fact that the basic software usually ``warns'' users of the dangers 
of allowing unvalidated plug-ins to run, most users just ``click 
through'' such warnings because they want the features of the ``cool'' 
plug-in.
Supply Chain/Source Code Questions
    The following questions outline concerns that a software or 
hardware manufacturer should address in regards to protection of source 
code throughout its lifecycle. It also includes questions related to 
hardware-related intellectual property and assembly. By addressing 
these concerns, a software or hardware manufacturer should be able to:

  <bullet> Identify the ways in which they are addressing risks (and 
        the ``owners'' for those areas).

  <bullet> Document what is being done--and not done--to protect their 
        source code throughout its lifecycle.

  <bullet> Identify remaining unmitigated risk and propose ways to 
        reduce that risk.

  <bullet> Create a governance structure around the protection of 
        source code--and other intellectual property, such as hardware 
        designs--to ensure that policies are followed consistently 
        across lines of business, and consistently over time.

    Note: many below questions that are geared toward intellectual 
property protection of source code may be equally applicable to the 
intellectual property associated with hardware designs (i.e., limiting 
access to source code or hardware designs to ensure employees--with or 
without ``need to know''--do not commit IP theft).
Acquisition
    Many companies grow by acquisition and incorporate code sets from 
those acquisitions into other products. Ultimately, the processes and 
policies that a company implements around supply chain risk need to be 
reasonably consistent (that is, if there is an exception or a policy 
``difference,'' there should be a reason for it and an explicit 
approval of that difference).
    A1. Do you do any pre-acquisition screening of source code prior to 
an acquisition (e.g., to ascertain what it does, the ``content'' or 
other characteristics of the code)? The general concern is, ``Do you 
know what you are getting in an acquisition?'' \5\
---------------------------------------------------------------------------
    \5\ One reason to do such pre-acquisition screening is to identify 
so-called ``viral licenses'' wherein inclusion of the code in a larger 
code base changes the licensing terms, potentially ``tainting'' the 
larger code base and one's ability to generate revenue from it. There 
are automated tools (e.g., from Black Duck) that can scan code bases 
looking for such ``viral license'' code.
---------------------------------------------------------------------------
    A2. Are you consistent across all acquisitions, or do you do 
different ``source code due diligence'' depending on the acquisition?
    A3. Are acquired code bases integrated into your other software 
development practices? How quickly, and how often is this progress 
measured?
Development
    Software development encompasses much of the lifecycle of code. 
This may include incorporation of third party code (e.g., open source, 
licensed libraries), the core development of new code, the ability to 
maintain it through its lifecycle, granting access to source code to 
third parties (e.g., for a security assessment or for other reasons) 
and escrowing the code.
Personnel
    D1. What screening or background check do you do of employees who 
get access to source code throughout its life cycle?
    D2. Is the screening consistent (in terms of quality) across 
employees, geographic areas and product divisions?
    D3. Do you differentiate among some products or product areas that 
are deemed more critical (and thus do more stringent checks)? Which 
ones?
Third Party Code (not Open Source Code)
    D4. What controls do you have around third party code incorporation 
into the code base (to ensure, for example, that a random piece of code 
without approval, appropriate licensing and oversight is not introduced 
into source code)?
    D5. In cases where you do incorporate third party code, are you 
incorporating source code in all cases, or are there some object 
libraries?
    D6. What if any security checks do you do on third party code, and 
is it consistent across product lines and across ``homegrown'' and 
``third party'' libraries? (That is, any code shipped with a product 
should in general comply with the same standards of quality, testing, 
and so on.)
    D7. Are the security checks done via manual code review, static 
analysis or other analytic tool, or via another means?
    D8. Are the same checks done on patches and updates? That is, if a 
third party provider gives you a ``patch'' to a problem in their 
libraries, are there any security checks done on the patch?
    D9. How consistently are the above checks done across third party 
libraries and across lines of business?
Open Source Code
    D10. What processes and policies do you have around incorporation 
of open source code into your product (to ensure, for example, that you 
do not incorporate viral licenses, or ``back-doored code'' or an 
otherwise ``tainted'' open source code into your code base)?
    D11. Are the same checks done on patches and updates? That is, if a 
third party provider gives you a ``patch'' to a problem in their 
libraries, are there any security checks done on the patch?
    D12. How consistently are the above checks done across open source 
libraries and across lines of business?
Development Access Control
    D13. Have you identified all employees who get access to source 
code throughout its life cycle (e.g., developers, quality assurance 
(QA), support personnel) as apropos? (That is, access to source code 
should be reasonably restricted to those with a need to access it, not 
open to all. While the ability to modify code (write) is one concern, 
the ability to read code (that is read but not modify) may also be a 
concern for purposes of intellectual property protection.)
    D14. Do you deploy source control systems to govern access to and 
modification of source code?
    D15. What is the granularity of access? (That is, can a developer 
get access to, say, an entire product's code base or a much smaller 
subset?)
    D16. How often is this access control reverified? For example, if 
an employee is transferred, how quickly is source code access modified 
or restricted accordingly?
    D17. How consistent are your access controls? (That is, are these 
controls implemented consistently across all product areas, or is there 
a lot of disparity on granularity depending on product access?)
    D18. Are the servers on which source code is stored regularly 
maintained (e.g., do you apply critical patches--especially security 
patches--in a timely manner?)
    D19. Are there baseline secure configurations enforced on the 
servers on which source code is stored and how often are these checked? 
(The concern is whether someone can bypass source code controls by 
breaking into the source code server through, say, a poor configuration 
or an unpatched system.)
    D20. Do you have any special carve outs on source code access 
beyond ``by product/by developer''--for example, are there greater 
restrictions on accessing security functionality like encryption 
technologies (e.g., for Export Administration Regulations (EAR) 
reasons) or other geographic restrictions?
    D21. Do you review, validate (or ``pen test'') your source code 
access controls to ensure that your controls are adequate? How often?
    D22. Do you do any proactive checking (e.g., through a data loss 
prevention tool) to look for source code leaving your corporate network 
(e.g., through someone e-mailing it)?
    D23. What if any auditing do you have on who accesses source code 
in development and does anyone ever review those logs? How often?
    D24. What if any native logs are there in the source control system 
itself and how far back can you attribute changes to code?
    D25. Are code changes attributable to individual developers?
Security Testing
    T1. Do you use automated (or other) tools--such as static 
analysis--to actively look for security vulnerabilities in code?
    T2. How broadly is the tool deployed within a product? (E.g., is it 
run against all libraries associated with a product, just a few, or 
something in between?)
    T3. How broad is the code coverage of such tools across all 
products and lines of business?
    T4. Are defects found via such tools logged and tracked?
    T5. What policies do you have around fixing defects you find either 
during development or afterwards? Do you keep metrics around how 
quickly issues are fixed?
    T6. What kind of access control or restrictions do you have on 
access to information about unfixed security vulnerabilities? (The 
concern is that a malefactor could find information about exploitable 
defects by accessing a record or database of such information if access 
is not suitably restricted to those with ``need to know.'')
Manufacturing and Distribution
    M1. What processes do you have to ensure that your code is not 
corrupted in between development and delivery to customers or external 
parties (e.g., escrow agents)? For example, do you use checksums or 
other mechanisms to ensure that the code ``as developed and released to 
manufacturing'' is what is delivered to customers?
    M2. Are these processes consistent across product divisions and 
products?
    M3. What are your processes regarding backing up (that is, secure 
storage) of source code, to include length of time for which you store 
it (e.g., escrowing), security controls around the secure storage 
(e.g., encryption) and any auditing or ``spot checking'' of these 
controls?
    M4. Do you use a third party to escrow source code? If so, what 
controls are there on source code as it is transmitted to the firm 
(e.g., is it encrypted and/or sent by trusted courier, other?)
Third Party Access to Source Code
    P1. What policies do you have around providing access to source 
code to third parties and how are they enforced? (There are many 
reasons an entity might provide such access: for example, a third party 
might be doing a ``port'' of the code to an operating system that the 
company does not have in-house resources to do.) What kind of access is 
provided and how is it provided? (Does the third party have access to 
corporate networks for purposes of accessing code, or other?)
    P2. Is there any ``master list'' of where such access has been 
approved and provided, to whom, for what products and so forth?
    P3. What policies and processes do you have in place to ensure, for 
example, that random third parties (to include customers and third 
party research firms acting on their behalf) do not get access to 
source code for purposes of security analysis? (While companies may 
wish to contract with third parties for such purposes, allowing a third 
party to access source code for security analysis purposes allows that 
third party to amass a database of unfixed security vulnerabilities 
which, if compromised or sold, could put all customers at risk.)
Hardware
    The following section addresses hardware-specific supply chain 
risks.
Manufacturing
    HM1. To what degree is your manufacturing outsourced?
    HM2. If all or part of your manufacturing is outsourced, what steps 
have you taken to mitigate intellectual property theft (i.e., by not 
having a turnkey ``outsourcer'' that provides all components to 
specifications and that also does final assembly, or by selecting 
locales based on ``country risk?'') \6\
---------------------------------------------------------------------------
    \6\ The degree to which manufacturing can be outsourced in sections 
is a function of the amount of expertise one wants to retain in-house 
and also an assessment of risk of putting all one's eggs in one basket, 
in particular, country-specific risk. Some locales have not only a 
higher reputation for intellectual property theft but much less legal 
protection of IP.
---------------------------------------------------------------------------
Testing
    HT1. What kind of testing do conduct of a) components during 
manufacturing and b) final component assembly?
    HT2. Is testing done by the outsourcer or is there a ``check and 
balance?'' wherein testing is done by an entity other than the 
manufacturer?
    HT3. How broad and deep is the testing (Each component? Each final 
assembly?)
    HT4. Does testing \7\ include verification that there are no 
components or functions that should not be there?
---------------------------------------------------------------------------
    \7\ Note: as with software, hardware testing can establish that 
hardware performs to specifications but cannot necessarily establish 
what it does not do.
---------------------------------------------------------------------------
Counterfeiting/Fraud
    HC1. What procedures do you have in place to ensure that components 
used in hardware manufacture are authentic (that is, not 
counterfeited)? How broad (i.e., against the spectrum of components) 
and deep (i.e., frequency) is your verification?
    HC2. What procedures do you have in place to provide component 
verification for customers (that is, to establish that hardware 
ostensibly of your manufacture actually is authentic and not a 
knockoff?)
    HC3. Do you actively look for fraudulent ``suppliers'' of your 
product?
Other
    HO1. Are any hardware components used and resold \8\ wiped to 
ensure that no data--or non-standard programs--are installed when they 
are delivered to customers?
---------------------------------------------------------------------------
    \8\ Some companies use their own hardware components for testing or 
development purposes for a period of 90 days or less and then sell them 
to customers (tax laws allow this). It's critical to ensure that there 
is no data or non-standard programs on the hardware for the protection 
of both the supplier and customers. This is a different issue than 
wiping corporate data (or intellectual property) prior to disposition.
---------------------------------------------------------------------------
    HO2. Is this verified to ensure that data is truly non-recoverable?
    HO3. Are hardware components used operationally wiped before being 
scrapped or resold to ensure that data is non-recoverable?
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Ensign to 
                           Mary Ann Davidson
    Question 1. Ms. Davidson, Mr. Lewis of the Center for Strategic and 
International Studies states in his testimony that public-private 
partnerships, information-sharing, self-regulation, and market-based 
solutions in the cybersecurity space are ``well past their sell-by 
date'' and have not been successful. He argues that strong government 
mandates are required to spur the cybersecurity innovation that our 
country needs. As the only witness on the panel who has any hands-on 
cybersecurity experience in the private sector, do you agree with Mr. 
Lewis that we have exhausted the potential of market-based solutions to 
improve cybersecurity? If not, what specific steps can we take to 
improve cooperation and coordination between industry and the 
government?
    Answer. With all respect to my esteemed colleague, Mr. Lewis, I do 
not agree with him on this issue. To take these points separately, I do 
not think that market based solutions have been fully explored in areas 
where they could help harvest low hanging security fruit. To give one 
such example, the Air Force (under then-CIO John Gilligan) realized 
that some 80 percent of their serious security vulnerabilities (as 
identified by NSA) were the result of poor desktop configurations. They 
worked with one of their major suppliers (Microsoft) and NSA to craft a 
more secure desktop configuration and then--as a condition of 
procurement--required Microsoft to ship products to them in the secure 
default configuration. They estimated they saved millions of dollars 
over the life of their contract and dramatically improved their 
security posture. That configuration became the basis of the Federal 
Desktop Core Configuration (FDCC), which the Office of Management and 
Budget (OMB) required all suppliers to be able to comply with (that is, 
suppliers who ran on a Microsoft desktop needed to assert that they 
supported /could run on an FDCC-compliant Windows desktop).
    While the way the program was implemented can and should be 
improved, as a general construct, it was an important and needed 
effort. The U.S. government could help themselves--and other market 
sectors--by requiring any product sold to them to: (a) deliver a secure 
configuration guide, (b) allow the product to be installed by default 
in the secure configuration, and (c) provide either tools to maintain 
the configuration OR make the security-specific configuration 
parameters machine readable in a standard format (such as Security 
Content Automation Protocol (SCAP)). It is a ``no brainer'' to require 
suppliers to do something once that enables all customers to: (a) be 
more secure out of the box, (b) maintain their security posture easily, 
and (c) lower their lifecycle security costs. Yet, it has never been 
broadly adopted as a procurement requirement. There is a lot of low 
hanging fruit like that that has never been planted, let alone 
harvested. (Note: Oracle, like many large vendors, has instituted 
``secure by default'' as part of their development process. We do this 
because we, like many vendors, run our own company on our own software 
and thus it lowers our own IT security costs and improves our IT 
security posture as a company, not to mention that of all other 
customers. Providing good security at an attractive price point is also 
a competitive advantage for us. In short, we have market incentives 
(lower cost of operations) to deliver secure configurations.)
    No vendor can or should argue that doing something once as a 
vendor, that improves security for all customers, and lowers their 
lifecycle costs, ``can't be done'' or ``shouldn't be done.'' It does 
work, it can work, it must work. It makes too much economic sense not 
to work (and does, indeed, correct a market inefficiency).
    I am leery of ``information sharing'' being thrown out as a 
security cure-all, because information sharing is a technique, or a 
tactic; it is not a strategy. Specifically, it is not always easy to 
ascertain what information is useful, with whom it should be shared, 
what the desired result would be of such information sharing, and so 
on. Absent some concrete ``for instances,'' it's ineffective for 
everyone to share everything with everybody as a cure for cybersecurity 
problems. Furthermore, information sharing (in the general sense) 
typically imposes costs on those sharing the information that may 
``crowd out'' other--more useful--security activity. Not to mention, 
many businesses are global entities, so it is difficult to share 
information with one entity (the U.S. government) and not others (e.g., 
other governments).
    Back to the procurement idea, what would actually facilitate 
information sharing, and enable better situational awareness as well as 
more automated defenses is continuing to push the elements of SCAP 
through the standards process (ideally, as an international standards 
organization (ISO) standard) and then requiring suppliers to support 
SCAP as a condition of Federal procurement. Why? Because currently, 
nobody can answer the following questions real time: what is on my 
network? who is on my network? what is my state of (security) 
readiness? and what is happening that I should be concerned about? SCAP 
does not speak to all of these, but absent being able to automate 
discovery of what's on the network--what products, what versions--what 
is the security configuration of those elements--what vulnerabilities 
are present? and so on, there is no way that defenses can be automated. 
And, being able to have a common language to express the above would 
take the scarce resources we now employ in purchasing and deploying 
multiple one-off tools--which cannot communicate with all networks 
elements, which cannot express ``readiness'' in any way that is 
actionable--and apply them to other areas of network defense. Better 
intelligence at a lower cost: voila!
    Automated and actionable information sharing for which the 
information has a specific purpose and distinct benefit is more 
effective than ``give us all your information.''
    In short, the government can and does change the market through 
their procurement policies. ``You don't ask; you don't get'' is not, 
perhaps, enshrined in the Federal Acquisition Regulations, but it 
should be. And, working with industry in a public private partnership 
to talk about how rapidly those requirements can be implemented, what 
kind of timelines, and so on, could help make procurement an effective 
instrument of change.
    Another example: the Defense Department claims they want to do 
better risk based acquisitions. One way to accomplish this would be for 
the U.S. Government to come up with a standard (i.e., ``single'' ) set 
of reasonable questions around software development practices that 
would help a customer know what was and was not done in the area of 
security. They should be questions for which the answers: (a) have 
value, (b) would materially affect the customers' decision to procure 
and (c) have a specific purpose in mind that (d) should be readily 
answerable by both large and small suppliers. A vendor could answer 
these questions once (per product) and the results could be reused by a 
number of procurement offices. Better information, at lower cost, and 
more transparency. Transparency also reduces market inefficiencies 
(i.e., where the seller has more information than the purchaser). This 
is also a better approach than having multiple, agency-specific or 
country specific ``assessments'' that actually crowd out security 
improvements (just as having 12 termite inspections will not results in 
a house with \1/12\<SUP>th</SUP> the number of termites, but it will 
result in a more expensive house). I already have had customers asking 
for such transparency and, where a product group is not doing as well 
as I would like, I have used the ``transparency requirement'' to push 
the problems to a senior level of management. (That is, if you don't 
want to publicly say you don't do A, B, and C, because you think you 
will look bad vis a vis your competitors, then the remedy is to start 
doing A, B and C. This assumes A, B and C are worth doing and 
materially improve security which, in the case of our company and 
others who have such software assurance programs, they are.) If it is 
true that everybody cannot do everything perfectly in security (and it 
is true), it is also true that most of us can do some things better 
that are also economically feasible to do better.

    Question 2. Ms. Davidson, in your testimony you discuss the need to 
change our educational system and to slow our country's exposure to 
systemic cybersecurity risk. You raise a lot of good points, but do you 
have any other specific recommendations on what this committee can do 
to harden and protect our critical infrastructure?
    Answer. What about starting to require self defending products as 
part of procurement? The Marine Corps ethos is ``every Marine a 
rifleman.'' That is, every Marine can fight, and they don't outsource 
individual defense to the next Marine down the line. They do not assume 
their perimeters will not be breached, nor that they will never take 
casualties.
    Given the threat environment (and the fact that our perimeters are 
so porous), we should change our mindset away from ``build stronger 
firewalls'' to realizing that: (a) perimeters will be breached and thus 
(b) we need both ``redoubts''--ideally dynamic redoubts--and for each 
product to be able to defend itself. That is, products already know 
what good input look likes, how to handle bad input gracefully, It 
ought also to anticipate ``evil input'' and be able to share real time 
information (e.g., events of interest) via a common auditing protocol 
and format (something NIST could develop and, apparently is developing 
via a standard called CEE (Common Event Expression). A fire team pinned 
down by enemies will not last long if it cannot tell the command post 
they are under fire in language the command post can understand. 
Systems under attack will not be able to survive if they cannot 
digitally do the same thing.
    Procurement could be used to start ``signaling'' the marketplace 
that DOD expects products to natively defend themselves instead of 
assuming ``nobody would ever do that,'' and ``the firewall will save us 
all'' as is the case now.
    Networks are--like it or not--battlefields now and we ought to take 
the lessons we have learned from warfare and apply them to general 
network defense (and by that I do not necessarily mean ``cyberwar''). 
By way of example, the late Maj. John Boyd's theories on the importance 
of maneuverability to air combat (popularized as the so-called observe-
orient-decide-act (OODA) loop) found later application to ground combat 
(i.e., in the first Gulf War) and also in business strategy.

    Question 3. Ms. Davidson, in his testimony, Admiral McConnell 
recommends establishing a National Cybersecurity Center (modeled after 
the National Counter Terrorism Center) that would integrate private 
sector participation with interagency cooperation. What are your 
thoughts about such a center? In your opinion, would the private sector 
view this as a positive development or just one more layer of 
government bureaucracy?
    Answer. Before undertaking such an activity, I'd want to consider 
what existing organizations do (and how well) and what the ``mission 
statement'' is for such a new organization. We already have industry 
specific information sharing and analysis centers (ISACs) which are 
natural focal points for both industry sectors to share information 
among themselves and to serve as a focal point for interactions with 
government (e.g., I have been told--but have no way to verify--that the 
Heartland Payment Systems data breach used techniques that were known 
and discussed in the financial services industry ISAC (of which 
Heartland was not a member at the time)).

    Question 4. What mechanisms are in place for private companies to 
report cyber intrusions (either originating domestically or overseas) 
to the Federal Government?
    Answer. As a general comment, I think we need to choose words 
carefully in terms of what constitutes an intrusion. That is, there may 
be ``general patterns of traffic'' that could be of interest, that do 
not constitute an intrusion. Also, there are ``incidents'' that, upon 
investigation, are found not to have merit. For example, if a company 
has poor processes for terminating the accounts of employees who have 
left, and a (former) employee accesses their network, should that be 
reported to the government? I would think ``no,'' in the general case. 
Now, if the company had evidence that their industrial designs for, 
say, a new hardware encryption device being built for the Defense 
Department were exfiltrated by that employee, the answer would likely 
be ``yes.''

    Question 5. What is being done to encourage private companies, 
particularly those with government contracts, to report cyber 
intrusions (either originating domestically or overseas)?
    Answer. With all respect, this discussion, doubtless coming on the 
heels of the Google-China incident, reminds me of the discussions of 8 
or 9 years ago, when the Federal Government wanted information about 
non-public security vulnerabilities in software products (the 
discussion was typically, ``vendors, give us all your vulnerability 
information''). Leaving aside the fact that a) there is often no 
remediation for such issues until the vendor issues a patch, b) sharing 
that information inevitably results in data leaks, which puts everyone 
at risk. Famously, CPNI (part of MI-5) ``shared'' such information on a 
``need to know'' basis only (with other UK intelligence or Ministry of 
Defence entities) and yet it leaked to U.S. COMMERCIAL customers, which 
led to the actual vulnerability being reported to the vendor who built 
the software. The vendor, of course, was the only one actually able to 
remediate the defect. In the meantime, the risk to the vendors' 
customer base materially increased and the trust of the vendor 
community toward this particular government materially decreased. (CPNI 
have since implemented much better information sharing protocols.)
    There is a difference between a cyber intrusion where the entity 
has determined is limited and did no damage and one in which there was 
material harm. The next question ought to be a consideration of the 
benefit of sharing that information, the cost of obtaining it, and the 
positive results that would accrue from it. Just asking people to throw 
audit logs over the wall to a third party, for example, does not have a 
clear benefit (and could, if the information were not handled properly, 
render the intruded upon entity MORE vulnerable in the future).

    Question 6. Do government contractors have an ethical or statutory 
obligation to report cyber intrusions (either originating domestically 
or overseas)?
    Answer. In my opinion, it depends upon the nature of the intrusion.

    Question 7. Do government contractors with classified information 
on their servers and individuals with security clearances on their 
payrolls have a statutory or ethical obligation to report cyber 
intrusions (either originating domestically or overseas)?
    Answer. See earlier comments. Note that I am not arguing against 
reporting anything; my concern is that any organization on either the 
originating or receiving end of information can drown in it if the 
information is not targeted for a specific purpose. And, if a system is 
vulnerable, and the vulnerability had not been remediated (which may 
require an architectural change or operational change), if the 
information about HOW the breach occurred is not protected, the company 
will be more vulnerable.
    Clearly, there are occasions in which an intrusion would have 
larger ramifications than just the effect on the intruded upon entity. 
For example, if a contractor is developing a new weapons program, and 
the designs are exfiltrated to a hostile nation state, which renders 
the value of the weaponry potentially much lower to the Defense 
Department. You can't have a technical advantage if the technology is 
used by everybody.
    In short, I think ``incident reporting'' to be successful would 
need some clear ground rules for both asker and askee to include what 
types of incidents or intrusions are material and germane.

    Question 8. When Request For Proposals (RFPs) are put out for 
contracts that involve sensitive or classified information do all of 
these RFPs require that bids include the number of successful and 
unsuccessful cyber intrusions committed by domestic or foreign entities 
(either originating domestically or overseas)?
    Answer. I am unaware of any such requirements in RFPs.
    At the risk of stating the obvious, you can't count unsuccessful 
intrusions because there are a lot of attempts you cannot necessarily 
capture. Also, you cannot count the successful intrusions you haven't 
found yet, either. What would be unproductive is reporting something 
like ``number of port scans'' as a proxy for ``unsuccessful 
intrusions'' Firewalls get scanned all the time. Having to collect that 
data and report it doesn't really accomplish anything besides taking a 
scarce resource (a good security person) and putting them on a 
reporting function.
    By way of example, about 9 or 10 years ago, after Oracle started 
running an ad campaign entitled ``Unbreakable''--the port scans on our 
firewall (that is, an attempt to look for open ports, perhaps through 
which to mount an attack) increased by an order of magnitude in just 
one week. We can pretty confidently conclude that the increase in port 
scans was from hackers who wanted to be the first to break 
``Unbreakable.'' Now, there were no actual intrusions but, in the 
absence of a precise definition, someone could require these port scans 
to be reported as an ``incident.'' That would not be a productive use 
of either a reporter's time or the time of an entity on the receiving 
end, either.

    Question 9. In your opinion, if a private company believes that it 
has been the victim of a cyber intrusion (both originating domestically 
or overseas), which is the appropriate agency that it should report 
this intrusion to?
    Answer. The FBI. And in fact the FBI does reach out to local 
businesses in Silicon Valley (and for all I know in other locations) to 
engage in dialogue. Dong this proactively is better than hoping a 
company knows to call the FBI.

    Question 10. In your opinion, if a government contractor believes 
that it has been the victim of a cyber intrusion (both origination 
domestically or overseas), which is the appropriate agency that it 
should report this intrusion to?
    Answer. The FBI.

    Question 11. In your opinion, if a government contractor that is 
working on a sensitive or classified project and believes that it has 
been a victim of a cyber intrusion (both origination domestically or 
overseas), which is the appropriate agency that it should report this 
intrusion to?
    Answer. I think the company ought to be doing an investigation on 
their own first and in fact, most organizations of size DO have (or 
should have) an incident response protocol which includes a series of 
decisions as to whether law enforcement should be contacted (regarding 
an incident) and under what conditions. For example, if a government 
contractor experienced a website defacement (which is an ``incident'' 
under most definitions), does any Federal Government entity really want 
that reported to them? (Note that a web page for the company as a whole 
is likely a different area of the network than a classified program.)
    This would actually be a good area for industry-government 
dialogue--under what circumstances would the government want to know of 
``incidents?''
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                   to Rear Admiral James Barnett Jr.
    Question 1. What about cybersecurity? Are you confident that the 
everyday American citizen knows the threat that we are under, and knows 
how to make his or her own home or business safe?
    Answer. I believe that the consumers, on the whole, are becoming 
more aware of the threats that exist when they use the Internet, but 
there continues to be room for improved education in this area. Polling 
data, for example, indicates that citizen awareness is improving. A 
March 2009 poll conducted by Harris Interactive indicates that online 
security awareness among adults 18 and over had ``grown tremendously in 
the past 2 years. The study found that 62 percent are more concerned 
about their online security.''
    Nevertheless earlier studies identified significant gaps between 
perceptions and the realities of America's cyber security and are cause 
for continuing concern. For example whereas 81 percent said they were 
using a firewall, expert analysis indicated that in reality only 42 
percent had a firewall installed on their computer.\1\
---------------------------------------------------------------------------
    \1\ 2008 NCSA/Symantec Home User Study, October 2008, http://
staysafeonline.mediaroom
.com/index.php?s=67&item=46.

    Question 2. Should there be basic cyber awareness and education as 
part of the normal curriculum in elementary and secondary school?
    Answer. Yes. Regardless of the environment in which it is taught, 
our youngest generation needs instruction at the appropriate time by 
responsible adults who are knowledgeable on these subjects. According 
to a poll released February 25, ``more than 90 percent of technology 
coordinators school administrators and teachers support teaching 
cyberethics, cybersafety and cybersecurity in schools. However, only 35 
percent of teachers and just over half of school administrators report 
that their school districts require cyberethics, cybersafety, and 
cybersecurity in their curriculum.'' \2\ There are also differing 
opinions ``as to who is or should be responsible (parents vs. teachers) 
for educating students about cyberethics, cybersafety, and 
cybersecurity. For example, while 72 percent of teachers indicated that 
parents bear the primary responsibility for teaching these topics, 51 
percent of school administrators indicate that teachers are 
responsible.'' \3\
---------------------------------------------------------------------------
    \2\ Cybersecurity, Safety and Ethics Education Falls Short in U.S. 
Schools, February 2010. http://staysafeonline.mediaroom.com/
index.php?s=43&item=57.
    \3\ Ibid.

    Question 3. What must the government do better? What must the 
private sector do better? What responsibilities do both have to the 
public at large?
    Answer. Concerning educating the everyday American citizen on 
cybersecurity issues, the government must speak with a single, clear 
voice. Hence the FCC is committed to working with other Federal 
agencies to deliver a coordinated message. The Commission has a unique 
role on the Federal team protecting the critical communications 
infrastructure against cyber attacks. Thus, the Commission must 
coordinate its own focus on the cybersecurity of the communications 
infrastructure with the end-system and standardization cybersecurity 
responsibilities that have been delegated to DHS, FTC, NIST, and other 
Federal agencies. Many broadband service providers are to be commended 
for making ``anti-virus'' software and services available to their 
subscribers, frequently free of charge. These providers should take 
steps to ensure that their subscribers not only are aware of the 
availability of such software and services, but, through appropriate 
communications to them, also take steps to ensure that they understand 
the perils of not taking advantage of these offerings or ones that 
offer similar protections.
    The government and the private sector must also work together to 
ensure the cyber security of our Nation's critical infrastructures. For 
example, they must work together to identify and encourage the 
implementation of standards and best practices that will enhance the 
security of our systems. In this regard, the Commission's National 
Broadband Plan recommended that the Commission explore creation of a 
voluntary cyber security certification program as a mechanism to 
encourage the implementation of cyber security best practices by 
communications service providers. The government and the private sector 
must also develop a partnership that allows for sharing of threat and 
vulnerability information.

    Question 4. With this in mind, how can we fashion a public-private 
partnership, based on trust, that allows for sharing of confidential 
and/or classified threat and vulnerability information between the 
government and critical private sector networks?
    Answer. Our experience working with telecommunications carriers on 
communications outage reporting and vulnerability analysis suggests 
that this is possible. The recently released National Broadband Plan 
recommended that the Commission and the Department of Homeland 
Security's Office of Cybersecurity and Communications should 
collaboratively develop an IP network Cyber Information Reporting 
System (CIRS). As envisioned, CIRS would serve as a mechanism by which 
the Commission could collect situational awareness information from 
communications service providers and ISPs, during cyber events as 
opposed to hurricanes and other types of emergencies. Under CIRS, the 
Commission would act as a trusted facilitator to ensure that any 
information sharing is reciprocated and structured in such a fashion 
that ISP proprietary information remains confidential. CIRS filers may 
be in a position to report about downstream attacks, i.e., attacks on 
customers. Accordingly, relevant privacy issues and other details would 
need to be addressed.

    Question 5. Would government and private cybersecurity efforts 
benefit from ``vulnerability mapping'' of major U.S. networks, public 
and private?
    Answer. Yes. Vulnerability mapping typically involves identifying 
weaknesses in the targeted network infrastructure components and their 
communications protocols. Many of these weaknesses are already well 
understood and a greater benefit would come from ubiquitous deployment 
of known fixes and best practices. Naturally, steps would have to be 
taken to secure this sensitive information.

    Question 6. What are the specific risks to such an activity?
    Answer. The most obvious risk of vulnerability mapping is a breach 
in information security whereby an adversary obtains sensitive 
information about vulnerabilities in our critical communications 
infrastructure. I believe this risk can be mitigated with proper 
safeguards, and I further believe that the benefits of vulnerability 
mapping outweigh the risks. There's little real security to be achieved 
through obscurity. Any effort relying on security through obscurity--
the idea of not drawing attention to a security problem lessens the 
potential for a security event--assumes that if flaws are not known, 
that attackers are unlikely to find them. While this notion may be 
theoretically attractive as a defense in-depth measure, in the real 
world where we are dealing with multiple vulnerabilities spread across 
a substantial infrastructure, which is currently the case, this is not 
a reasonable assumption. Rather, achieving security by design--where 
concerted efforts are brought to bear on solving a set of vulnerability 
risks--would make us more secure.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Ensign to 
                     Rear Admiral James Barnett Jr.
    Question 1. Are there any legal restrictions we should focus on 
that make it more difficult for industry and government agencies to 
share the information needed to protect our critical cyber 
infrastructure? Are there any bathers that Congress needs to eliminate, 
or any legal flexibility we can provide to foster the necessary sharing 
while still protecting sensitive or proprietary information?
    Answer. I believe that the Administration's recent Cyberspace 
Policy Review--Assuring a Trusted and Resilient Information and 
Communications Infrastructure, to which the FCC contributed, captures 
well the current state of information sharing between and among 
industry and government agencies:
    ``Some members of the private sector continue to express concern 
that certain Federal laws might impede full collaborative partnerships 
and operational information sharing between the private sector and 
government. For example, some in industry are concerned that the 
information sharing and collective planning that occurs among members 
of the same sector under existing partnership models might be viewed as 
``collusive'' or contrary to laws forbidding restraints on trade. [For 
example, the Sherman Antitrust Act, 15 U.S.C.  1-7 (2004)]. Industry 
has also expressed reservations about disclosing to the Federal 
Government sensitive or proprietary business information, such as 
vulnerabilities and data or network breaches. This concern has 
persisted notwithstanding the protections afforded by statutes such as 
the Trade Secrets Act and the Critical Infrastructure Information Act, 
which was enacted specifically to address industry concerns with 
respect to the Freedom of Information Act (FOIA). Beyond these issues, 
industry may still have concerns about reputational harm, liability, or 
regulatory consequences of sharing information. Conversely, the Federal 
Government sometimes limits the information it will share with the 
private sector because of the legitimate need to protect sensitive 
intelligence sources and methods or the privacy rights of individuals.
    These concerns do not exist in isolation. Antitrust laws provide 
important safeguards against unfair competition, and FOIA helps ensure 
transparency in government that is essential to maintain public 
confidence. The civil liberties and privacy community has expressed 
concern that extending protections would only serve as a legal shield 
against liability. In addition, the challenges of information sharing 
can be further complicated by the global nature of the information and 
communications marketplace. When members of industry operating in the 
United States are foreign-owned, mandatory information sharing, or 
exclusion of such companies from information sharing regimes, can 
present trade implications.''
    [Obama Administration, Cyberspace Policy Review--Assuring a Trusted 
and Resilient Information and Communications Infrastructure, May 29, 
2009, p.18]

    Question 2. What mechanisms are in place for private companies to 
report cyber intrusions (either originating domestically or overseas) 
to the Federal Government?
    Answer. The FCC currently has rules that require communications 
providers to report disruptions to circuit-oriented infrastructure and 
wireline and wireless switched-voice services. Thus, if a cyber 
intrusion resulted in a circuit-oriented or switched-voice 
communications service outage that meets certain thresholds, the 
communications provider must report the outage and the root cause to 
the FCC. These rules generally cover legacy communications systems and 
do not cover Internet Protocol (IP)-based communications 
infrastructure. To address this, the National Broadband Plan proposed 
that the Commission initiate a proceeding to expand these outage 
reporting rules to broadband Internet service providers and to 
interconnected voice over 1P service providers.
    In addition, the National Broadband Plan recommended that the 
Commission and the Department of Homeland Security's Office of 
Cybersecurity and Communications collaboratively develop an lP network 
Cyber Information Reporting System (CIRS) somewhat as an analog of the 
FCC's Disaster Information Reporting System (DIRS). Specifically, the 
National Broadband Plan states that ``CIRS will be an invaluable tool 
for monitoring cybersecurity and providing decisive responses to cyber 
attacks.
    ORS should be designed to disseminate information rapidly to 
participating providers during major cyber events. CIRS should be 
crafted as a real-time voluntary monitoring system for cyber events 
affecting the communications infrastructure. The FCC should act as a 
trusted facilitator to ensure any sharing is reciprocated and that the 
system is structured so ISP proprietary information remains 
confidential.'' National Broadband Plan, Recommendation 16.8 (available 
at http://www.broad
band.gov/plan/16-public-safetyntr16-1).

    Question 3. What is being done to encourage private companies, 
particularly those with government contracts, to report cyber 
intrusions (either originating domestically or overseas)?
    Answer. The packet-oriented infrastructure and packet-switched 
services such as Internet access are much more susceptible to outages 
caused by cyber incidents. The FCC has engaged in collaborative efforts 
with industry, including Internet Service Providers, to enhance 
industry's own ability to prevent and respond to cyber events through 
Federal advisory committees, which include private sector 
representatives. There are currently no requirements for reporting 
packet-switched service outages or their causes, which would include 
cyber incident causes.
    The FCC's National Broadband Plan has recommended that the 
Commission's Part 4 outage reporting rules be expanded through a 
rulemaking proceeding to include ISPs and interconnected VoIP service 
providers. The Commission would seek comment about reported ``causes'' 
and thresholds for reportable events. As with the data received 
pursuant to the Commission's circuit-oriented outage reporting rules, 
ISP and VoIP outage data would be analyzed and used to support 
cooperative efforts with industry to improve security and reliability.

    Question 4. Do government contractors have an ethical or statutory 
obligation to report cyber intrusions (either originating domestically 
or overseas)?
    Answer. We are not aware of any code of ethics or statutory 
obligation that requires government contractors to report cyber 
intrusions. Although the Federal Acquisition Regulation (FAR) requires 
contracts over $5 million to include a clause requiring the contractor 
to establish a written code of business ethics and conduct, there is no 
FAR requirement that such codes address the subject of cyber 
intrusions. FCC Directive 1479.3 (mentioned in the response to question 
5), which is included in a small number of FCC IT contracts, requires 
reporting of ``security incidents'' regarding FCC IT systems.

    Question 5. Do government contractors with classified information 
on their servers and individuals with security clearances on their 
payrolls have a statutory or ethical obligation to report cyber 
intrusions (either originating domestically or overseas)?
    Answer. Under the National Security Act, government contractors and 
their employees with security clearances have a statutory obligation to 
protect the classified information that comes into their possession. 
This requires the same reporting of cyber intrusions into systems that 
involve sensitive information as fall to government employees.

    Question 6. When Request For Proposals (RFPs) are put out for 
contracts that involve sensitive or classified information do all of 
these RFPs require that bids include the number of successful and 
unsuccessful cyber intrusions committed by domestic or foreign entities 
(either originating domestically or overseas)?
    Answer. The FCC's information technology contracting procedures 
require contractors to comply with the security matters addressed in 
FCC Directive 1479, which ``establishes policy and assigns 
responsibilities for assuring that there are adequate levels of 
protection for all FCC information systems, the FCC Network, 
applications and databases, and information created, stored, or 
processed therein.''
    A requirement that the vendor report the number of successful and 
unsuccessful cyber intrusions is not a standard feature of FCC 
contracts for information technology systems. However, under current 
procedures this requirement could be included in the language for those 
contracts for systems that involve sensitive information at the 
discretion of the Contracting Officer. The nature of Internet-based 
cyber attacks is such that careful attention would have to be given to 
specifying definitions, thresholds and suspected origination of cyber 
intrusions.

    Question 7. In your opinion, if a private company believes that it 
has been the victim of a cyber intrusion (both originating domestically 
or overseas), which is the appropriate agency that it should report 
this intrusion to?
    Answer. If a cyber intrusion results in circuit-oriented or 
switched-voice communications service outages that meet certain 
thresholds, then the communications provider must report the outage and 
the root cause (i.e., the cyber incident) to the FCC in accordance with 
Part 4 of our regulations. As noted above, the FCC's National Broadband 
Plan has recommended that outage reporting rules be expanded to include 
ISPs and interconnected VoIP services through a rulemaking proceeding.
    More generally, as the GAO has noted, where criminal activity is 
involved ``the Departments of Justice (DOA Homeland Security (DHS), and 
Defense (DOD), and the Federal Trade Commission (FTC) have prominent 
roles in addressing cybercrime within the Federal Government. DOD's FBI 
and DHS's U.S. Secret Service (Secret Service) are key Federal 
organizations with responsibility for investigating cybercrime. State 
and local law enforcement organizations also have key responsibilities 
in addressing cybercrime.''
    [Cybercrime--Public and Private Entities Face Challenges in 
Addressing Cyber Threats, June 2007, GAO-07-705, p.1]

    Question 8. In your opinion, if a government contractor believes 
that it has been the victim of a cyber intrusion (both origination 
domestically or overseas), which is the appropriate agency that it 
should report this intrusion to?
    Answer. In my opinion a government contractor should--unless the 
applicable contract otherwise provides--first report a cyber intrusion 
to the contracting agency; for example an FCC contractor should report 
a cyber intrusion to the FCC. If criminal activity is suspected, then 
the FCC will report the intrusion to the agency or agencies that 
investigate cyber crime within the Federal Government, such as the 
Departments of Justice and Homeland Security.

    Question 9. In your opinion, if a government contractor that is 
working on a sensitive or classified project and believes that it has 
been a victim of a cyber intrusion (both origination domestically or 
overseas), which is the appropriate agency that it should report this 
intrusion to?
    Answer. Unless the governing contract otherwise provides, a 
government contractor should first report a cyber intrusion involving 
sensitive or classified information to the contracting agency. If 
criminal activity is suspected, then the agency should report the 
intrusion to the agency or agencies that investigate cyber crime within 
the Federal Government, such as the Departments of Justice and Homeland 
Security.

                                  <all>

</pre></body></html>
